<html>
<title> - IMPLEMENTATION OF THE FAST ACT</title>
<body><pre>[Senate Hearing 114-574]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-574

                     IMPLEMENTATION OF THE FAST ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                                

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-520 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                  Adrian Arnakis Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 8, 2016.....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     3
    Letter dated March 9, 2016 to Ludwig Willsch, Chief Executive 
      Officer and President, BMW of North America, LLC...........     4
    Letter dated March 9, 2016 to Michael Horn, President and 
      Chief Executive Officer, Volkswagen Group of America.......     7
    Letter dated March 9, 2016 to James Lentz, Chief Executive 
      Officer, Toyota Motor North America........................    10
    Letter dated March 9, 2016 to Tomomi Nakamura, Chairman and 
      Chief Executive Officer, Subaru of America, Inc............    13
    Letter dated March 9, 2016 to Jose Munoz, Chairman, Nissan 
      North America, Inc.........................................    16
    Letter dated March 9, 2016 to Ryujiro Kobashi, President and 
      Chief Executive Officer, Mitsubishi Motors North America, 
      Inc........................................................    19
    Letter dated March 9, 2016 to Dietmar Exler, President and 
      Chief Executive Officer, Mercedes-Benz USA, LLC............    22
    Letter dated March 9, 2016 to Masahiro Moro, President and 
      Chief Executive Officer, Mazda Motor of America, Inc.......    25
    Letter dated March 9, 2016 to Takuji Yamada, Chief Executive 
      Officer and President, American Honda Motor Co., Inc.......    28
    Letter dated March 9, 2016 to Mary T. Barra, Chairman and 
      Chief Executive Officer, General Motors Company............    31
    Letter dated March 9, 2016 to Sergio Marchionne, Chairman and 
      CEO, FCA US LLC............................................    34
    Letter dated March 9, 2016 to Mark Fields, President and 
      Chief Executive Officer, Ford Motor Company................    37
    Letter dated March 9, 2016 to Bernhard J. Glaser, Vice 
      President and Managing Director, Daimler Vans USA..........    40
    Letter dated March 9, 2016 to Martin Daum, President and CEO, 
      Daimler Trucks North America LLC...........................    43
Statement of Senator Fischer.....................................    54
Statement of Senator Klobuchar...................................    56
Statement of Senator Schatz......................................    58
Statement of Senator Peters......................................    60
Statement of Senator Heller......................................    61
Statement of Senator Cantwell....................................    63
Statement of Senator Ayotte......................................    65
Statement of Senator Blumenthal..................................    67
Statement of Senator Sullivan....................................    69
    Article dated September 11, 2015 from The Wall Street Journal 
      entitled ``Highway to Bureaucratic Hell''..................    70
    Article dated May 25, 2016 from the Boston Globe by Lawrence 
      H. Summers and Rachel Lipson...............................    72
    Prepared statement...........................................    74
Statement of Senator Moran.......................................    74
Statement of Senator Daines......................................    76
Statement of Senator Wicker......................................    78

                               Witnesses

Hon. Anthony R. Foxx, Secretary, U.S. Department of 
  Transportation.................................................    46
    Prepared statement...........................................    48

                                Appendix

Response to written questions submitted to Hon. Anthony R. Foxx 
  by:............................................................
    Hon. John Thune..............................................    83
    Hon. Roger F. Wicker.........................................    99
    Hon. Roy Blunt...............................................   100
    Hon. Marco Rubio.............................................   102
    Hon. Deb Fischer.............................................   104
    Hon. Jerry Moran.............................................   108
    Hon. Dan Sullivan............................................   109
    Hon. Steve Daines............................................   111
    Hon. Bill Nelson.............................................   115
    Hon. Richard Blumenthal......................................   115
    Hon. Brian Schatz............................................   118
    Hon. Edward Markey...........................................   120
    Hon. Cory Booker.............................................   120
    Hon. Gary Peters.............................................   122

 
                     IMPLEMENTATION OF THE FAST ACT

                              ----------                              


                        WEDNESDAY, JUNE 8, 2016

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Nelson, Fischer, 
Klobuchar, Schatz, Peters, Heller, Cantwell, Ayotte, 
Blumenthal, Sullivan, Moran, Daines, Wicker, McCaskill, Booker, 
and Gardner.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good afternoon. This hearing will come to 
order.
    Mr. Secretary, welcome. Great to have you here. Thanks for 
joining us to discuss the implementation of the FAST Act. We've 
just passed the 6-month anniversary of the enactment of the 
first long-term highway bill in more than a decade, and after 
36 short-term extensions, the FAST Act provides the certainty 
and reforms necessary to improve our Nation's infrastructure 
and spur economic growth.
    The FAST Act was a significant bipartisan achievement 
showing once again the Senate is back to work for the American 
people. This committee's work, which accounted for more than 
half of the text of the bill, helped to enhance safety, 
increase transparency, reform regulatory structures, and 
improve planning for free, with reforms covering everything 
from railroads to cars, and truck to ports, as well as research 
and technology, this legislation was a true team effort to 
reduce congestion, protect passengers, and improve our Nation's 
multimodal supply chain.
    Each member of the Committee contributed to the success of 
the FAST Act. Senator Fischer drafted the FMCSA reforms. 
Senators Wicker and Booker formed a bipartisan team to 
reauthorize Amtrak and rail safety and infrastructure programs. 
Senators Blunt, Heller, and Manchin contributed provisions to 
streamline the permitting process for rail projects. And 
Senator Cantwell made major contributions on freight 
transportation. Senators Ayotte, Heller, McCaskill, and 
Klobuchar all made significant contributions to the NHTSA 
titles.
    The FAST Act contains many provisions that protect lives on 
our Nation's roadways by improving highway traffic safety and 
promoting greater consumer awareness and corporate 
responsibility for vehicle safety. For instance, I'm pleased 
that the Motor Vehicle Safety Whistleblower Act is now the law 
of the land. This law, which I introduced with Ranking Member 
Nelson and others, incentivizes employees to blow the whistle 
when manufacturers sit on important safety information.
    Other provisions in the bill also sought to address a lack 
of confidence in NHTSA's handling of recent recalls by creating 
strong incentives for the agency to get its house in order. In 
the wake of the recall over the GM ignition switch defect, the 
Inspector General published a scathing report identifying 
serious lapses at NHTSA, including questions about the agency's 
ability to identify and investigate safety problems.
    Following the incentives in the FAST Act, I understand that 
NHTSA has made some progress implementing the reforms called 
for by the Inspector General, closing 8 of its 17 
recommendations. Clearly, there is more work to be done, 
however, and you can expect continued pressure from this 
committee to increase agency efficiency.
    I'm also proud of the impaired driving provisions that we 
worked to enact. The law adds a new grant to states that 
provide 24/7 sobriety programs, a program which originated in 
South Dakota, while maintaining a grant for states with 
stronger ignition interlock laws. I'm pleased that the 
Department seems to be listening to stakeholder concerns about 
the implementation of highway safety grants, but the Department 
needs to improve its partnership with the states on highway 
safety and provide greater flexibility so that states can 
tackle their own unique highway safety challenges.
    As I noted, in addition to vehicle safety, the FAST Act 
includes a rail title sponsored by Senators Wicker and Booker 
that reforms Amtrak to improve its services and finances, 
overhauls the Railroad Rehabilitation and Improvement Financing 
program to make it more efficient and accessible, and, most 
importantly, raises the bar on rail safety.
    I commend the Department for its thoughtful approach in 
defining Amtrak's new account structure and its expeditious 
action to meet the deadlines set in law. While some of the RRIF 
program reforms are tied up with the creation of the Innovative 
Finance Bureau, I hope the Department can nonetheless take 
quick action to increase the transparency of the program, repay 
credit risk premiums, and provide stakeholders with greater 
certainty concerning eligibility and program terms.
    On rail safety, I look forward to FRA's forthcoming actions 
to implement the grade crossing requirements of the FAST Act, 
including the distribution of model action plans in risk data 
to States. In 2015, 244 individuals died at railroad crossings, 
the second most common cause of railroad-related fatalities 
after trespassing. I strongly encourage FRA to provide states 
with comprehensive and detailed education enforcement and 
engineering strategies to reduce grade crossing accident risk. 
I expect this will entail collaboration across the Department 
and with stakeholders on the more effective uses of Section 130 
program funds.
    I also look forward to the FRA's forthcoming actions to 
implement my amendment requiring cameras on passenger trains, 
fulfilling a longstanding NTSB recommendation in helping 
railroads better monitor crews and track conditions. This is 
just one of several FAST Act requirements to increase rail 
safety as positive train control is fully and safely 
implemented. In addition to new safety measures, the FAST Act 
provided $199 million in dedicated funding to states and 
commuter railroads to accelerate the deployment of this 
important safety technology.
    I think it's also important to know that this bill builds 
upon freight planning efforts from the previous short-term 
authorization, MAP-21, to ensure that freight planning is truly 
multimodal. Highways bring freight to our stores and our doors, 
but railroads and ports bring goods to our shores and across 
the country. Recognizing that our transportation system is a 
network dependent on each element ensures that planning 
considers the whole supply chain from farm to truck, to rail to 
port. The Port Performance Working Group will ensure that we 
achieve efficiencies at our ports by capturing and analyzing 
performance metrics.
    Our economic competitiveness is dependent on our ability to 
compete with our foreign competitors, and if our corn is more 
expensive because our transportation is more expensive, that 
means our competitors are going to win.
    Mr. Secretary, I would like to close by thanking you and 
the Department for your commitment to meeting the deadlines set 
in the FAST Act. The Committee understands that this 
comprehensive legislation includes many new program reforms, 
safety mandates and reports, and we greatly appreciate your 
efforts thus far to help this legislation deliver for the 
American people.
    There is much work to be done over the next four and a half 
years, and this committee will conduct rigorous oversight to 
ensure the success of these vital transportation programs, but 
we really are off to a good start. The FAST Act, as implemented 
and as this Congress works to send to the President and FAA, 
pipeline safety, and myriad reauthorization in the near future, 
I would like to thank you personally for your continued 
partnership in improving all aspects of our Nation's 
transportation network. It's been great to work with you and 
your team, and I think we have achieved some very meaningful 
and long-lasting results. So thank you, Mr. Secretary, it's 
great to have you here.
    We look forward to hearing from you, and at this moment, 
I'll flip it to our Ranking Member, the Senator from Florida.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Thank you for 
having the Secretary here. And I'll echo what the Chairman has 
said with regard to the FAST Act that otherwise we refer to as 
the ``highway bill,'' but it has got a lot of other things in 
it other than highways, including the $11 billion to improve 
freight across all types of transportation and an additional $8 
billion to repair the Nation's passenger rail network. You all 
are going to distribute a lot of this money through these 
grants, and for the economic engine of the country to keep 
purring along, we've got to keep the engine of transportation 
going.
    Now, Mr. Secretary, one area that we've got to do better is 
vehicle safety. Over the last couple of years we have seen the 
saga play out on the Takata airbag recall, and it's 
unbelievable. It's up now in excess of 70 million vehicles 
being recalled just in this country because of defective Takata 
airbags that have killed over a score of people and have 
injured hundreds.
    A part of the work this committee has released is a report 
just last week that assessed the automakers' progress in 
recalling and replacing defective Takata airbag inflators. And 
I would like, Mr. Chairman, to insert in the record the 14 
companies that we wrote seeking this information, and I'll tell 
about that information that we received a little later.
    The Chairman. OK. Without objection.
    [The letters referred to follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                

    Senator Nelson. What we find are some alarming facts, that 
the completion rates range from as high as 57 percent to less 
than 1 percent. These defective airbags are still being 
produced with the ammonium nitrate, and installed as 
replacement inflators in the recalled vehicles, meaning that 
millions of consumers are going to have to replace their 
airbags, not once, but twice. But the most shocking part is the 
discovery that four automobile makers out of all those letters 
that we sent, four responded, that we know of, that they're 
selling new cars with the defective airbags on a schedule to be 
recalled in 2 years. That means that a new car buyer is going 
and buying a new car and then they're going to find out that it 
has an airbag in it that's going to be on the recall list 
scheduled for 2 years from now.
    That doesn't sound very good to me except the quandary that 
NHTSA finds itself in. It can't make enough of these 
replacement airbags, so it's going after the ones that they 
think are the most defective, which are the ones that the 
ammonium nitrate has sat around for several years, it has been 
exposed to heat and moisture. They can't produce enough of the 
airbags with the moisture absorber in the compound of ammonium 
nitrate that absorbs the moisture, so they're selling defective 
airbags in new cars.
    What I'm going to be asking you is not only your ability 
through NHTSA to stop the sale of a car since the law says you 
can't sell it if it has a recall item, and in this case, it's 
going to be an item that is going to be recalled in 2 years. 
And at the very least, I'm going to ask you, Mr. Secretary, 
well, shouldn't we at least let the buyer know that they're 
going to have an airbag that's going to be recalled in 2 years 
if they're purchasing a new car? Because they're getting less 
than what they think they're purchasing if they're purchasing a 
brand new car that's got an airbag that is going to have to 
come in and get replaced.
    So that's where I'll be going with my questions.
    The Chairman. OK. Thank you, Senator Nelson.
    Secretary, welcome. We love to hear from you. Please 
proceed and we'll then get into a chance to give our Members a 
chance to ask some questions, so thank you and welcome. It's 
good to have you here.

         STATEMENT OF HON. ANTHONY R. FOXX, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Foxx. Thank you, Mr. Chairman. And let me also 
respond in like manner to say to you and the Committee how much 
of a pleasure it has been to work with you through the last 3 
years. You all have taken your roles extremely seriously, and 
the partnership has been very strong, so thank you very much.
    Mr. Ranking Member and Members of the Committee, I want to 
thank you for inviting me to testify today regarding the 
Department's progress in implementing the FAST Act.
    Mr. Chairman, when I was last before you, one of our points 
of discussion was the need for Congress to pass and provide for 
certainty to states and pass a long-term surface transportation 
bill. While the FAST Act is not everything we need, I want to 
thank you for heeding our Nation's and our Department's call by 
passing this bipartisan long-term measure. It has removed the 
cloud of uncertainty hanging over our surface transportation 
system for the better part of a decade and is a down payment 
for building a 21st century transportation system.
    I also want to applaud this committee for including for the 
first time intercity passenger rail programs in a 
comprehensive, multimodal surface transportation authorization 
bill.
    Mr. Chairman, since the FAST Act was enacted last December, 
we have been laser-focused on distributing as much of the 
resources Congress has provided as possible to states and other 
grantees through formula dollars and discretionary 
opportunities. We have also identified five key program areas 
to focus our implementation efforts, and I'll talk about each 
of them in turn: safety, project delivery, freight, innovative 
finance, and research.
    First, as you know, safety continues to be our top 
priority, and we have taken a number of steps to implement FAST 
Act provisions in this area as quickly as possible. For 
example, in March, we issued a rule that raises maximum fines 
against non-compliant auto manufacturers from $35 million to 
$105 million. We also moved quickly to solicit nominations for 
FMCSA's Motor Carrier Safety Assistance Program Working Group 
to analyze the formula for the program, which provides much 
needed support to State agencies.
    In the coming months, we will seek public comment on new 
authority to prohibit rental car companies from knowingly 
renting vehicles that are subject to safety recalls. This 
provision gives NHTSA an important tool to protect the safety 
of U.S. motorists, as rental agencies operate some of the 
largest fleets in the country.
    Second, in the area of project delivery, the FAST Act 
adopted a number of administration proposals to further speed 
the review and permitting processes while still protecting our 
Nation's environmental and historic treasures. Just last week, 
the public comment period opened to review FRA's survey of 
categorical exclusions used in railroad transportation 
projects. We also have a number of additional guidance and 
rulemaking documents underway to implement provisions that 
eliminate duplication of environmental reviews.
    Third, there are a number of freight programs and related 
provisions in the FAST Act that address challenges outlined in 
our ``Beyond Traffic'' study released last year. As our study 
indicates, it is estimated that by the year 2045, freight 
volume will grow to 29 billion tons, an increase of 45 percent 
from 2014 levels. The freight programs in the FAST Act now 
provide for the first time dedicated Federal funding that will 
allow us to fund freight and highway projects, including 
multimodal projects, to deal with these growing needs. We just 
closed the application period for the freight and highway 
competitive program we call FASTLANE last month, which will 
provide $759 million in grants for critical projects.
    Fourth, I am pleased that Congress sought to build on the 
administration's successful Build America Investment Initiative 
by establishing a National Surface Transportation and 
Innovative Finance Bureau in the FAST Act. In the next few 
months, we will provide updated guidance for the RRIF program 
that incorporates changes provided for under the FAST Act, 
including revised application processing procedures and an 
application dashboard.
    And, finally, something that goes hand-in-hand with all of 
the Department's efforts are research and innovation. In March, 
we began the competition for UTC grants, which allows students 
and faculty to work together toward innovative transportation 
solutions. We have received 212 applications for the 35 grants 
available. I'm proud of the work the Department has 
accomplished in such a short period of time, but this is just 
the beginning, and it would not be possible, I would like to 
repeat, without the work of this Congress on a bipartisan 
basis.
    We will continue our aggressive schedule to execute the 
reforms you put into place, because if our Nation is going to 
have the type of transportation system tomorrow that is better 
than it is today, wasted time is something none of us can 
afford.
    And so with that, Mr. Chairman, I want to thank you, and I 
look forward to your questions.
    [The prepared statement of Secretary Foxx follows:]

        Prepared Statement of Hon. Anthony R. Foxx, Secretary, 
                   U.S. Department of Transportation
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for inviting me to testify today on our progress 
in implementing the Fixing America's Surface Transportation (FAST) Act.
    Thank you for heeding our Nation's call and our Department's call 
by passing a long-term, bipartisan surface transportation bill that 
increases funding, provides much needed reforms, and removes the cloud 
of uncertainty hanging over our surface transportation system for the 
better part of a decade. While it is not everything we need, the FAST 
Act is a down-payment for building a 21st Century transportation 
system.
    I also want to applaud this Committee for including, for the first 
time, intercity passenger rail programs in a comprehensive, multimodal 
surface transportation authorization bill. The FAST Act includes 
provisions to significantly improve the transparency of Amtrak funding 
and the delivery of its services, as well as authorizes three new 
competitive grant programs to improve the safety, efficiency, and 
reliability of passenger and freight rail systems. The Act also 
provides important safety provisions such as dedicated funding for 
implementing positive train control, a requirement for states to 
establish highway-rail grade crossing action plans, and a mandate to 
provide recording devices on passenger trains. We are pleased to see 
the inclusion of a rail title and have been hard at work implementing 
provisions not only in this title, but also throughout the FAST Act.
    The FAST Act calls for the Department to implement a significant 
number of programs, rulemakings, guidance, notices and other measures, 
and we have made every effort to do so in a timely, open, and 
transparent way.
    Since passage of the Act, we have engaged stakeholders and the 
public through roundtables, panels, on-line forums, and meetings on 
targeted topics, including the Transportation Infrastructure Finance 
and Innovation Act (TIFIA) loan program, project delivery, 
accessibility, planning, freight, and bicycle/pedestrian 
infrastructure. We also acted quickly to issue over fifty guidance 
documents, hundreds of questions and answers, and over fifty fact 
sheets that provide critical information regarding implementation of 
FAST programs and provisions. We have made progress toward initiating 
several FAST-related rulemakings, and we are also continuing our 
efforts related to Moving Ahead for Progress in the 21st Century (MAP-
21) Act rulemakings.
    We are committed to distributing as much available funding as 
possible to states and other grantees to maximize the impact of FAST 
nationwide. For example, in January, the Federal Highway Administration 
(FHWA) apportioned approximately $40 billion to States. At the same 
time, we have worked tirelessly to issue funding opportunities for new 
grant programs established under the FAST Act.
    In March, we began competition for the Nationally Significant 
Freight and Highway Projects grants, which we refer to as FASTLANE 
(Fostering Advancements in Shipping and Transportation for the Long-
term Achievement of National Efficiencies), which will fund high-impact 
projects that address key challenges affecting the movement of people 
and freight. This year's FASTLANE competition will provide $759 million 
in grants.
    We also announced the availability of $377.5 million over the next 
five years for grants to support solution-oriented transportation 
research at colleges and universities under the University 
Transportation Center (UTC) Program. We plan to announce these awards 
early this fall. These are just a few examples of FAST Act funding 
opportunities we are dedicated to providing this year.
    Mr. Chairman, when the FAST Act was enacted last December, we 
identified five key program areas on which to focus our efforts--
safety, project delivery, freight, innovative finance, and research. 
Today, I will provide an update of the progress we have made in these 
areas and more.
Safety
    As you know, safety has and continues to be our top priority. We 
have taken a number of steps to implement FAST Act provisions in this 
area as quickly as possible. In January, we solicited nominations for 
the Federal Motor Carrier Safety Administration's (FMCSA) Motor Carrier 
Safety Assistance Program working group to analyze the formula for the 
program, which provides critically needed support to State agencies 
engaged in commercial motor vehicle safety related activities. The 
first meeting of the working group was held in April. Per the FAST Act, 
we also commissioned the National Academies to conduct a correlation 
study of the Compliance, Safety, Accountability (CSA) program, which is 
underway now.
    In March, we issued a rule \1\ that raises maximum fines against 
non-compliant auto manufacturers from $35 million to $105 million. In 
April, the National Highway Traffic Safety Administration (NHTSA) 
issued a report \2\ on actions taken to increase public awareness of 
the dangers of drug-impaired driving. In May, we issued a rule \3\ to 
implement and provide funding under State highway safety grant 
programs, including the newly authorized 24/7 Sobriety Program Grants 
and the Non-Motorized Safety Grants.
---------------------------------------------------------------------------
    \1\ Notice of Increase in Civil Penalty for Violations of National 
Traffic and Motor Vehicle Safety Act, 81 Fed. Reg. 15413 (March 22, 
2016)
    \2\ Report to Congress entitled ``Increasing Public Awareness of 
the Dangers of Drug-Impaired Driving''
    \3\ Uniform Procedures for State Highway Safety Grant Programs, 81 
Fed. Reg. 32554 (May 23, 2016) (amending 23 C.F.R. Part 1300)
---------------------------------------------------------------------------
    In the upcoming months NHTSA will also be seeking public comment, 
as required, on a new authority to prohibit rental car companies from 
knowingly renting vehicles that are subject to safety recalls. This 
provision gives NHTSA an important tool to protect the safety of U.S. 
motorists, as rental agencies operate some of the largest fleets in the 
country. In the fall, we will administer a pilot program with State 
DMVs to require notification to owners about open safety recalls at the 
time of vehicle registration.
Project Delivery
    The Department has been a leader in reducing the bureaucratic red 
tape that can stall and delay critical transportation projects from 
moving forward. The FAST Act adopted a number of Administration 
proposals to further speed the review and permitting processes while 
still protecting environmental and historic treasures. Building on 
prior work carried out with our Federal and State partners to improve 
the environmental review process, we have implemented several project 
delivery FAST provisions to date.
    For example, we published an environmental checklist to help 
project sponsors identify potential project approval requirements; 
issued a memo on improving habitats for pollinators; and coordinated 
with other Federal agencies on aligning Federal reviews of potential 
historic sites.
    This week, we will be soliciting public comment on the potential 
application of the FHWA and Federal Transit Administration (FTA) 
procedures for implementing the National Environmental Policy Act 
(NEPA) to railroad projects. Last week, we issued a notice providing 
the public an opportunity to review the Federal Railroad 
Administration's (FRA) survey of categorical exclusions used in 
railroad transportation projects and new categories of activities that 
may be appropriate for future categorical exclusions.
    We also have a number of guidance and rulemaking documents underway 
to implement provisions that eliminate duplication of environmental 
reviews, align Federal environmental reviews across the Department, and 
improve State and Federal agency engagement in environmental reviews.
Freight
    The FAST Act freight programs and related provisions provide an 
important opportunity to begin to address the many challenges outlined 
in our ``Beyond Traffic'' study, including inefficiencies in our 
Nation's freight system and the need for a stronger multimodal 
transportation system. As the study indicates, more than 10 million 
trucks moved more than 10 billion tons of freight across America's 
highways in 2014. It is estimated that by 2040 freight volume will grow 
to 29 billion tons--an increase of 45 percent. The freight formula 
program and freight and highway discretionary program in the Act will, 
for the first time, provide a dedicated source of Federal funding for 
freight projects, including multimodal projects.
    In February, FHWA issued implementing guidance for the National 
Highway Freight Program, which provides much needed formula funds to 
states to improve efficient movement of freight on the National Highway 
Freight Network. As I mentioned earlier, we also began the competition 
for FASTLANE grants. We have received 212 applications totaling nearly 
$9.8 billion for grants under this new program. This huge wave of 
interest in the first year of this program--with states and localities 
requesting over 13 times more funding than available--underscores the 
continuing need for infrastructure investment across the Nation.
    This week we established an interim National Multimodal Freight 
Network and in the coming months we plan to issue several additional 
essential planning tools that will help inform multimodal freight 
transportation planning across the country, including State Freight 
Plan guidance and a final National Freight Strategic Plan.
Innovative Finance Bureau
    Building on the Administration's successful Build America 
Investment Initiative, the FAST Act establishes a ``National Surface 
Transportation and Innovative Finance Bureau'' to align, coordinate, 
and consolidate aspects of the Department's existing surface 
transportation innovative finance programs. This new office will serve 
as a single point of contact and coordination for states, 
municipalities, and project sponsors looking to use Federal 
transportation expertise, apply for Federal transportation credit 
programs (including TIFIA and the Railroad Rehabilitation and 
Improvement Financing (RRIF)), and explore ways to access private 
capital in public-private partnerships. We are working diligently to 
develop a clear and comprehensive plan to stand up this new office 
soon. We have, and will continue, to provide you with updates on our 
progress.
    In March, we announced the availability of $1.435 billion in 
capital over five years for the TIFIA program. In the next few months 
we plan to issue updated guidance for the RRIF program that 
incorporates changes provided under the FAST Act, including revised 
application processing procedures and an application dashboard.
Research and Innovation Deployment
    At the Department we continue to transform government for the 21st 
Century by conducting transportation research, harnessing innovation, 
and embracing technology that will improve people's lives. Many of the 
FAST Act research program funding and provisions provide opportunities 
for us to carry out this vision.
    As I mentioned earlier, in March we began the competition for UTC 
grants which allows students and faculty to work together toward 
innovative solutions to the challenges that face our transportation 
system, such as those outlined in our ``Beyond Traffic'' study. We have 
received 212 applications for the 35 grants available and are reviewing 
those applications now.
    We also began competition for $60 million in grants for the 
Advanced Transportation and Congestion Management Technologies 
Deployment Program, to fund cutting-edge transportation improvement 
technologies that will improve safety, efficiency, system performance, 
and infrastructure return on investment. These awards may be used for 
projects that use real-time traveler information, traffic data 
collection and dissemination, vehicle-to-infrastructure communication 
and an array of other dynamic systems and intelligent transportation 
system technologies.
    Within the Department we are working quickly to develop annual 
modal research plans, per the FAST Act, to provide a comprehensive 
research outlook for the upcoming year. We are also developing a 5-year 
transportation research and development strategic plan to guide future 
Federal transportation research and development activities.
Other Areas
    Beyond our key program areas, we have made great strides in 
implementing other FAST Act provisions of interest to this Committee.
    In February, we convened the Gulf Coast Working Group to identify 
an option and the steps needed to restore passenger rail service along 
the Gulf Coast region. A report from this working group will be 
provided later this fall.
    We worked expeditiously to select members for the Port Performance 
Freight Statistics Working Group while ensuring the necessary balance 
of interests across the many and varied actors in freight 
transportation. This working group will convene next month.
    We will soon be issuing a notice seeking input for the pilot 
program that allows military personnel trained as commercial drivers 
between the ages of 18 and 21 to operate in interstate commerce. We 
will closely monitor the safety performance of drivers in the pilot 
program through a working group comprised of representatives from the 
armed forces, State driver licensing agencies, safety advocates, and 
industry stakeholders.
Conclusion
    Thank you for the opportunity to appear before you today to update 
you on our progress so far. We are proud of the work we have 
accomplished in a short period of time, and we anticipate continuing 
our aggressive schedule to execute the reforms you put in to place. I 
look forward to answering your questions.

    The Chairman. Thank you, Mr. Secretary.
    And I'll lead off and then we'll open up to our Members in 
the order in which they arrived.
    Your testimony noted that the Federal Railroad 
Administration is making progress on a number of important 
initiatives, from streamlining the permitting process to 
reforming the RRIF program, and I would like to get just a 
little bit more specific, if I might, about the expected 
implementation timelines. In particular, you mentioned that FRA 
plans to propose expedited NEPA procedures this week. Do you 
plan to finalize those procedures before the end of the year?
    Secretary Foxx. That is my plan. Yes, sir.
    The Chairman. OK. And when does the Department expect to 
have a functional Innovative Finance Bureau and what RRIF 
program reforms can be implemented as the Bureau is set up?
    Secretary Foxx. We're using a belt-and-suspenders process 
by basically two-tracking everything and to get it up and 
running. I expect that we will have the Bureau office space up 
and going by the middle part of the summer. I also expect that 
we will issue a job description for the Executive Director of 
the Bureau as well.
    So my goal is to have it fully operational no later than 
the end of the year, but you will see the rolling out of it 
steadily over the next 6 months.
    The Chairman. OK. And can the RRIF reforms get going in the 
meantime?
    Secretary Foxx. Yes. They actually already are underway. 
There's a lot of work to try to consolidate a lot of the 
program structures of the RRIF program and the TIFIA program so 
that they look more like each other. I think that work is 
already underway, and I think you'll start to see a steady 
rolling out of that on the outside as well.
    The Chairman. Good. The 24/7 Sobriety Program and Impaired 
Driving Acts were something that the FAST Act made some 
significant reforms to and has a number of highway safety 
grants that provide more flexibility so the states can qualify 
for the grants and address their own unique highway safety 
challenges, and this new grant to aid states with a 24/7 
Sobriety Program is something that we were very focused on 
while maintaining the All Offender Alcohol Ignition Interlock 
grant, so now you've got a program that's worked really well, 
proven to be effective, but we believe that this 24/7 Sobriety 
Program also is something that will enable states to use all 
the tools that are in their toolbox to combat the significant 
problem of impaired driving.
    And I think, as I have pointed out in the past, that South 
Dakota has been an innovator in creating the 24/7 Sobriety 
Program, and the RAND Corporation recently showed that such 
programs reduce both repeat DUI and domestic violence arrests 
at a county level.
    So could you give us an update on the approach the 
Department is taking to work with the states to provide more 
flexibility as you go about the process of implementing these 
grants?
    Secretary Foxx. Yes. On May 16 of this year, we issued an 
interim final rule on the Ignition Interlock and 24/7 Sobriety 
Program. At this point, a lot of the work we're doing on this 
is working with the states to get the word out so that they are 
aware of the flexibility they have. We will be doing that 
through the summer and the fall, but I expect it will have a 
very robust response, given the additional flexibility.
    The Chairman. Great. Thank you. During consideration of the 
FAST Act, there were a number of Senators who were focused on 
supporting the needs of rural states. When implementing the 
law, the Department, I believe, should consider the burden of 
regulations on rural states in areas as the cost of 
implementing regulations on a per capita basis is higher. I'm 
told that current proposed performance rules would require all 
states to file reports for all parts of the national highway 
system, and the question really comes back to, do states really 
need to prepare reports to show, for example, that rural roads 
are operating at the posted speed limit? I mean, some of the 
reporting requirements seem to be a little bit extreme.
    Secretary Foxx. I'll take a look at it, Senator, and 
perhaps maybe respond either in a QFR or in a letter back to 
you on some of the questions related to this.
    The Chairman. Yes. I would just simply say that it seems to 
me at least that a more targeted approach to these reporting 
requirements would make some sense, and it would save money for 
investment in transportation as opposed to reporting. So I 
would encourage you, Mr. Secretary, as you look at those, to be 
more skeptical about how some of these proposed requirements 
may work and how they would impact rural areas of the country.
    Finally, let me just talk a little bit about CSA. As you 
know, the DOT IG, the GAO, and even an internal DOT report 
included that the Compliance, Safety, and Accountability 
Program was badly in need of reform, and while there is broad 
support for the intent of the program, to focus limited 
enforcement efforts on the least safe truck companies, Congress 
expressed concerns about the quality of analysis used to 
develop scores for motor carriers. The FAST Act required the 
scores to be fixed before they could be publicly held out as 
safety data. And we appreciate that the scores were removed on 
the date of enactment and that the raw factual data was 
restored to the website in a timely fashion after adjustments 
to the website were made.
    So the question is, when will the program be reformed so 
that the scores can be returned to the public website with 
confidence that the analysis is appropriate and represents the 
risk of an individual carrier?
    Secretary Foxx. Based on our preliminary assessment, it's 
going to take a while to do a revised analysis of this, and I 
would expect it would have to be more like 2 years before that 
information will be posted.
    The Chairman. OK. My time has expired.
    Senator Nelson.
    Senator Nelson. OK. Mr. Secretary, on what I had talked 
about before, back in March, we sent out letters to 14 
automobile makers involved in the Takata recalls, and we said, 
``We want you to identify all the new models that are equipped 
with the defective Takata airbags that are offered for sale or 
are contemplated to being offered for sale.'' Now, some 
responded and some didn't, and we put that into a detailed 
report, which we released last week, but a bunch of them 
refused to answer whether they are currently selling new 
vehicles that contain the non-desiccated, or, in other words, 
the ones that don't have the moisture absorbent desiccant that 
has been mixed in with the ammonium nitrate.
    This is a failure of informing consumers, and I think your 
regulator ought to be getting answers on this. Now, I can tell 
you, this Senator--and I think I can speak for a lot of 
Senators up here--intends to get answers, and that's why I put 
in the record the 14 letters that we have just asked again for 
complete disclosure of any new models with those defective 
airbags, and I'm expecting them to give us complete answers.
    So now let me go to my question. Under current law, whether 
it's the law, whether it's the FAST Act, or whether it is the 
amended Takata Consent Order, do you have the authority to say, 
number one, ``Stop selling a new car with a bag that is going 
to be recalled in 2 years?'' And the second question is, ``Do 
you, in fact, have the authority to require the disclosure to 
the buying consumer of that new car that has got a bag that's 
going to be recalled?''
    Secretary Foxx. First of all, Senator, I want to thank you 
for your persistence and the dogged determination you have to 
get to the bottom of this. I share your frustration with 
Takata. We have been doggedly pursuing this issue from day one. 
We've gotten a Consent Order with Takata that we keep amending 
as the environment continues to change.
    On the first question, we are bound by our authorities to 
act where there is clear evidence that an action can be taken, 
and absent that, it would be something of a Pyrrhic victory to 
recall vehicles without having the substantiation to be able to 
hold those recalls under the lawsuit. You would effectively 
find ourselves twisting in the wind on lawsuits before people 
would actually not have to be in those cars.
    Senator Nelson. OK, let me interrupt you here then. What I 
think you're saying is that whereas the law says, because the 
Chairman and I put this in the FAST Act, it says that you 
cannot sell a new vehicle with a recalled item, but the fact 
that they are selling a new vehicle with an item that is going 
to be recalled in 2 years----
    Secretary Foxx. Correct.
    Senator Nelson.--you're saying you don't have the 
authority.
    Secretary Foxx. That's correct.
    Senator Nelson. OK. How about disclosure? How about the 
protection of the consuming public?
    Secretary Foxx. Within our existing authorities, I do not 
believe we have that authority. I will ask our lawyers to 
confirm that for me, and I will share the answer with you. 
However, within the Consent Order, we've been able to obtain 
additional requirements from Takata that would not have 
otherwise been available to us, and so what I would like to do 
is to pursue getting that kind of disclosure requirement within 
the Consent Order and within the remedies that we've been able 
to obtain from Takata and so make those disclosures happen. I 
agree with you that these disclosures should happen to 
consumers before they are purchasing these new cars.
    Senator Nelson. And, therefore, if your lawyers determine 
that you do not have that authority, then would you tell us 
what we do so that the buyer can beware, so that the buyer 
knows what they're buying?
    Secretary Foxx. Yes.
    Senator Nelson. If they're buying not the full package of 
what they think they're buying, they're buying something that 
they've got to go in and have recalled in 2 years.
    Secretary Foxx. Yes. We will work together on this issue to 
get to the bottom of it, and I pledge that to you, sir.
    Senator Nelson. Great. Will you also, please, help us if 
any of these automobile makers are dragging their feet, not 
responding to these 14 letters that we just sent out, will you 
help us?
    Secretary Foxx. I'll help you. Yes, sir.
    Senator Nelson. Maybe you ought to call a little prayer 
session with them.
    [Laughter.]
    Secretary Foxx. We did that back in January. Maybe we'll do 
it again.
    Senator Nelson. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Nelson. Also good line of 
questioning there. Hopefully we can get some follow-up.
    Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Secretary Foxx, it's good to see you again, and I do thank 
you for your good leadership in this very critical area.
    My first question is about the national freight policy, 
which we established in the FAST Act. And in order to remain 
competitive, we need to have a robust multimodal freight policy 
that enhances the efficiency of both our rural and our urban 
first and last mile connectors. In fact, DOT's National Freight 
Strategic Plan noted that freight flows across all modes will 
increase by 42 percent by the year 2040.
    In your perspective, what is the status of the 
implementation of that National Strategic Freight Plan, and how 
do you think the states are doing at designating those very 
critical rural and urban corridors? And how is DOT providing 
any kind of assistance, technical assistance, to the states so 
that they can move forward quickly on that?
    Secretary Foxx. Senator, first of all, I want to again 
thank you and this Congress for the focus on freight. This is 
an enormously important issue to our country, as you know. And 
what the FAST Act has done both on the policy side and on the 
resource side has really been to pivot the country toward 
focusing on this much more.
    I want to speak on your question to two things. One is the 
formula-based freight program. We have provided guidance to the 
states as of this winter to help them understand how to access 
those resources, and our experience to this point has been 
there's a lot of interest and excitement at the State level to 
implement on the formula side of the effort. The comment period 
has closed, as I pointed out in my opening statement, for the 
discretionary freight program, which we will hope to make 
announcements on that program in the summertime, but our goal 
is to continue not only putting the resources out there, but 
things like the expedited permitting and the categorical 
exclusions and all of the work that's involved in trying to get 
projects teed up, we are moving on an accelerated basis, and 
we've made a lot of great progress. That's just two proof 
points.
    Senator Fischer. Good. I thank you for that. As you know, 
there are resources out there, and states like Nebraska I 
believe are ready to move on this so that we can start some 
good progress. And, as you know, one of the elements of the 
highway bill that I'm really pleased with are the regulatory 
reforms that I authored for the FMCSA, and that was to help 
with transparency and consistency, but also with the public 
being more involved in the rulemaking on that.
    I understand that next week the Department's Motor Carrier 
Safety Advisory Committee is going to hold a public meeting 
concerning the implementation of that Section 5203 of the FAST 
Act, and that would require the FMCSA to conduct a 
comprehensive review and assessment of all the regulatory 
guidance that's currently on the books.
    In relation to this meeting, how does the FMCSA plan to 
continue the process of reviewing regulatory guidance so we can 
look at the consistency and the necessity and also creating 
greater transparency as we move into the future?
    Secretary Foxx. I am also very pleased to report that the 
FMCSA has been conducting listening sessions throughout the 
country, and will continue to so, even above and beyond the 
commission that you just referenced. This is helping us 
understand the perspective of industry, understand the 
perspective of other stakeholders, and, frankly, I think it 
will inure to the benefit of not only our operational 
approaches, but perhaps even our policy and regulatory 
approaches going forward.
    In addition to that, we have created a regulation 
evaluation division as of last year. This division is working 
to increase the use of available data, and has advanced the 
agency's effort to help to arrive at the best available 
solution on various regulatory and technical issues. We're also 
using that agency to increase transparency in our regulatory 
evaluations, which is also of great interest to our 
stakeholders. We're also committed to an Advanced Notice of 
Proposed Rulemaking or proceeding with the negotiated 
rulemaking when considering major rules that require sufficient 
technical or scientific information. So these are just some of 
the process changes that we are working through in response to 
the language that you were good enough to put in the bill.
    Senator Fischer. Do you think that will help you to respond 
quicker to stakeholders when they are dealing with that so that 
the agency can have a formal response in a more timely manner?
    Secretary Foxx. I think it will help us with speed----
    Senator Fischer. Time is money when it's building roads.
    Secretary Foxx. Yes. I think it will help us with speed, 
and I also think it will help us with transparency because the 
more you are not communicating in a vacuum, the more people are 
constantly having communication with us, the less surprises 
there are on both sides, so I think it will be very helpful.
    Senator Fischer. Exactly. We want to see Commerce continue, 
and the FMCSA is important in making sure that our stakeholders 
are able to do that. Thank you, sir. It's good to see you.
    Secretary Foxx. Thank you. Great seeing you.
    Senator Fischer. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Fischer.
    Senator Klobuchar is up next.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, Secretary Foxx.
    Secretary Foxx. Thank you.
    Senator Klobuchar. I know you were there in spirit, but we 
just dedicated the overpass that you helped with, with the 
TIGER Grant. I know we talked about that. Congressman Emmer and 
I were there, and that's in his district, and it's going to 
save a lot of lives.
    Secretary Foxx. That's great.
    Senator Klobuchar. It is the worst intersection in our 
state, so I want to thank you and the Department for that.
    Some really fast questions here related to the FAST Act and 
the MAP-21 in the FAST Act and trying to reduce delays. What 
progress has DOT made to date in implementing the project 
delivery reforms in the FAST Act? How are they going to 
communicate with State governments? This question, I had talked 
to some of our State people, it's their question. And how do 
you plan to monitor and assess the effectiveness of the 
reforms?
    Secretary Foxx. We're doing a number of things across a 
variety of modes, including FRA, FTA, and the Highway Division, 
but with the Highway Division specifically. On project 
delivery, we are looking at the expanded use of categorical 
exclusions. We have, through our bureau that was alluded to 
earlier, we are also working on speeding up the permitting 
process by incorporating more concurrent reviews in the work so 
that there are fewer documents flowing between agencies and 
government. We are using one table to make these decisions, 
which actually helps speed up the time.
    Those are two of the proof points of what we're trying to 
accomplish, and there are many more, and I'd be happy to give 
you a more elaborate answer.
    Senator Klobuchar. Very good. And I just want to--I'm going 
to move on from the safety issues with rail, but we've just 
gotten a statewide rail director appointed who is coordinating 
these efforts, Arlene Tchourumoff, and so I hope your 
Department will work with her. I put a provision in there about 
the rail crossings, and obviously you and I have talked about 
this in the past, but it's something that continues to be of 
concern.
    On Takata, I've been long calling for this recall. We had a 
woman in Minnesota that was blinded. She was a passenger in a 
car. My question there is just related to, How can we make sure 
consumers know what cars are under recall? What better job can 
we do with that? Because there are still people confused about 
what to do.
    Secretary Foxx. We are working with the industry to ensure 
that when we have a consent order or a coordinated recall 
effort, that we are using every tool available to us and to the 
industry. And so I've got a long list here of various 
strategies that we're trying in relation to Takata that include 
a recall campaign of Safe Cars Save Lives, proactive use of 
Internet, social media. There are a lot of things that we're 
doing to try to get the word out in some unconventional ways. 
Our goal is 100 percent compliance, and we are now tiering and 
holding the manufacturers accountable when we do a recall and 
establish a consent order to get 100 percent compliance through 
that consent order.
    Senator Klobuchar. And one more, there is that issue of the 
replacement inflators. What more can we do to make sure that 
they are available as soon as possible?
    Secretary Foxx. So the unfortunate reality is that there is 
only so much supply. I think some of the recall activity has 
actually triggered some additional suppliers to come out of the 
woodwork, so to speak, and as that supply comes online, we're 
just going to try to continue tiering it toward the risk as 
best we can. But I think we're doing everything we can within 
the universe of supply that's there, and hopefully we'll see 
more suppliers come into the market.
    Senator Klobuchar. Thank you. Last, distracted driving, I 
thank the Chairman and the Ranking Member for including the 
provision I had with Senator Hoeven. As you know, there was a 
huge, I know, big priority of yours as well as your 
predecessor. There were grants available to help states to 
educate drivers, that more and more of these deaths and 
injuries are occurring because of distracted driving. It has 
not slowed down, and yet we had a pot of money sitting there 
that no one could access, I guess only the state of 
Connecticut, Senator Blumenthal is in here right now, but that 
happened one year.
    And so we made some changes to make it easier for the 
states to get in compliance so they can access this money, and 
I just want to make sure you knew that, as well as the 
Graduated Driver's License programs, we made some changes 
there. And I just thought you could comment in general on 
distracted driving.
    Secretary Foxx. Yes, it continues to be a huge issue, and 
we're going to have to continue working particularly with our 
younger cohort of drivers, but it's really across all 
demographics. In May of this year, we issued an interim final 
rule implementing the FAST Act distracted driving grants, as 
you point out, so thank you for that.
    Senator Klobuchar. Thank you. You did that quickly. Thank 
you.
    Secretary Foxx. Absolutely. There will be comprehensive 
distracted driving grants as well as special distracted driving 
grants that will be available to states, and we will move that 
money as expeditiously as possible.
    Senator Klobuchar. Thank you. I think timing is critical 
here, so I really appreciate it. Thank you for your good work, 
Secretary Foxx.
    Secretary Foxx. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Moving further west, Senator Schatz.
    [Laughter.]

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you. As west as you can go.
    Senator Klobuchar. And way warmer.
    [Laughter.]
    Senator Schatz. Thank you, Mr. Chairman, and thank you, 
Secretary Foxx. I wanted to follow up with you on TIFIA 
financing for transit-oriented development. As you know, we 
reduced the dollar amount threshold for eligibility for TIFIA 
projects and also included as eligible projects TOD, and I 
wanted to get your view on how we are moving along in terms of 
finding projects that are appropriate. And I've heard some 
concerns expressed from the private sector about exactly what 
the eligibility requirements are, and I want to get your 
assurances that we're moving along and interpreting the statute 
in as flexible a manner as possible.
    Secretary Foxx. Well, first of all, we are very, very 
excited about this new flexibility for our loan programs. FHWA 
released TIFIA guidance that clarifies that TOD investments are 
eligible under the FAST Act. We expect FRA to follow suit very 
shortly with the RRIF program. And so we don't have to date, 
any applications, but we've heard a lot of interest in this 
program. And if there is anyone who has a question, I would 
really urge that you or others direct them to our Build America 
Transportation Investment Center, which can help them figure 
out not only how to make use of that tool, but any of our other 
creative financing tools for transportation.
    Senator Schatz. Great. Thank you very much. We've talked a 
lot about Complete Streets, and I really appreciate the 
Department's focus on transportation generally speaking, that 
it's not the Department of Highways or the Department of Rail, 
it is the Department of Transportation, and we really need to 
be thinking about how to move people around in as safe of a way 
as possible. And I've been working with Senator Heller and 
others on Complete Streets. And I wanted to first get your 
sense of how we're moving along. We wanted something a little 
more prescriptive in the statute. We weren't able to achieve 
it, but, on the other hand, I think you've been able to work 
with mayors and transportation directors for State government 
and AARP and other stakeholders.
    So if you can just give me a quick update on how we're 
moving along with respect to this because whether the statute 
read exactly how I wanted it to or in the compromised version, 
I think the key is implementation at the sort of administrator 
level. So I want to know how we're doing. And I know you have a 
special perspective having been a mayor.
    Secretary Foxx. Yes, sir. I think we're moving along fairly 
well. We did initiate something called a ``Safer People, Safer 
Streets'' initiative, which has brought more than 200 mayors 
from across the country together to share best practices on how 
to implement essentially Complete Streets designs. Our Federal 
Highway Administration is also creating greater flexibility in 
the design of Federal aid highways so that there is at least 
the possibility that states and local governments can use those 
roadways in more innovative ways for all users. I think this is 
an area where it is not just the local governments, it's also 
the State and Federal governments that have to work together to 
lay out best practices, and all three levels of government will 
be involved in execution.
    Senator Schatz. Sure. And if you're using FAST Act funding, 
you know, in urban Honolulu versus in South Dakota, obviously 
you're going to have a different set of priorities, and that's 
appropriate. I do want to recognize Senator Heller for his 
leadership on a bipartisan basis of trying to move this 
forward.
    I have one concern that has been expressed to me, and it 
has to do with a rule proposed this spring which aims to 
establish measures of highway performance and congestion, and 
the concern is this: that all makes sense in a vacuum, but to 
the degree and extent that those metrics create an incentive 
that sort of ignores the question of multimodal, ignores 
potentially the question of location efficiency, and sort of to 
the extent that the Department is working on integrated 
multimodal transportation systems and being smart about all of 
this, that you don't want to create a rule which basically 
establishes a metric that says if you're a local DOT director, 
you say, look, that's all nice, they're encouraging us to do 
this, but they're paying us to do that, which is one more 
highway lane, one more boulevard lane, and thinking in terms of 
transportation and sort of, how can we sort of channel--I mean, 
I think of the old Army Corps of Engineers in terms of flood 
control, right? It was always blow as wide of a hole as you 
could and channelize and move that water through as quickly as 
possible.
    Certainly there are instances where you want to move every 
car as quickly through a community as possible, but there are 
other instances where you want to actually encourage people to 
not take the trip because something is right next door 
nowadays. I know you understand that. I want you to take a look 
at that rule from that perspective.
    Secretary Foxx. Will do, sir.
    Senator Schatz. Thank you very much.
    The Chairman. Thank you, Senator Schatz.
    Senator Peters is up next.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Secretary Foxx, it's always a pleasure to see you. Thank 
you for being here before us today.
    The FAST Act does a lot to incentivize the development and 
deployment of very innovative transportation technologies, 
particularly in the space of automobiles, and I want to, before 
I go on with the questions, take a moment to thank you for your 
work in this area. You have been a real advocate for exploring 
how we can really fully utilize some of the exciting new 
technologies eventually leading to autonomous vehicles, and as 
you know, I sponsored a bill that was signed into law as part 
of the FAST Act that would allow states to use existing surface 
and highway transportation funds to invest in vehicle-to-
vehicle infrastructure, the DSRC technology, which can help 
deliver really critical information to those vehicles on the 
road. It's going to help reduce traffic congestion, as we've 
heard from previous speakers, as well as dramatically reduce 
accidents.
    Section 6004 of the highway bill also directs the 
Department of Transportation to provide grants to localities to 
establish advanced transportation and congestion management 
deployment sites, and I understand that solicitation process is 
going forward as we speak.
    Secretary Foxx. Right.
    Senator Peters. And I also know that the Department of 
Transportation is finalizing its selection of the Smart Cities 
Challenge winner. And one of the criteria for the Challenge is 
to integrate advanced technologies in the management and 
operation of the city, which includes the deployment of 
connected and autonomous vehicle systems.
    Mr. Secretary, what role do you see the vehicle-to-
infrastructure DSRC technology, as well as other DSRC 
technologies, playing in the deployment sites and to the 
eventual DOT Smart City that will be granted?
    Secretary Foxx. First of all, we are at the very edge of a 
wave of technology that will enter into the transportation 
space, and I think there are areas that we know are going to be 
areas of opportunity. The advent of connected cars, the advent 
of autonomous cars, I think those trends are coming, and 
they're unalterable in that sense, and so we have a 
responsibility to be ready for that.
    The vehicle-to-infrastructure component follows along with 
that, and what that means is a lot of things. In some respects, 
you have some of that functionality today with coordinated 
signalization, but it also could, in the future, do things like 
your street lights are coordinated according to the movement of 
automobiles, and so when there is no automobile on the road, 
the street lights are dim, and when cars appear at a certain 
distance away, they come on, and that could create energy 
savings and not compromise safety.
    So there are a lot of opportunities in this space. How they 
actually get deployed is one of the questions the Smart City 
Challenge is asking. We have tried not to be prescriptive with 
the cities to tell them you have to have your street lights 
coordinated, you have to do this, you have to do that, it's 
more a question of, What is the vision each city has and how 
does technology relate to that vision? And so it has been an 
exciting opportunity to see 78 cities apply, to see 7 
finalists, and to see this process moving forward, but I think 
this is the beginning of that conversation, not the end of it.
    Senator Peters. Right. Well, it is exciting, and I think a 
critical part of that is the ability for vehicles and 
infrastructure to communicate back and forth, which means 
having dedicated spectrum, and, as you know, there is some 
discussion as to whether or not the spectrum should be shared. 
Could you speak a little bit to how important it is to make 
sure that the spectrum is available and unfettered in these 
transportation systems?
    Secretary Foxx. Yes. I think I can't understate or 
overstate how important it is to be very sure that spectrum 
sharing is safe. We are supportive of the safe movement of 
vehicles, and I think the thought process to this point has 
been to reserve the 5.9 band for connected vehicles with the 
thought being that if you shared it, you would compromise 
safety. We're now in the throes of a research project with the 
FCC to determine whether you could actually share spectrum 
safely, and if you can, I'm sure we'll be supportive of it, but 
we need to know before we do it, we don't need to do it before 
we know.
    Senator Peters. So you're actively coordinating with the 
FCC? Do you feel that that is working well?
    Secretary Foxx. Yes, sir. There were some early hiccups 
perhaps on both ends, but I think we are in a very good place 
now and working well together.
    Senator Peters. Great. Well, it's great to hear.
    Secretary Foxx. Sure.
    Senator Peters. Mr. Chairman, I have a few other questions 
I would like to submit for the record for the Secretary, but my 
time is expired.
    Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Peters. We'll make sure 
that those questions get submitted and hopefully responded to. 
Thank you.
    The Chairman. Next up is Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you for holding this 
hearing.
    And, Secretary Foxx, thank you also for taking time out of 
your busy schedule to be here today.
    Secretary Foxx. Thank you.
    Senator Heller. We had the Las Vegas Metro Chamber of 
Commerce in town this week.
    Secretary Foxx. Oh.
    Senator Heller. And they held a function last night in the 
Kennedy Caucus Room unlike a function I think have ever been 
held in that Caucus Room before, but it was kind of 
interesting, the dynamics of bringing the Las Vegas Chamber of 
Commerce into Washington, D.C. Las Vegas is a ``can do'' city: 
anything you want, anything you think can happen in that town, 
in that city, will happen. To have them come to Washington, 
D.C., where nothing happens, was quite a dynamic, and I would 
hope that they would come more often, maybe they would have 
some influence on our city out here in Washington, D.C.
    But here's my question, there are a couple hundred of them. 
And at that event last night, their interest, obviously, is 
that corridor, the I-11 corridor, legislation that I pushed in 
the FAST Act. And I don't have to tell you the importance of 
it, two of the largest cities in America, Phoenix and Las 
Vegas, without a freeway between them. And you can imagine the 
economic development that would occur in the Southwest if you 
could connect those two cities. And it's not just the 
connection between Las Vegas and Phoenix, but all the way down 
to Tucson and all the way up to the Canadian border, and that's 
the plan. They want to know, and I have to meet with them 
tomorrow. If you were meeting with them, I guarantee you the 
first question they're going to ask you is, ``How long is it 
going to take to get that corridor between Phoenix and Las 
Vegas?'' What's the answer to that? Today?
    Secretary Foxx. Ooh.
    [Laughter.]
    Secretary Foxx. That's no pressure. You're meeting with 
them tomorrow?
    Senator Heller. That's the question I'm going to be asked.
    Secretary Foxx. Senator, we understand the importance of 
this corridor, and your leadership on moving the process 
forward has been absolutely critical. And I'm sure you're aware 
that MAP-21 did provide a portion of it being designated. The 
FAST Act, as you point out through your efforts, designates the 
portion between Arizona and Nevada. There is a working group 
that we have been part of convening that is looking--I think 
the biggest constraint, to be honest with you, is not just the 
planning and the design, but it's also identifying the Federal 
and State funding sources for the project. And we're going to 
continue being at the table with Arizona and Nevada until we 
figure that out with them and in identifying flexibilities that 
may support the advancement of the I-11 corridor. So we are 
working with them. I think that something like a tiered NEPA 
analysis is currently under discussion. We are going to do 
everything we can to help move things forward. Getting the 
planning is part of it, but I think getting the resources in 
place is going to be the biggest challenge.
    Senator Heller. The first section of that is the Boulder 
City bypass, and that is taking Federal, State, and local 
dollars in order for that to occur. So I think Nevada, Boulder 
City, Las Vegas, they're doing everything they possibly can to 
get ahead of this thing. Tell me a little bit more about this 
working group. How do they prioritize these high-priority 
corridors, like the I-11 and other projects?
    Secretary Foxx. Well, we always work based on what the 
local jurisdictions want to do, and in this case, you do have a 
demand that is coming from both states, and getting them 
coordinated and figuring out how to jointly plan a project of 
this magnitude and how to jointly go through the permitting 
process and using the levers we have to try to accelerate that, 
that's some of the work that is currently ongoing. Again, I 
think some of the biggest challenges are going to be each state 
looking at its complement of transportation projects and 
figuring out how it can fit in the resources to do these 
projects. And, of course, where we have the ability to help on 
the funding end, we're going to be looking for ways to help 
out.
    Senator Heller. OK. OK. Because I'm just trying to figure 
out, is there any way of streamlining this process?
    Secretary Foxx. Yes. Yes.
    Senator Heller. I'm sure that's what the working group is 
all about.
    Secretary Foxx. Yes.
    Senator Heller. We've got to get through this NEPA program.
    Secretary Foxx. Yes.
    Senator Heller. I guess the question is, is I don't have an 
answer yet.
    [Laughter.]
    Senator Heller. Two years, 10 years, 20 years, how long 
does a project like--we haven't produced a new Federal highway 
to this extent in decades. I'm wondering----
    Secretary Foxx. Yes. I would separate the planning and 
design elements from the funding element, and I would say that 
we can move as fast as the locals can move as they work through 
the alignment issues. We're already trying to help accelerate 
the NEPA process, and so we will continue doing that type of 
work. I think on the funding side of it, we are constrained by 
what we have available. The FAST Act does provide additional 
formula dollars to each state for freight projects. In theory, 
this could be considered for that. We have guidance that we put 
out this year. And to the extent our discretionary programs 
could support and help, we will obviously consider any 
opportunity to help.
    Senator Heller. Mr. Secretary, thank you for being here.
    Secretary Foxx. Thank you.
    Senator Heller. Mr. Chairman, my time has expired.
    The Chairman. Thank you, Senator Heller.
    And, by the way, what does it take for one to get invited 
to the Las Vegas comes to the Capitol----
    Senator Heller. You were invited, Mr. Chairman. You were 
invited.
    [Laughter.]
    The Chairman. I thought maybe it was one of those what 
happens in the Caucus stays in the Caucus events.
    Senator Heller. Yes, yes. You had to be over 21 years of 
age.
    [Laughter.]
    Senator Heller. Maybe you didn't meet that criteria.
    [Laughter.]
    The Chairman. All right. Next up is Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    It's good to see you, Mr. Secretary. And thank you for all 
your leadership on freight and the FAST Act, and you've 
obviously brought that up, but certainly look forward to 
continuing to work on what is a very important tool for us to 
keep U.S. product moving and getting to its final destination, 
so thank you for that.
    One area where I think that you and I may not have seen 
eye-to-eye in the past has definitely got an accentuation point 
put on it just last Friday, and that is the Columbia Gorge rail 
derailment and explosion, and it seems to us like Lac-Megantic 
just came to the Pacific Northwest, although everybody knows 
how much oil of Bakken crude is moving through the area. And so 
I've heard just since last Friday from practically every major 
city or region of our state about their concerns about the 
continued movement of this product. That's primarily because 
this product moves through every major--it goes through 
Spokane, it goes through the gorge, it goes to Vancouver, in 
some cases, all the way up to refineries, you know, in the 
northern part of our state through Seattle. So every community, 
because we have, just like the problem you're trying to fix on 
freight, you know, the rails are right there close to the 
ports, close to the urban centers.
    So part of our challenge is the explosion and derailment 
that we saw on this gorge situation was the thermal-jacketed 
1232s, so under your rule, they will take till I think 
something like 2025 to be basically phased out. More 
specifically, though, to me, because this issue of the product 
itself is not being properly regulated, the volatility of 
Bakken crude is over the standard by which almost every other 
thing is set. You know, people who are moving this product into 
pipelines set at Reid vapor pressure, which is the volatility 
of the product, below 10. The NYMEX market doesn't take 
contracts on product that--you know, unless they're 10 or 
below--and yet we're letting these shippers self-determine to 
ship Bakken crude at over 13 percent Reid vapor pressure, which 
means it's more volatile.
    Now, the reason I bring this up is because even with your 
own analysis of these new tank cars, even the best tank cars 
that we're going to implement in the future, even the thermal-
jacketed 117s, at more than 18 miles an hour, they still have a 
puncture, can have a puncture. So to me, while we're improving 
the rail safety, while we're improving the rail cars, we also 
have to improve and lower the volatility of this explosive 
product. We can't have this product shipping through tunnels in 
Seattle with our light rail transportation system. We can't 
have it right next to hotels in Vancouver. We can't have it 
going through neighborhoods of thousands of people in Spokane. 
We can't have a Lac-Megantic in our state.
    So I'm asking you, Will you consider an interim rule? You 
have the ability now to get the study done as it relates to the 
transportation bill to look at the volatility of this, and DOE 
and DOT are working together, but why not, given this most 
recent explosion, look at setting an interim rule on volatility 
given the hazards this material is showing to our communities 
across America, and certainly we just witnessed in our region 
of the Pacific Northwest?
    Secretary Foxx. Senator, I want to first of all say that I 
actually feel the same sense of urgency that you do around this 
issue, and our Department has been working since the day I came 
in. Lac-Megantic happened within just a few days of my taking 
office in this role, and it has been a real push almost every 
day. We've taken a bunch of actions, but I don't think we are 
at the end of the cycle of continuing work at this. I think we 
still have a lot of work to do here.
    I would say on the stabilization/volatility issue that that 
is an issue that's within our sights. That's one of the reasons 
why we've worked with the Department of Energy to formulate a 
study to understand the dimensions of this material and to have 
a definitive study out there that really allows us to set 
policy around it. I will certainly take your recommendation 
back to our staff and provide you with a formal response from 
the Department, but I'm taking any and all suggestions about 
how to deal with this going forward. I think we've made a lot 
of progress. We are safer today than we were 3 years ago. I 
hope that over the next several months and years we end up 
safer than we are today.
    Senator Cantwell. Well, I just think for us, we do not want 
to see a loss of life before we see a regulation of this vapor 
pressure, and with the volume of Bakken crude moving through 
our state, and as I said, every major population center, it's 
just too big of a risk not to have this product, which we 
wouldn't let a propane unregulated vehicle move through 
downtown Seattle with that vapor pressure. We're not treating 
natural gas the same way. The people who are moving this 
product in pipeline are demanding that it have a lower vapor 
pressure. So then why are we letting these trains just continue 
to move an explosive product through our community? And so 
while I appreciate all our efforts on the DOT and the lines 
that we're going to do to improve our rail system, I just think 
fundamentally we have to reduce this vapor pressure. So thank 
you for considering that and look forward to your formal 
response.
    Secretary Foxx. Thank you. May I also just thank you for 
your leadership on freight as well, Senator. I doubt that we 
would have as much of the conversation if it hadn't been for 
your efforts. So thank you.
    Senator Cantwell. I think we all know freight can't wait.
    [Laughter.]
    Senator Cantwell. Thank you.
    The Chairman. Thank you, Senator Cantwell. And I mentioned 
in my opening remarks the work that you did on the freight 
components and aspects of this. And a lot of the reforms with 
regard to railcars and blankets and refitting the protective 
measures and safeguards that are in here will be helpful, and 
we're going to make sure that we work with the Department to 
ensure that those things get put in place in a timely way. So 
thank you.
    Next up is Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman.
    Secretary Foxx, as you know, New Hampshire recently 
welcomed the news that we received the TIFIA loan, a $200 
million TIFIA loan, and thank you for that, for the I-93 
improvement project, which will widen 19.8 miles of Interstate 
93 from two to four lanes between our largest city, Manchester, 
and to Salem, New Hampshire, which is right on the New 
Hampshire-Massachusetts border, so this is really important to 
our state's economy and to transportation in New Hampshire. So 
thank you for that.
    Under the FAST Act, there was established the National 
Surface Transportation and Innovative Finance Bureau to help 
streamline the application process for states and local 
entities applying for and obtaining Federal financing or 
assistance for large surface transportation projects. I know 
you briefly mentioned in your written statement DOT's work to 
get the Bureau up and running, but I wanted to--could you 
please provide a detailed update for the Committee regarding 
the Department's work to implement the National Surface 
Transportation and Innovative Finance Bureau? And have you been 
able to identify an Executive Director yet? And do you expect 
the Bureau will be operational by the end of the year?
    Secretary Foxx. On the last question first, yes, I do 
expect it to be operational by the end of the year. We expect 
to open the doors of this new bureau in the middle part of the 
summer, and we actually have already gone through a pretty 
extensive exercise at identifying some of our existing 
resources, human and otherwise, that could be placed into the 
Bureau immediately. So this will be a steady ramping up over 
the course of the year, but it will start very strong the 
middle part of the summer.
    In terms of the Executive Director, we have a solicitation 
out for an Executive Director, and we're hopeful to get that 
person on board before the end of the year.
    Senator Ayotte. Great. And once you get this up and 
running, and I'm glad to hear that's moving quickly, how would 
you--in thinking about this Bureau over the long term, how 
would you envision the Bureau supporting the work of our states 
and communities in moving forward with larger projects like I-
93?
    Secretary Foxx. Yes. You know, I think one of the biggest 
things that the Bureau is going to do is to bring our 
innovative financing resources under one roof and they'll be a 
one-stop shopping for the project sponsors at the State and 
local level as well as the private sector. In addition to that, 
you will find that projects that are moving within the Bureau 
are going to have a level, almost a sharper kind of level, of 
support as they move through other aspects of the project 
delivery, including the permitting and other spaces that have 
to be----
    Senator Ayotte. I'm sure states would like to have a 
Sherpa. That would be great.
    Secretary Foxx. Yes, absolutely.
    [Laughter.]
    Secretary Foxx. I expect this is going to be a very 
successful effort. We have some very good early experience with 
the Build America Transportation Center that the President 
authorized us to do, and we're going to keep building on it 
with the Bureau.
    Senator Ayotte. Great. Thank you.
    Secretary Foxx. Thank you.
    Senator Ayotte. I wanted to follow up, too, there have been 
health and safety concerns that have been raised related to the 
flammability standards for children's car seats, and wondered 
if you were aware of these concerns and what's being done to 
address them.
    Secretary Foxx. NHTSA's safety standard for flammability 
currently does not require flame retardants. The flammability 
standard aims to afford adequate time for caregivers to help 
children escape a vehicle in the event of a fire. And we know 
that about 194,000 vehicle fires occur annually in the U.S. 
resulting in 300 fatalities and 1,250 injuries, and of these, 
20 fatalities and 25 injuries are children. We know also that 
foams used in child seats and vehicle seats can exacerbate a 
vehicle fire. Therefore, child seat materials, like motor 
vehicle seat materials, are required to prevent flames from 
spreading. NHTSA is initiating research today to better 
understand and evaluate the issues involved in this area, 
including flammability requirements and flame retardants for 
child restraints, and so that work is ongoing.
    Senator Ayotte. Very good. I know I only have a brief 
period left, but I wanted to follow up, one of the amendments I 
had on the FAST Act was focused on additional steps for NHTSA 
to take to support states and emphasizing the public dangers of 
drug-impaired driving. And in New Hampshire, we're just seeing, 
you know, as we are in other places in the country, a heroin 
epidemic and opiate epidemic, and I know that the data from the 
National Roadside Survey has recently shown that there actually 
has been an increase. Now, that data goes from 2007 to 2013 and 
2014, but if New Hampshire is any measure, we're seeing even 
from 2014 up like this. So any brief thoughts on, you know, 
what we can do in terms of NHTSA's action and DOT thinking 
about drug-impaired driving and the challenges we're facing 
with it?
    Secretary Foxx. This is on our radar screen. There is a lot 
of activity going on to study drug-impaired driving. I think 
the hardest-for us to crack is going to be, How do you set a 
standard? You have a standard for alcohol, for instance, but 
how would you----
    Senator Ayotte. And how do you measure it? Yes.
    Secretary Foxx. Exactly. So this is work and research that 
is ongoing, but you have it on my word that we will work as 
expeditiously as we can to get answers.
    Senator Ayotte. Excellent. Thank you.
    Secretary Foxx. Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to pursue the line of questioning that Senator 
Nelson raised and begin by saying I think the American public 
would be aghast and appalled that recalls have not been 
extended to cars on lots right now that they are buying that, 
in effect, are subject to the same safety defects as the cars 
under recall, or to put it differently, that they're buying 
defective cars simply because they haven't been told they're 
under recall. And if there is a need to change the law or start 
an education campaign, I say this to you, Mr. Secretary, 
because I know your heart is in the right place, and I respect 
immensely the higher standard of safety and diligence that you 
brought to the Department of Transportation during your tenure 
there, shouldn't the Consent Order be amended again right away 
or other tools used to stop the sale of these cars with these 
potentially deadly safety defects?
    Secretary Foxx. We did have a bit of this colloquy before. 
I don't believe we have the authority to do that.
    Senator Blumenthal. Why not?
    Secretary Foxx. Because the cars aren't recalled now.
    Senator Blumenthal. Why not put them under recall?
    Secretary Foxx. Because we don't have the basis to do so.
    Senator Blumenthal. Why not?
    Secretary Foxx. Because the evidence isn't there. In other 
words----
    Senator Blumenthal. Why not?
    Secretary Foxx.--because it doesn't exist.
    Senator Blumenthal. Why not get it?
    Secretary Foxx. We have a sense of what's unsafe, and that 
which is unsafe has been recalled, and we will continue. We've 
never said this Takata thing has been finalized. We are 
continuing to research and understand the dimensions of what's 
unsafe.
    Senator Blumenthal. These products are the very same 
ammonium nitrate airbags that have sent shafts and shards of 
metal into people's faces. That's why I say the American public 
would be aghast and appalled. And I sat at this very table and 
heard from Takata, not 10 years ago, but within the last couple 
of years, that they simply lacked enough parts and equipment to 
provide the substituted airbags that would be necessary, and I 
called then for them to share proprietary information with 
other airbag manufacturers so this recall could be done much 
more expeditiously, and it's as though that conversation never 
happened.
    Secretary Foxx. I don't think that's true. I mean, this 
recall is the largest recall in this Nation's history.
    Senator Blumenthal. And I give you credit for it.
    Secretary Foxx. It is the largest recall in the Nation's 
history, 70 million recalled. And, by the way, we don't know 
whether we're done yet. And if there is a way to use the 
concurrent Consent Order, to amend it, to ensure that people 
who are buying cars are notified, we are willing and hopeful to 
pursue that, but I don't think this is a closed book, but our 
agency, within existing authorities, has to use evidence 
available to us, and we do know that these cars will eventually 
be recalled, in which case the recalls will follow.
    Senator Blumenthal. I agree with you that they eventually 
will be recalled.
    Secretary Foxx. Yes.
    Senator Blumenthal. And I take at face value the 
representation that you feel you lack sufficient authority now. 
I would like to pursue with you the potential for amending the 
Consent Order or interpreting creatively and aggressively your 
existing authority and for increasing that authority if 
necessary because I think it is vital to public safety and 
health, and I know you share----
    Secretary Foxx. I do.
    [Laughter.]
    Senator Blumenthal. This is not an adversarial meeting, 
trust me. I really do credit you and applaud you and thank you 
for your focus on this issue.
    I want to shift to rail and again another area where you 
have been very importantly creative. We need to make long-term, 
robust investments, well beyond what we're doing now. I know 
you're working closely with my colleague Senator Booker and 
others from New Jersey and New York on a plan for the Hudson 
River tunnels. I'd like your commitment to work with me in 
developing a long-term plan to rebuild the Northeast Corridor 
beyond just those tunnels, especially the aging bridges and 
tracks that we have in Connecticut, the need for positive train 
control. There's $199 million in the measure that we've just 
passed. The Amtrak rail route has positive train control on all 
but the New York to New Haven portion of it, and I would like 
your commitment that you will work with me in applying those 
monies and that commitment to investment in that Northeast 
Corridor.
    Secretary Foxx. Absolutely. And, by the way, on the other 
pieces that you mentioned on the Takata issue, I want to work 
with you on that, too. I mean, we all have a shared interest in 
making sure the American public is as safe as possible.
    Senator Blumenthal. I agree, sir.
    Secretary Foxx. Good.
    Senator Blumenthal. Thank you so much, Mr. Secretary.
    Secretary Foxx. Yes, sir. Thank you.
    Senator Blumenthal. And thanks for all your very diligent 
and dedicated work at the Department. Thank you.
    Secretary Foxx. Thank you.
    The Chairman. Thank you, Senator Blumenthal. And I 
appreciate the Secretary's commitment on that. It is somewhat 
remarkable that new cars are being sold. Granted, the airbags 
are not defective yet, and therefore the authority issue, and I 
appreciate the dilemma that you face about prioritizing those 
that present the greatest risk in public safety and health 
hazard at the moment and in starting there, but this is 
something that we're going to have to continually stay involved 
with.
    Secretary Foxx. Yes.
    The Chairman. Next up, Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. And I really want to 
thank you for coming out to Anchorage, Alaska, and meeting with 
our Native leadership. It was an important meeting. I know they 
very much appreciate it.
    I wanted to follow up on an issue that came up in that 
meeting and that I and Senator Murkowski and Don Young have 
subsequently written you about, and that's the issue, as you 
know, under the Alaska Native Claims Settlement Act of 1971, 
and then consistently several other Federal laws. It has been 
clear under Federal law that Alaska Native corporations are 
eligible to participate in the Disadvantaged Business 
Enterprise Program, as certified by the SBA, further, that DOT 
regulations have been implemented that recognize the ANC 
eligibility based on the certification of the SBA. And since 
2009, SBA has recognized a self-certification process is 
appropriate for ANCs, given their consistent Federal law 
designation as minority and economically disadvantaged business 
enterprises.
    What we discussed at Anchorage, what we followed up and 
wrote you about, is that there's this process now that's 
beginning where some of the states are not recognizing this SBA 
process that's creating kind of 50 different bureaucratic 
hurdles. And in response to the letter that Congressman Young 
and Senator Murkowski and I sent you, you stated that DOT will 
consider guidance to states on the ANC participation, and we 
appreciate that, but your response noted that the Department 
has chosen not to recognize SBA's certification process, in 
particular, self-certification.
    So, as you can imagine, this is a little confusing to me 
because your own regulations recognize SBA certification, and 
the SBA has recognized self-certification is appropriate, but 
then there seems to be a recent internal DOT policy change that 
doesn't recognize what the SBA is doing. So can you work with 
us to iron out that internal inconsistency? It certainly seems 
like there's something amiss where two Federal agencies are not 
talking from the same sheet of music. And in your development 
of guidance in consideration of this issue, I'd like your 
assurance to work with us to make sure that there is uniformity 
across the 50 states in recognition of ANC eligibility, which 
the SBA clearly already does, and Federal law, in a zillion 
different statutes, requires.
    Secretary Foxx. We will work with you to clarify this 
absolutely. Yes.
    Senator Sullivan. I know it was a big whine there, but 
we've been--and I know it's a little specific, but we did raise 
this in Anchorage, we raised it in a letter, and there just 
seems to be this internal inconsistency between the SBA Federal 
law and what you're doing.
    Secretary Foxx. Good.
    Senator Sullivan. So I appreciate your commitment on that.
    Let me turn to another topic. Senator Blumenthal touched on 
it. And the Chairman and many others were focused on regulatory 
reform in terms of the implementation of the FAST Act. And, as 
a matter of fact, in a hearing several months ago, you and I 
talked about how long it takes to permit a bridge in America, 
which is a disaster, 6 to 7 years. Recent articles, one, and I 
would like to submit for the record, Mr. Chairman, a Wall 
Street Journal editorial called ``The Highway to Bureaucratic 
Hell.''
    The Chairman. Without objection.
    [The article referred to follows:]

            Wall Street Journal--Sept. 11, 2015 6:59 p.m. ET

                      Highway to Bureaucratic Hell

  Why it takes six years to build a road in America. And how to do it 
                                faster.

    Anyone who rattled down highways replete with moon craters while 
traveling on Labor Day weekend knows: The government doesn't excel at 
managing roads. A major improvement would be bulldozing a permitting 
process that delays new public-works projects for up to a decade, and a 
new report from the nonpartisan group Common Good offers a road map.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In 2009, the Obama Administration air-dropped $800 billion of 
taxpayer cash known as the stimulus package, but as of last year a 
piddling $30 billion had been spent on transportation infrastructure. 
One reason the projects proved not as ``shovel ready'' as promised is 
that proposals must undergo extensive environmental and permitting 
reviews, which leave no tedium behind in part to avoid litigation.
    No single official oversees the process, and agency turf wars are 
the norm. A project must comply with every federal, state and local 
outfit that declares itself relevant--Fish and Wildlife, the town fire 
department. A desalination plant in San Diego, for example, kicked off 
a permitting adventure in 2003 that lasted nine years and endured 14 
legal challenges, which makes California's failure at drought relief 
less of a mystery.
    Another illustration is the Bayonne Bridge that connects New Jersey 
to Staten Island and at 150-feet tall blocks large cargo ships. The 
Port Authority of New York and New Jersey plans to raise the bridge 
height to 215 feet instead of blowing $3 billion on, say, a new tunnel. 
As a reward for that rationality, it took six months to identify the 
lead agency for an environmental review that dragged on for some five 
years. The regulatory jibber jabber spanned 20,000 pages and included 
traffic flow studies for a bridge that already exists.
    One irony is that delays mean more carbon energy use. Roughly 6 
percent of energy pumped out for public consumption is wasted thanks to 
America's superannuated electricity grid. That works out to about 200 
coal-burning power plants, the study notes. The same is true for 
congested roads, on which motorists guzzle gas in traffic while they 
wait the average six years for a major highway project to be approved.
    The expense adds up: A six-year delay on public projects costs more 
than $3.7 trillion, the report found. By the way, the amount needed to 
update dilapidated bridges, water pipes and so on over the next decade 
is half that, at $1.7 trillion.
    Common Good suggests building a process that shuttles projects 
through in a prompt two years. Environmental reviews should be handled 
by one designated official and kept to 300 pages; litigation should be 
restricted to the first 90 days after the permit is issued; the White 
House should be granted authority to appoint an agency as a ``one-stop-
shop'' for interstate projects.
    Congress could address the permitting morass this fall as part of 
the transportation bill, and the presidential candidates could include 
the issue and a horror story or two in their agendas for faster 
economic growth. It's hard to imagine a more sensible and politically 
achievable idea--and one better suited to restoring public confidence 
that government can carry out its basic duties.

    Senator Sullivan. And another one by Lawrence Summers from 
the Boston Globe called ``Why Americans Don't Trust 
Government.''
    The Chairman. Without objection.
    [The article referred to follows:]

                       Boston Globe--May 25, 2016

       A lesson on infrastructure from the Anderson Bridge fiasco

                By Lawrence H. Summers and Rachel Lipson

    SOMETIMES SMALL stories capture large truths. So it is with the 
fiasco that is the repair of the Anderson Memorial Bridge, connecting 
Boston and Harvard Square. Rehabilitation of the 232-foot bridge began 
in 2012, at an estimated cost of about $20 million; four years later, 
there is no end date in sight and the cost of the project is 
mushrooming, to $26.5 million at last count.
    This glacial pace of implementation does not reflect the intrinsic 
technical difficulty of the task. For comparison, the Anderson Bridge 
itself was originally completed in just 11 months in 1912. General 
George Patton constructed nearly 40 times as much bridging in six 
months as American soldiers crossed the Rhine to win World War II. And 
even modern-day examples abound; for instance, in 2011, 14 bridges in 
Medford were fixed in just 10 weekends. In contrast, the lapses exposed 
by the Anderson Bridge project hold key lessons for America's broader 
inability to solve its infrastructure problems.
    Repairing the Anderson Memorial Bridge so slowly has had large 
direct costs. Approximately 21,000 vehicles cross the bridge each day, 
along with 15,000 bus riders and thousands of cyclists and pedestrians 
and riders of Harvard shuttle buses. All have been delayed by the 
repairs, many substantially. With missing sidewalks and bike lanes, 
cyclists and pedestrians are physically endangered as well. And then 
there are the backups on the roads that connect to the bridge. If we 
value time lost to congestion at $20 an hour and make no allowance for 
cyclists or delays on other arteries, the cost of delay so far has been 
$40 million, or almost 100 percent more than the budgeted cost of the 
repairs. Meanwhile, because of time lost from the Anderson delays, the 
structurally deficient Western Avenue and River Street bridges 
(originally scheduled for rehabilitation under the state's same $3 
billion Accelerated Bridge program) have missed their window for 
funding.
    How, we ask, could our society have regressed to the point where a 
bridge that could be built in less than a year one century ago takes 
five times as long to repair today? Here are some of the reasons that 
have contributed to the delay:
    In order to adhere to strict historical requirements overseen by 
the Massachusetts Historical Commission, the Massachusetts Department 
of Transportation had to order special bricks, cast by a company in 
Maine, to meet special size and appearance specifications from the 
bridge's inception in 1912.
    At the same time, extensive permitting and redesigns haven't 
helped. For instance, once construction had already started on the 
bridge, the contractor, Barletta Heavy Division, discovered that an 
existing water main would need to be relocated. With the subsequent 
change order and additional Massachusetts Water Resources Authority 
permitting processes, an additional 357 days were tacked on to the 
original contract completion date.
    To cap it off, after resisting for years the inclusion of 
pedestrian underpasses in bridge rehabilitation, MassDOT changed course 
in 2014 and agreed to revise the design so as not to preclude the 
construction of an underpass in the future. The contractor then had to 
move a major utility pipe so that an underpass could fit underneath; 
meanwhile, another 256 days of delay were added to the project. The 
entire project is now 22 months behind schedule.
    Delay, then, is at one level the result of bureaucratic ineptitude 
and the promiscuous distribution of the power to hold things up. At 
another level, it is the failure of leadership to insist on reasonable 
accountability to meet reasonable deadlines. Perhaps, at a deeper 
level, it is the failure of citizenry to hold government accountable 
for reasonable performance--a failure that may in part reflect a 
lowering of expectations as trust in government declines. These themes, 
unfortunately, are not unique to the Anderson Bridge; they help 
illuminate why, despite our vast needs, the country has struggled to 
generate the necessary momentum to respond to pressing infrastructure 
demands. There is no reason to think the Anderson Bridge experience is 
extraordinary, locally or nationally. For evidence, just look at the 
$255 million Longfellow Bridge repairs, recently delayed another two 
years due to historical complications, or the $82 million effort to 
replace deteriorated and corroded steel beams on the Commonwealth 
Avenue Bridge, just pushed back one more year because of design errors. 
Massachusetts bridges are the oldest in the country, yet the 
Accelerated Bridge Program expires this year, with hundreds of 
structurally deficient bridges still remaining and future funding 
sources unclear.
    America desperately needs a major increase in infrastructure 
investment and, if carried out effectively, an investment program could 
come close to paying for itself by generating an expanding economy. 
With record low interest rates, low material costs, and high 
construction unemployment, there is no better time. When states defer 
maintenance and repair for decades--as was done with the Anderson 
Bridge--it places a huge burden on future generations.
    However, to collectively tackle the Nation's crumbling 
infrastructure, citizens need to believe that the government is up to 
the task. In an era when public trust in government remains near all-
time lows, every public task is freighted with consequence. The 
relationship is cyclical--if government can start being more effective, 
it will win more trust, leading to more effectiveness. If, on the other 
hand, projects such as the Anderson Bridge repair project become the 
norm--then we are fated to increasing cynicism and distrust.
    The Anderson Bridge is approximately one-sixth the length of the 
bridge Julius Caesar's men built across the Rhine in 10 days in 55 BC. 
Caesar's feat is admired not just for its technical mastery but also 
for its boldness. An allied tribe had offered boats to carry Caesar's 
troops across the river, to avoid the difficult task of bridge-
building. Yet Caesar rejected this offer, on the grounds that it would 
not be ``fitting for the prestige of Rome.''
    We should hold America's infrastructure to the same standard.

Lawrence H. Summers is the Charles W. Eliot University Professor and 
President Emeritus of Harvard University. He was also Secretary of the 
U.S. Treasury. Rachel Lipson is a joint MBA-MPP student at Harvard.

    Senator Sullivan. These lay out bridges that are being 
permitted, not new bridges, but just to be repaired. So the 
Bayonne Bridge, that connects New Jersey to Staten Island, 5 
years just to raise the bridge. The Anderson Memorial Bridge in 
Cambridge, Massachusetts, 5 years, just for the permitting I'm 
talking about. So I think the FAST Act scratches the surface, 
but I think there is so much more we can do. There are, as you 
know, Mr. Secretary, 61,000 structurally deficient bridges in 
America, and one of the reasons our economy is not moving, 
clearly, is because we can't build infrastructure because it 
takes 5 to 10 years to permit a road or permit a bridge, even a 
bridge that we just want to repair, not even expand.
    So there are a lot of different ideas here. One of the 
things that I think is a good idea is to, if you're just 
repairing a bridge, to waive the permitting requirements 
because you're not hitting the ecosystem of the environment. 
Are there areas that you have in terms of other things that we 
can do besides what's in the FAST Act to get to what I think is 
a real, real problem for America? And if you were able to 
streamline permitting of structurally deficient bridges, you'd 
probably get 99 percent approval on that from most Americans. 
What are some of your ideas? And would you be in favor of 
waiving NEPA requirements for just maintenance on bridges?
    Secretary Foxx. Well, I'll tell you that one of the secrets 
of the last 8 years has actually been an expansion of 
categorical exclusions, which is one way to move projects more 
quickly through the process.
    Senator Sullivan. But it's very narrow.
    Secretary Foxx. And so we've actually gone pretty 
substantially, I think--I may get this wrong, so I'll send you 
a QFR that will give you the actual number, but I believe it 
was something like 93 percent CEs before, and we're closer now 
to like 96 or 97 percent.
    I would also say a couple of other things that are being 
attempted at the State level that are helpful, and, by the way, 
it's not altogether always clear whether it is State or Federal 
permitting requirements that tie these things up.
    Senator Sullivan. Yes, sir, I couldn't agree with you more.
    Secretary Foxx. But also there is technology now that 
states are using. I'll give you one example. In Massachusetts, 
they were able to install I think 14 bridges over a weekend 
because the bridges were prefabricated, and so they were 
actually able to knock out the old bridge, slide the new bridge 
in, and have it ready by Monday morning. And so these 
technologies are ones that I think will also help us speed up 
the construction time, but I think it is absolutely true that 
when the government promises a project and it happens 
relatively quickly, the public gains confidence, and when it 
takes decades to get projects done, people lose confidence.
    Senator Sullivan. Thank you. And, Mr. Chairman, I'm going 
to submit for the record an additional question on Section 5403 
of the FAST Act, which is focused on making sure our veterans 
get expedited into the commercial trucking industry, and I'll 
have questions on how we're doing on follow up on that.
    Thank you, Mr. Secretary.
    Secretary Foxx. Yes, sir.
    The Chairman. Thank you, Senator Sullivan.
    The prepared statement of Senator Sullivan follows:]

   Prepared Statement of Hon. Dan Sullivan, U.S. Senator from Alaska
    Mr. Secretary, in April, Senator Murkowski, Congressman Young and I 
sent a letter expressing ``strong support'' for a grant application 
submitted by the Municipality of Anchorage and the Port of Anchorage to 
the ``Fostering Advancements in Shipping and Transportation for the 
Long-Term Achievement of National Efficiencies'' (FASTLANE) Grant 
Program. The Municipality and Port are collectively seeking $45 million 
to assist with the first phase of the Anchorage Port Modernization 
Project.
    Since you are testifying before the Senate Commerce Committee 
regarding the implementation of the FAST Act, I want to use this 
opportunity to reiterate my support for the Port's FASTLANE Grant.

    The Chairman. Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you.
    Mr. Secretary, thank you for being here, but more 
importantly, thank you for your public service and relationship 
that you've extended to me and my staff.
    Secretary Foxx. Thank you.
    Senator Moran. Let me bring to your attention an amendment 
that's included in the FAST Act that I offered. It's Section 
5523, but what it does is allows for manufacturers of trailers 
to deliver them to their dealers, and that provision preempts 
State law, but it's my understanding that apparently many 
states are still attempting to enforce their own provisions, 
and so I raise to you this particular issue of education of 
states, either specifically--I guess specifically to this 
issue, but more broadly, the Department is doing what to make 
certain that our State Departments of Transportation 
enforcement agencies know where their jurisdiction now lies?
    Secretary Foxx. Let me come back to you with a formal 
response, Senator. It's an important issue, and I want to make 
sure we answer the mail on this, but I would suspect and will 
verify that we are actively working to educate the states on 
this, but let me give you the detail.
    Senator Moran. I would welcome the follow-up. We have a 
number of trailer manufacturers in Kansas, and, of course, they 
exist across the country, and this is an important provision in 
getting their product to their retailers.
    Secretary Foxx. Sure.
    Senator Moran. Second, the FAST Act has required a National 
Academy of Science and a GAO study in regard to the ECP brakes 
on railcars, an issue that you and most of us are aware of. Has 
the GAO provided you any status report as to the progress they 
are making with their study? Part of that study is for National 
Academy of Science to do testing. And have you seen any results 
of the testing that you can share with us?
    Secretary Foxx. I do not know the status of the GAO study. 
I know that the NAS is in the process of standing up the 
Committee that will be part of evaluating the testing. We are 
also working on a concurrent basis to get the testing ramped up 
and started, so that work is underway, but that's the current 
status.
    Senator Moran. When you say you, the Department, is on a 
path to ramp up the testing, you're talking about assisting the 
National Academy of Science or separate testing on your----
    Secretary Foxx. As I understand the National Academy of 
Sciences' method, it takes them a while to ramp up their 
committees. They have a formal process by which they do that. 
And given the backend timeline that we have to move all this, 
we've actually started moving forward with some of the 
development of the testing. My hope is they're able to move 
quickly enough so that we don't get too far before that 
happens, but we're worried that we may blow the timeline if we 
don't start working.
    Senator Moran. And again I'm being repetitive, but I'm just 
trying to make sure I understand. Is what you're ramping up 
your own testing or you're assisting the National Academy of 
Science in their testing?
    Secretary Foxx. My understanding is that the NAS will be 
evaluating the testing that is done by the Department.
    Senator Moran. Done by the Department.
    Secretary Foxx. Yes.
    Senator Moran. OK. So the testing is your responsibility. 
The evaluation of that testing would be done by the National 
Academy of Science.
    Secretary Foxx. Yes.
    Senator Moran. And I assume you would tell me that when 
that testing and the results are in, that is something you 
would commit to paying attention to as you develop your plan in 
regard to----
    Secretary Foxx. Yes. And I can also tell you that the 
results--no results of the testing that is being done will be 
published or put out there until the NAS task force has a 
chance to really drill into it and validate it or invalidate 
it.
    Senator Moran. OK. Thank you, Mr. Secretary. Finally, this 
is a manufacturing question, somewhat outside the scope of the 
FAST Act, but my question relates to harmonizing CAFE 
standards. My understanding is that the National Highway 
Traffic Safety Administration and EPA are not in synch on the 
standards and that you can be in compliance with one and fined 
or challenged by the other. And the administration had the one 
national program trying to harmonize the regulations so that a 
manufacturer--all of us can understand what the standards are. 
Can you bring me up to date in that regard?
    Secretary Foxx. Well, there is work that's underway to do 
the interim halfway report on the CAFE standards, and I think 
things are going in a more harmonious direction than perhaps 
you think they are, but I expect that that work will continue 
forward and hopefully we'll be able to report out something in 
the fall.
    Senator Moran. If you have any specifics, I'd be glad to 
have you share that information with me when you respond to the 
other items.
    Secretary Foxx. Yes, sir.
    Senator Moran. And I'm always looking for harmony, so thank 
you, Mr. Secretary.
    [Laughter.]
    Secretary Foxx. Yes, sir. Thank you.
    The Chairman. All right. Thank you, Senator Moran. He is a 
harmonious guy.
    [Laughter.]
    The Chairman. The Senator from Montana, Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Just a point that Senator Cantwell brought up earlier about 
that incident in Mosier, Oregon, on the Columbia, the rail 
incident. Just a reminder, that Bakken crude also could travel 
the Keystone Pipeline. That's another way of transporting oil. 
One of the misnomers on the Keystone Pipeline is it's all 
Canadian crude. 100,000 barrels a day of Bakken crude would 
enter the Bakken outside of Baker, Montana, as part of building 
out a more robust infrastructure.
    Secretary Foxx, thank you for visiting Montana recently. 
You were up there in God's country, the northwest part of our 
state, not too far from Glacier National Park and the 
Confederated Salish and Kootenai Tribes.
    Secretary Foxx. Yes.
    Senator Daines. And that was on the Flathead Reservation. 
It was a historic meeting. By the way, you are the first 
Secretary of Transportation to ever step foot on the 
reservation there.
    Secretary Foxx. Wow.
    Senator Daines. So I don't know if you knew you were making 
history----
    Secretary Foxx. I did not.
    Senator Daines.--but you did.
    Secretary Foxx. Wow.
    Senator Daines. Tell me what lessons you learned from that 
visit in tribal transportation.
    Secretary Foxx. I think there are several. Number one is 
that you have a remarkable community, and they have a real idea 
of how they want to grow their economy, and tourism is 
obviously a big part of it. And there are also agricultural 
products that are coming from the area. I found that the people 
there were very interested in multimodal transportation, very 
interested in having the ability to walk or bike to work. I 
think there is a trail that they're trying to get fixed out 
there.
    And then I would say the other piece is that there were 
also concerns about some of the rail--the commodities moving by 
rail within the reservation. And so those are some of the 
observations I came away with.
    Senator Daines. One of their major concerns--and thank you 
for that--that I hear from the CSKT, as well as Kalispell, in 
fact, anybody up and down Highway 93, is regarding the safety 
on U.S. 93. I've experienced it, as a kid who grew up in 
Montana. And, in fact, I remember the bumper stickers that we 
would see, and they're still out there, it says, ``Pray for me, 
I drive Highway 93.''
    [Laughter.]
    Senator Daines. What steps is DOT taking to help the CSKT 
and others complete projects on U.S. Highway 93?
    Secretary Foxx. So when we were there, Highway 93 did come 
up, and what I offered was our technical teams to come out and 
try to help. I can't remember where the project is in terms of 
planning, but there is a gap in the project where they're 
trying to get it finished. And we also offer technical 
assistance on the grant writing side as discretionary dollars 
become available to try to help move the project forward. We 
certainly want them to be as competitive as they can be within 
the discretionary programs.
    Senator Daines. I'd appreciate that. You know, tourism is a 
huge part of our economy in Montana, and that is the major 
corridor for folks----
    Secretary Foxx. It's a beautiful state.
    Senator Daines. Thank you--flying into Missoula perhaps, 
driving up to Glacier National Park, it's on Highway 93.
    I want to pave it over to another issue, on bridges. 
Senator Sullivan brought it up as well. In Missoula, Montana, 
three of the five bridges that cross the Clark Fork River are 
considered structurally deficient. In fact, most notoriously is 
the Russell Street Bridge. Over 60,000 cars cross these 
deficient bridges. They were constructed back in the 1950s, 
back when my dad was going to school at the University of 
Montana there in Missoula. In your testimony, you mentioned 
reducing bureaucratic red tape to expedite project delivery. 
What additional steps are you taking to expedite work on these 
most at-risk bridges?
    Secretary Foxx. Well, I'd say that the biggest impediment 
we've had has been a lot of uncertainty about funding levels, 
and so now that the FAST Act has passed, states are starting to 
ramp up their activities in terms of rehabilitating bridges, 
repairing bridges, even replacing them. As they do that work, 
we're trying to find creative ways to help them move projects 
through very quickly.
    I'll give you one example of a case study. We were able to 
work with the state of Pennsylvania not only to get the 
projects moved through the permitting process quickly, but they 
actually pooled a group of about 500 bridges to make use of our 
innovative financing programs, none of the individual bridges 
would have qualified or made sense to do by financing, but they 
got them pooled and were able to move 500 bridges through the 
system very quickly. So we're looking everywhere we can to help 
move through the permitting process as quickly as we can.
    Senator Daines. Well, that's good news, getting them 
through almost in block. If you would take a look at adding the 
Russell Street Bridge in Missoula to that list, I'd greatly 
appreciate it.
    [Laughter.]
    Secretary Foxx. You got it. Absolutely.
    Senator Daines. Thank you. Thank you, Secretary Foxx.
    Secretary Foxx. Thank you, Senator. Appreciate you.
    The Chairman. Thank you, Senator Daines.
    And, Mr. Secretary, I have to depart here in a moment, but 
I just want to say again thank you for being here and thanks 
for all your good work. You've been a great partner on a lot of 
these issues. And this committee and the Congress has acted on 
highways, rail freight reform, pipeline safety is hopefully 
coming back from the House, and I guess the thing I would just 
encourage you to the degree that you can is encourage our House 
colleagues on FAA. We need to deal with aviation. I think we're 
in a much better position if we enact something that is longer 
term and has more permanent reforms in it than doing another 
short-term extension. So I'm hopeful that we'll be able to get 
that done here in the near future and will have addressed most 
of the major modes of transportation in the country.
    So, Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you.
    And thank you, Mr. Secretary. I want to reiterate what 
Senator Moran said with regard to harmonization of regulations. 
As I understand it, auto manufacturers don't know where they 
are. They can build a fleet that might satisfy requirements of 
one Federal program, but not another agency, or it might 
satisfy a Federal requirement, but not a State requirement. So 
I understand you to say work is underway, you hope to get 
something to us in the fall. Will that be a legislative 
recommendation or will it be a change in a rule or regulation?
    Secretary Foxx. I think there's an interim report that is 
due as part of the work on the CAFE standards. It was a 10-year 
program, and in year 5, there is work underway to do a review 
of progress to date. I think that our teams, both the EPA teams 
and the DOT teams, do not believe there is inconsistency. 
They've actually worked pretty hard to ensure that DOT CAFE 
standards and EPA's greenhouse gas standards are as harmonized 
as possible, and we will continue working to keep you advised 
and the Committee advised on the progress as we go forward.
    Senator Wicker. OK. Well, in August 2012, and I realize 
that was almost 4 years ago, the administration said, and I 
quote, ``Continuing the national program ensures that auto 
manufacturers can build a single fleet of U.S. vehicles that 
satisfy requirements of both Federal programs as well as 
California's program. There are several discrepancies that 
allow compliance with one agency but not another.'' So perhaps 
that's changed since August 2012, or perhaps the 
administration's statement was perhaps hyperbole except that 
the manufacturers tell us that they simply want to know what to 
comply with. So I hope you'll commit to having NHTSA work with 
us on harmonization changes----
    Secretary Foxx. Yes.
    Senator Wicker.--so the manufacturers can know exactly 
where they are.
    Now, let me ask you, you said something about a proposed 
Southeast Rail Commission in Charlotte a while back.
    Secretary Foxx. Uh-huh.
    Senator Wicker. There is already a Southern Rail Commission 
with Mississippi, Louisiana, and Alabama. Have you given any 
thought to the advantages of perhaps expanding that Southern 
Rail Commission to include states that might be in the 
Southeast Rail Commission as opposed to having a Southeast 
right up next to a Southern Rail Commission? Have you given 
that any thought, Mr. Secretary?
    Secretary Foxx. Senator, I think the more states in the 
South that work together on establishing strong intercity 
passenger rail, the better. I was speaking about the fact that 
there is an existing compact between North Carolina and 
Virginia, and the other contiguous states there, South Carolina 
and Georgia, would be critical to connecting that part of the 
Southeast.
    Senator Wicker. Well, now, you wouldn't limit that to 
intercity rail, would you?
    Secretary Foxx. Well, that's what the conference was about 
that I was speaking from. And I also know that there is a Gulf 
Coast Working Group that is working to reestablish rail service 
between Louisiana and Orlando, which is also very important, 
so----
    Senator Wicker. Right. What a nice segue to my next 
question.
    [Laughter.]
    Senator Wicker. As a matter of fact, that was established 
in the FAST Act.
    Secretary Foxx. It was.
    Senator Wicker. How is that going in your opinion? FRA has 
done an excellent job in leading the group's work and 
developing a plan to fund and operate rail service throughout 
the Gulf. So what can you tell us about the progress in the 
past 6 months or so?
    Secretary Foxx. It has been very good progress. The Gulf 
Coast Working Group convened on February 6, 2016, for the first 
time in New Orleans. We sent our FRA Administrator to that 
meeting as an indication of how important the work is.
    Senator Wicker. And that was appreciated.
    Secretary Foxx. Absolutely. And they are meeting monthly 
both in person and call-in meetings as they work to look at the 
options for getting that service back up and running. Very 
important service, though.
    Senator Wicker. Wonderful. I do hope that your team can be 
as enthusiastic about this as I am and as my team is. So thank 
you very much for keeping us apprised on that.
    Let me move to a really tough situation. In May, we lost 
two children in Mississippi as a result of vehicular heatstroke 
because of being left in automobiles in rear seating positions. 
It's just heartbreaking. Today is National Child Vehicular 
Heatstroke Prevention and Awareness Day. I don't know if people 
are apprised of that. But having witnessed two of these tragic 
losses in the last month, I wanted to ask about this. Section 
24114 of the FAST Act requires DOT to conduct research into 
effective ways to minimize the risk of hyperthermia and 
hypothermia to children or other unattended passengers in rear 
seating positions. Do you have any information for the 
Committee about this? Is this study being conducted? And what 
information can you give to the public and to the Committee at 
this point on this tragic series of events?
    Secretary Foxx. Senator, first of all, it's a tragic loss 
anytime you lose any lives, but our young people particularly. 
And if you wouldn't mind, I'd like to submit for the record on 
that and give you a thorough response to that question on the 
status.
    Senator Wicker. OK. All right. And, you know, I had to 
comment. How are we doing on the Amtrak Board of Directors? Is 
that--did you discuss that earlier?
    Secretary Foxx. We have not discussed it.
    Senator Wicker. What do you think on that? Will the 
administration be putting forth nominees to ensure that the 
Amtrak Board of Directors has full representation?
    Secretary Foxx. That's my hope. I will need to respond back 
to you. I'll try to call you in the next couple of days to give 
you a sense of that. But at the present, I don't know 
specifically.
    Senator Wicker. Let's think national system when we do. 
Let's think long distance interest when we do, sir.
    Secretary Foxx. Yes. Absolutely.
    Senator Wicker. Very good. Well, from all accounts, you 
have done a marvelous job, and I think it is now fallen to me 
to say the hearing record will remain open for 2 weeks. During 
this time, Senators are asked to submit any questions for the 
record. Upon receipt, the witness is requested to submit 
written answers to the Committee as soon as possible.
    So with that said, do you have anything you would like to 
add, Mr. Secretary?
    Secretary Foxx. Senator, if I might, just I'm recalling 
some of the colloquy we've had about our Takata situation, and 
it's a very serious situation, and I think we've committed to 
do a lot of things today to try to work with the Committee to 
ensure we're doing every single thing we can do to ensure the 
safety of the public. I want to make it very clear, though, 
that we have done an awful lot to try to push this issue into 
the public light and to make sure that Takata is doing every 
single thing we can push them to do to get this right, and to 
the point that when I was just talking with Senator Blumenthal, 
I made a comment that I don't want to get misconstrued about 
the safety of these cars today. Takata is under a Consent Order 
to prove that the airbags are safe, and if they cannot 
demonstrate that proof, those airbags cannot be used in the 
future in cars. Based on the evidence we have today, we don't 
have a basis to prevent those airbags from going into new cars 
today, but we do know that those airbags will be recalled at 
some point in the future. It's a very complicated issue, but I 
wanted to make sure the record was clear on where I stand on 
that, and hopefully we will continue working together on this.
    Senator Wicker. Thank you for that clarification.
    Secretary Foxx. Yes, sir.
    Senator Wicker. And not having been here for that exchange, 
I won't follow up, but perhaps we might follow up with 
questions on the record.
    Secretary Foxx. Sure. That's fine.
    Senator Wicker. I want to thank you, Secretary Foxx, for 
appearing today. And if there is no objection from any member 
of the Committee, this hearing is now adjourned.
    Secretary Foxx. Thank you, sir. Thank you.
    [Whereupon, at 4:21 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Anthony R. Foxx
NHTSA
    Question 1. The FAST Act seeks to ensure that the National Highway 
Traffic Safety Administration (NHTSA) fully implements the 
recommendations from the Inspector General's blistering audit conducted 
at your request in response to the GM ignition switch defect, which has 
been linked to more than 124 deaths and several hundred injuries. The 
new law gives you the important role of certifying NHTSA's 
implementation of those recommendations. What is the current status of 
those recommendations?
    Answer. In NHTSA's June 16, 2015, comments to the Office of 
Inspector General (O.I.G.) Draft Audit Report (ST-2015-063), NHTSA 
established an aggressive implementation schedule. NHTSA has taken 
extensive action to address the O.I.G.'s recommendations, and has met 
all of its self-imposed completion dates for those recommendations. All 
17 of the NHTSA recommendations have been resolved.

    Question 1a. Another IG audit released this February found that, 
while the agency completed all agreed-to actions from a 2011 review on 
defect identification, the agency did not consistently continue to 
apply the actions it implemented for several recommendations. Secretary 
Foxx, will you commit that you will not certify the IG recommendations 
referenced in the FAST Act until you are confident not only that NHTSA 
has fully implemented the recommendations, but that it has the 
capability to continue to consistently apply the recommendations in the 
future?
    Answer. As required under the FAST Act, I am currently reviewing 
the actions that NHTSA has taken to address the recommendations from 
the 2015 O.I.G. Audit Report (ST-2015-063) and will make the 
certification when I am satisfied that NHTSA has implemented all of 
those recommendations. My office will continue to work with both NHTSA 
and the O.I.G. to ensure the continued implementation and execution of 
NHTSA's improved policies and procedures.

    Question 2. In a recent press release, NHTSA warned that certain 
model year 2001-2003 Honda and Acura vehicles with defective Takata 
airbag inflators show a substantially higher risk of rupture and need 
to be repaired immediately. Given that these vehicles were initially 
recalled between 2008 and 2011 for related defects, what accounted for 
the delay in NHTSA reaching this conclusion?
    Answer. This population of Honda and Acura vehicles was recalled 
between November 2008 and December 2011 for known and identified 
manufacturing defects in the driver's side air bag inflator. Where 
vehicles are recalled, NHTSA does not normally undertake additional 
testing on the recalled part, and instead applies its resources toward 
investigating other potential safety defects. However, following 
notifications under the Agency's Standing General Order of recent 
rupture incidents involving this population of vehicles, NHTSA directed 
Takata to conduct additional testing. The Agency was able to get the 
information and resources it needed to direct this testing because of 
its 2015 Preservation Order with Takata. When the new test data showed 
a far higher risk of ruptures among this population of inflators, NHTSA 
ensured that consumers were made aware of the grave danger the 
inflators in this particular group of vehicles posed.

    Question 3. I am concerned that the leadership of the Office of 
Defects Investigation is in transition. Secretary Foxx, what are you 
doing to ensure effective leadership and especially accountability for 
the day-to-day activities of that office?
    Answer. NHTSA is moving swiftly to fill the vacancy for Office of 
Defects Investigation (ODI) Director, with candidate interviews 
commencing soon. A NHTSA senior staff member who reports directly to 
the Associate Administrator for Enforcement is overseeing the day-to-
day operations of ODI and is closely monitoring the new transparent, 
risk-based and objective pre-investigative processes implemented this 
Spring.

    Question 4. The FAST Act tied an increase in civil penalties for 
Safety Act violations to the issuance of a final rule on civil penalty 
factors. NHTSA finalized that rule, but now is proposing to 
unilaterally assess civil penalties for vehicle safety violations under 
49 USC 30165 instead of compromising penalties and relying on the 
Department of Justice to assess penalties when an action is not 
compromised, citing a minor wording change contained in the Moving 
Ahead for Progress in the 21st Century Act (MAP-21). The MAP-21 
direction, however, did not provide NHTSA with express authority to 
issue such a rule. Moreover, while I was not Chairman when MAP-21 was 
negotiated, members of my staff who worked under then-Ranking Member 
Hutchison inform me that the negotiations did not include any 
discussion of providing NHTSA with unilateral authority to impose such 
penalties. Relevant sections of the code also cast doubt on the 
rationale for NHTSA's current effort. For example, 49 USC 30165(d) 
discusses ``a civil action brought under this section'' in connection 
with the civil penalty authority, indicating a Federal civil action in 
court. In addition, 49 USC 30163(c) provides that ``. . . a civil 
action under this section or section 30165(a) of this title may be 
brought in the judicial district in which the violation occurred . . 
.'' thus reiterating the reference to a civil action. Congress has 
provided authority for the administrative imposition of civil penalties 
at other agencies, but in those cases it has generally done so 
expressly by stating that the agency should ``impose'' or ``assess'' 
the penalty. NHTSA has successfully used the consent order process, as 
exemplified by the recent $200 million consent order with Takata, the 
$105 million consent order with FCA, and the $70 million consent order 
with Honda. And, of note, these negotiations all occurred prior to the 
tripling of the civil penalties as directed under the FAST Act. The 
FAST Act also included provisions to strengthen NHTSA's defect 
identification and investigation processes, which should facilitate 
such consent orders, when appropriate. Please help the Committee better 
understand why, in light of this legislative history and context, NHTSA 
now believes it has the legal authority for its proposal to assess 
penalties unilaterally.
    Answer. The plain language of the amendments to 49 U.S.C. 
Sec. 30165(c) in the Moving Ahead for Progress in the 21st Century Act 
(MAP-21) confirmed NHTSA's authority to assess civil penalties as well 
as to compromise them. Prior to the enactment of MAP-21, the statute 
provided, ``In determining the amount of a civil penalty or compromise, 
the appropriateness of the penalty or compromise to the size of the 
business of the person charged and the gravity of the violation shall 
be considered.'' 49 U.S.C. Sec. 30165(c) (2011). The statute did not 
specify who would assess the civil penalties. However, the statute 
specifically stated that ``The Secretary of Transportation may 
compromise the amount of a civil penalty imposed under this section.'' 
49 U.S.C. Sec. 30165(b)(1). MAP-21 revised this language to read: ``In 
determining the amount of a civil penalty or compromise under this 
section, the Secretary of Transportation shall consider the nature, 
circumstances, extent, and gravity of the violation.'' 49 U.S.C. 
Sec. 30165(c) (2016). This amendment made it clear that the Secretary 
of Transportation has the authority and a mandate to assess civil 
penalties as well as to compromise them pursuant to the provisions of 
MAP-21.
    The legislative history also supports the Agency's interpretation. 
When S. 1449, the Motor Vehicle and Highway Safety Improvement Act of 
2011 (Mariah's Act), was introduced, the bill contained language 
listing the factors that the Secretary of Transportation shall consider 
in determining the amount of civil penalty or compromise. According to 
a Senate report, the provisions of S. 1449 were enacted into law, with 
modifications, as title I of division C of MAP-21. The Senate Commerce 
Report made clear that NHTSA was authorized to impose ``fines.'' It 
stated, ``Before issuing a fine, the Secretary would be required to 
consider several relevant factors in setting the level of the fine, 
including the nature of the violation; the severity of the risk of 
injury; the actions taken by the person charged to identify, 
investigate, or mitigate the violation; the nature of the defect or 
noncompliance; and the size of the company.'' The word ``fine'' is 
synonymous with the term ``civil penalty.'' Therefore, the plain 
language of the statute and the legislative history support NHTSA's 
authority, acting under delegation from the Secretary, to impose civil 
penalties directly.

    Question 5. Thank you for the discussion at the hearing about 
providing additional flexibility to the states in the highway safety 
grant program. I am pleased that, as a result of the FAST Act, NHTSA 
has just released the Interim Final Rule (IFR) to provide guidance to 
the states on these grant programs. The IFR states that the agency, 
``if appropriate, will amend provisions of the regulation.'' What 
factors would cause the agency to consider amending the rule further?
    Answer. As with all rulemakings soliciting public comments, NHTSA 
plans to carefully review all input received. If public comments 
identify alternative approaches that would meet the goal of effectively 
and efficiently awarding and managing the grants, NHTSA will consider 
these approaches.

    Question 5a. Does the agency intend to issue a final rule, and if 
so, what is the expected time-frame for a final rule?
    Answer. Yes, the Agency expects to issue a final rule well before 
Fiscal Year 2018 applications are due.

    Question 5b. The newly issued IFR changed some requirements for 
state submissions. In particular, the IFR now appears to require full 
``descriptions'' of certain data elements, whereas ``brief'' or 
``general'' descriptions were previously required (see, e.g., 23 CFR 
1200.11(a) and 1200.35(a) and (b) compared to the new IFR). Some areas 
also ask for increased project-level detail, such as 23 CFR 1300.11(d). 
I believe that strong oversight of the use of Federal funds is needed, 
but many of the FAST Act's changes to highway safety grants were 
intended to provide additional flexibility to the states. What was the 
rationale behind these changes in the IFR? Are they consistent with the 
flexibility for states endorsed in the FAST Act?
    Answer. The FAST Act provided states with greater flexibility in 
eligible use of grant funds under the National Priority Safety Programs 
(Section 405). NHTSA's IFR supports this flexibility by allowing states 
to integrate Section 405 planned activities into the Highway Safety 
Plan instead of the separate project lists that were previously 
required. In addition, the IFR implemented the added FAST Act 
flexibility for states to qualify for law-based grants.
    Separately, the IFR made amendments to some requirements to support 
the implementation of an improved and enhanced electronic grants 
management system that will enable states to apply for highway safety 
grants and receive and manage grant funds more efficiently and with 
fewer burdens. The IFR allows states applying for Section 405 grants to 
cross reference project information already appearing in the Highway 
Safety Plan, eliminating the submission of duplicative information. 
Because we expect project information to be captured in the grants 
management system when states submit their Highway Safety Plans, the 
burden of invoicing for expenses will also be reduced.
    The modest amendments to the Highway Safety Plan and annual report 
requiring descriptions rather than summaries of a State's progress will 
better position the states to adjust upcoming plans. This will assist 
states in reversing the disturbing increases in fatalities across the 
country.

    Question 6. Preliminary data recently released by NHTSA show a 7.7 
percent increase in motor vehicle traffic deaths in 2015. What has 
accounted for such an increase? What steps have you taken to improve 
NHTSA's partnership with the states to improve highway safety?
    Answer. While the Agency is still analyzing the 2015 fatality data, 
there are a number of areas that NHTSA has identified as potential 
contributors to the disheartening 7.2 percent increase in roadway 
deaths. There were increases in fatalities in the following areas: 
motorcyclist (8.3 percent); pedestrian (9.5 percent); bicyclist (12.2 
percent); passenger car occupants (5.7 percent); pickup truck occupants 
(4.7 percent); and alcohol-impaired driving fatalities (3.2 percent). 
Preliminary data reported by the Federal Highway Administration (FHWA) 
shows that vehicle miles traveled (VMT) in 2015 increased by about 3.5 
percent, and thus increased exposure may account for some of the 
increase.
    In response to early estimates, NHTSA convened a series of 
behavioral safety summits across the country in February and March 
2016. The purpose of these summits was to identify evidence-based 
methods to change behavior outside of traffic safety and explore the 
potential for applying those in new settings. As a direct result of 
these summits, NHTSA is fostering engagement between states and new 
partners who had not previously been engaged in traffic safety.
    NHTSA has focused on expanding partnerships with the states and 
with new national and local partners to implement new safety 
initiatives and programs. NHTSA plans to introduce new innovative 
performance metrics and program resources for states later in 2016.

    Question 7. Section 24105 of the FAST Act required a 2-year state 
pilot program to evaluate the feasibility and effectiveness of 
notifying consumers of open motor vehicle recalls at the time of 
vehicle registration. This pilot program may demonstrate an effective 
means of achieving higher recall completion rates. What steps has NHTSA 
taken to ensure this will be a successful pilot?
    Answer. In preparation for issuance of the grant solicitation, 
NHTSA engaged with stakeholders to become better informed about State 
and commercial sector logistics as well as technical capabilities 
regarding open recall notification at the time of vehicle registration. 
This outreach has provided NHTSA with a better understanding of the 
registration process and of State capabilities so that it can ensure 
that the program is flexible enough to accommodate the various State 
systems for registering vehicles.

    Question 7a. Beyond the Request for Information issued on April 15, 
has NHTSA worked with states to ensure there is interest and readiness 
for the functionality of the program?
    Answer. NHTSA discussed the pilot notification program with the 
American Association of Motor Vehicle Administrators, the organization 
that represents the State officials who administer and enforce motor 
vehicle laws, to gauge interest in and encourage participation in the 
pilot notification program. Because many states have preexisting 
relationships with the motor vehicle industry and with commercial 
entities providing notification services, we have also encouraged 
State-industry partnerships to increase participation in the 
notification program.

    Question 8. The FAST Act directs a number of updates to the recall 
process, including directing that recall notifications may be sent by 
electronic means in addition to notification by first class mail. The 
FAST Act also directs additional public awareness efforts regarding 
recalls and a report on recall completion rates. What steps has NHTSA 
taken to research and improve consumer notification in an effort to 
improve recall completion rates?
    Answer. NHTSA issued an Advance Notice of Proposed Rulemaking 
(ANPRM) soliciting comments and supporting information on what NHTSA 
might require as to electronic recall notification. See 81 Fed. Reg. 
4007 (January 25, 2016). The Agency asked questions to facilitate 
comments from stakeholders on what means of notification, based on 
their experience, have been most effective in providing information to 
customers and motivating customers to have safety recall remedies 
performed. NHTSA expects to issue a Notice of Proposed Rulemaking in 
the near future.

    Question 8a. How has NHTSA worked with the auto manufacturers to 
research new and better ways to reach consumers and influence recall 
repair?
    Answer. As part of their consent orders, General Motors (GM) and 
Fiat Chrysler Automobiles (FCA) researched what factors best motivate 
consumers to take action and seek out their recall remedies. GM 
provided highlights of its results at NHTSA's ``Retooling Recalls'' 
symposium in April 2015 where industry leaders gathered at the U.S. DOT 
and brainstormed new ideas to improve recall completion rates. FCA 
shared results of its consumer focus groups and surveys with NHTSA and 
other auto manufacturers. The Alliance for Automobile Manufacturers and 
Global Automakers conducted a joint research project to learn how 
consumers view recalls and the recall notifications they receive. Over 
1,500 people were surveyed and the results were shared with NHTSA and 
summary results were published in the comment filed in the ANPRM docket 
noted above.

    Question 9. It is important for safety recalls to be remedied as 
soon as possible. What does NHTSA do to ensure that manufacturers are 
fulfilling their responsibility to make sure replacement parts to 
remedy recalls are available and at dealerships as soon as possible?
    Answer. NHTSA regularly monitors safety recalls and the amount of 
time manufacturers take to provide recall remedies to their owners. 
NHTSA requires manufacturers to mail consumers an interim notice when 
the remedy is not yet available. The law requires manufacturers to 
remedy vehicles within a reasonable time. However, there is no fixed 
time-frame for what is reasonable because factors such as the number of 
vehicles, age of vehicles, and the nature of the defect may impact how 
quickly a manufacturer can develop a remedy and obtain a sufficient 
supply of parts to fix vehicles.

    Question 9a. In some instances, consumers who bring their vehicles 
in for repair in response to a recall are told parts are not available. 
Such consumers may need to wait several weeks or more for parts to 
become available. While certain recalls may unavoidably result in 
longer times to obtain replacement parts, does NHTSA track the length 
of time between the notification of a defect or noncompliance and the 
date upon which parts are readily available and at dealerships?
    Answer. Yes, the Agency tracks the length of time between 
notification and the date the remedy becomes available.

    Question 9b. If so, what is the average length of time, and have 
you identified any differences in the average length of time among 
manufacturers?
    Answer. For passenger vehicle recalls issued in 2015, manufacturers 
made the recall remedy available, on average, 62 days from the date 
they notified the Agency of the recall. The length of time varies with 
each manufacturer. Manufacturers taking less than 62 days to launch 
their remedy program recalled about 11 million vehicles, combined, in 
2015. Manufacturers taking 62 days or more recalled about 38 million 
vehicles, combined.
    Generally, manufacturers who recall more vehicles take longer to 
launch their remedy programs. In addition, variables such as the number 
of recalls, size of those recalls, complexity of the remedy 
development, and availability of parts play a factor.

    Question 10. The FAST Act requires a study, in coordination with 
manufacturers and dealers, on the feasibility of searching multiple 
vehicle identification numbers at a time, often called VIN 
``batching.'' What is the progress of this study?
    Answer. NHTSA has not yet developed a time table for completing 
this study. The Agency continues to gather information and discuss the 
requirement with stakeholders. NHTSA is assessing options that exist in 
the commercial arena and that do not involve the Agency's data systems 
or resources for collecting and managing this data. The Agency's VIN 
lookup tool is intended to assist the individual consumer, and 
attempting to accommodate demands in that system may compromise its 
effectiveness for consumers. The information that the Agency has 
gathered to date suggests that tools exist in the private sector that 
may support private sector VIN batching.

    Question 10a. Has NHTSA reviewed any of the VIN batching systems 
being developed by industry? If so, will NHTSA play a role in the 
development or deployment of those systems?
    Answer. NHTSA has reviewed some of the VIN batching systems 
developed by industry. The Agency has not yet determined what role, if 
any, the Agency will play in the deployment of those systems.

    Question 11. The FAST Act includes provisions to: create new tire 
performance standards for fuel efficiency and wet traction; require 
tire sellers to register tires at point of sale; and require NHTSA to 
create a tire recall search tool to be located on the agency's website. 
The Committee strongly supports these provisions and looks forward to 
their prompt implementation.
    The tire performance standards have a statutory deadline of 24 
months for a final rule, while the tire registration and tire recall 
search tool provisions do not have statutory deadlines. Nevertheless, 
the tire recall search tool does not require a rulemaking procedure.
    In the next 6 months, what progress does the Department anticipate 
toward implementing the tire performance standards for fuel efficiency 
and wet traction?
    Answer. The FAST Act requires NHTSA to promulgate regulations for 
tire rolling resistance and wet traction minimum performance standards 
by December 4, 2017. NHTSA has already begun the research necessary to 
guide the development of requirements pertaining to wet traction 
performance. NHTSA is reviewing tire fuel efficiency data collected 
previously, and is coordinating with stakeholders to see if additional 
data is available. NHTSA anticipates the completion of testing by the 
beginning of 2017 and intends to use this data for the proposed 
regulation.

    Question 11a. In the next 6 months, what progress does the 
Department anticipate toward implementing the requirement for tire 
sellers to register tires at point of sale?
    Answer. The FAST Act requires NHTSA to initiate a rulemaking for 
mandatory tire registration by independent sellers. There is no 
statutory deadline for completing this rulemaking, and the Agency has 
not yet developed a time table for completing this rulemaking. NHTSA is 
gathering information and meeting with stakeholders to discuss this 
requirement. The electronic identification study required by section 
24334 of the FAST Act will aid in creating a more beneficial tire 
registration and recordkeeping requirement for tire sellers at the 
point of sale. NHTSA anticipates beginning that study later this year.

    Question 11b. When does the Department anticipate launching the 
web-based tire recall search tool? What can you share about its 
development progress?
    Answer. The FAST Act requires NHTSA to establish a publicly 
available and searchable electronic tire recall database. The statute 
does not require this provision to be implemented through a rulemaking 
and there is no statutory deadline. NHTSA has not yet developed a 
timetable for completing this provision. The Agency is gathering 
information and discussing the requirement with stakeholders.

    Question 12. NHTSA has not completed a rulemaking required under 
the 2007 Energy Independence and Security Act (EISA) that mandated 
consumer information about tire fuel efficiency, wet traction and tread 
wear. The White House announced in December 2014 that NHTSA would 
finalize that rule by 2017. Completion of this rulemaking will help 
facilitate progress on the FAST Act's provisions regarding tire fuel 
efficiency and wet traction.
    According to NHTSA's most recent schedule, a proposed rule was 
provided to the Secretary's office in October 2015. The timetable to 
move this regulation to OMB continues to slip each month. What 
obstacles are preventing this proposal from progressing through the 
rulemaking process? What accounts for this unacceptable delay? What is 
the agency's revised timetable for completing this rulemaking?
    Answer. NHTSA published a final rule in 2010 establishing test 
methods that would be used for the new consumer information program. 
However, the 2010 final rule did not specify the content or 
requirements of the consumer information and education portions because 
NHTSA needed to conduct additional consumer testing and resolve 
important issues raised by the public comments on the proposal. The 
Agency is drafting a Supplemental Notice of Proposed Rulemaking and 
expects to issue a final rule in 2017.

    Question 13. The Mid-Term Evaluation of MY 2022-2025 Greenhouse Gas 
and Corporate Average Fuel Economy Program standards that was jointly 
published in 2012 is an important assessment. What is the timeline for 
completing the Mid-Term Evaluation?
    Answer. Given the long time frame covered by standards for Model 
Year (MY) 2022-2025 light-duty vehicles and NHTSA's statutory 
obligation to conduct a de novo rulemaking, the Agencies committed in 
the 2012 final rule to conduct a comprehensive mid-term evaluation for 
the MY 2022-2025 standards. The MY 2017-2025 final rule noted that in 
order to align the Agencies' proceedings for MYs 2022-2025 and to 
maintain a joint national program, EPA and NHTSA will finalize their 
actions related to MY 2022-2025 standards concurrently.
    The first step in the process was the issuance of the Draft 
Technical Assessment Report (TAR) for public comment. The Draft TAR was 
jointly issued by the NHTSA, EPA, and the California Air Resources 
Board (CARB) on July 18, 2016. It is open 60 days for public comment. 
Subsequently, EPA will have to determine, by April 2018, whether the 
standards should stay the same, or increase or decrease in stringency. 
DOT will establish CAFE standards for MYs 2022-2025 which will include 
a proposal and final rule. EPA and NHTSA have committed to coordinate 
so the final actions occur at the same time. The Agencies are still 
considering the timing of the next steps.

    Question 13a. What role does NHTSA play in this process? How are 
DOT and EPA working to ensure the Evaluation is conducted in a 
collaborative and transparent process?
    Answer. NHTSA has sponsored several studies and analysis, including 
those by National Academies of Science and Argonne National Laboratory, 
and will continue to sponsor additional work moving forward. NHTSA also 
uses the CAFE Compliance and Effects Model developed by DOT's Volpe 
National Transportation Systems Center to:

  <bullet> analyze how manufacturers could comply with CAFE standards 
        by adding technology to anticipated future vehicle fleets;

  <bullet> estimate impacts of that additional technology on fuel 
        consumption, greenhouse gas emissions, and economic costs and 
        benefits;

  <bullet> evaluate the sensitivity of these estimated outcomes to key 
        analytical inputs (e.g., fuel prices); and

  <bullet> perform probabilistic uncertainty analysis.

    Both Agencies are conducting coordinated research, analyses, and 
extensive stakeholder outreach to inform NHTSA's rulemaking and EPA's 
midterm evaluation. NHTSA and EPA are consulting with CARB with the 
goal of maintaining a national program. The three Agencies coauthored 
the Draft TAR. In addition to extensive stakeholder outreach and making 
information available in the public docket, the Draft TAR, NHTSA's 
NPRM, and EPA's Proposed Determination provide opportunity for public 
content. The Agencies also have websites that provide information on 
the midterm evaluation and make the Agencies' research and analyses 
available to the public.

    Question 13b. Has the Administration considered taking steps to 
harmonize the regulation of light duty vehicle fuel economy by NHTSA, 
EPA, and the State of California? If not, why not?
    Answer. Yes. While NHTSA, EPA, and CARB programs differ in some 
ways because of their separate statutory authorities, the Agencies have 
sought to harmonize standards so that manufacturers may build a single 
fleet of vehicles that meets all requirements.

    Question 14. NHTSA has committed to taking an aggressive approach 
to accelerating the availability of advanced safety technologies in the 
marketplace. What are the agency procedures for responding to 
manufacturers' petitions for rulemaking and requests for interpretation 
of Federal motor vehicle safety standards to take into account advanced 
safety technologies?
    Answer. NHTSA's procedures for responding to petitions for 
rulemaking from all parties (including manufacturers) are detailed at 
49 CFR Part 552. The Department is currently developing guidance on how 
to petition NHTSA for interpretations, exemptions, and rulemakings 
related to highly automated vehicles. NHTSA anticipates issuing the 
guidance as part of the highly automated vehicles report in the near 
future.

    Question 14a. While I take no position on the following petitions, 
what is the current status of the petitions for rulemaking to permit 
Adaptive Driving Beam headlamps and to allow the use of camera-based 
rear and side vision systems instead of side and rearview mirrors?
    Answer. NHTSA is actively considering both petitions. NHTSA has 
conducted considerable new research on how to develop a test procedure 
for adaptive driving beam headlamps, as no industry standards existed 
at the time of the petition and the petition itself did not contain or 
refer to test procedures. NHTSA intends to respond to that petition by 
the end of this year, 2016. The petitions for camera-based rear and 
side vision systems lacked the technical detail necessary for NHTSA's 
review. The Agency has asked the petitioners a number of clarifying 
questions and is currently awaiting their responses.

    Question 14b. What is NHTSA's time-frame for publishing guidelines 
on the safe deployment and operation of autonomous vehicles? Does NHTSA 
anticipate publishing draft guidance for public comment? If not, why 
not?
    Answer. NHTSA expects to issue the highly automated vehicles report 
in the near future.

    Question 14c. Do you think the deployment of fully autonomous 
vehicles will change the current requirement for a car to have a 
``driver''? How should we resolve this issue and ensure safe operation 
of vehicles on our roads? What role should the Federal Government play 
to ensure access of these technologies to a nationwide market?
    Answer. NHTSA does not have a requirement that a ``car must have a 
(human) driver''--that is a matter of State law. That said, NHTSA 
anticipates issuing a model State policy on highly automated vehicles. 
NHTSA has been coordinating with individual states as well as 
representative bodies such as the American Association of Motor Vehicle 
Administrators (AAMVA) as part of the Agency's recent actions to 
develop a model State policy and operational guidance for highly 
automated vehicles. A primary goal of these actions is to achieve a 
consistent national policy.
    We note that, in drafting the original Vehicle Safety Act in 1966, 
Congress sought to ensure that the standards issued under the Act would 
be uniform and national so that the public as well as industry would be 
guided by a single set of criteria instead of a multiplicity of diverse 
standards. We will also evaluate whether legislation is needed to 
achieve consistent national policy regarding highly automated vehicles.

    Question 14d. In response to an inquiry from Google, NHTSA has said 
that some Federal Motor Vehicle Safety Standards will require 
additional rulemaking in order to allow for Google's self-driving car 
features to be permissibly used on our roads. How is NHTSA working with 
the automakers to reduce regulatory burdens while still ensuring and 
enhancing safety?
    Answer. NHTSA has sought to ensure and enhance safety via its 
regulations while minimizing burden on industry. It is true that 
manufacturers seeking to introduce vehicles with non-conventional 
designs, such as ones without steering controls, brake pedals, or 
internal displays of system functions or malfunctions, would not be 
able to certify the compliance of those vehicles to certain existing 
Federal Motor Vehicle Safety Standards (FMVSS). NHTSA encouraged Google 
and other regulated parties with similar interests to petition the 
Agency for exemption from those provisions using the existing 
procedures under 49 CFR Part 555, or to petition for rulemaking to 
amend the relevant FMVSSs. NHTSA will be issuing guidance in the near 
future to better explain the information that the Agency expects to see 
in such petitions in order to facilitate the Agency's response.

    Question 15. NHTSA has a new plan for the Driver Alcohol Detection 
System for Safety (DADSS) Program, to create alcohol-detection 
technologies that offer the potential to prevent impaired driving. What 
is the rationale for restructuring the DADDS Program and cooperative 
agreement? How will this accelerate development, testing, and 
deployment of the technologies?
    Answer. Over the past 20 years, nearly 250,000 Americans have been 
killed in drunk driving crashes. Successful implementation of the DADSS 
technology has tremendous potential to reduce this carnage. The 
Department appreciates Congress's continued support of the government 
and industry collaborative research activities that have led from 
feasibility to the potential for reality. Given that progress, it is 
time to start a new track of work focused on deployment.
    To begin the shift toward deployment, NHTSA is implementing the 
terms in its existing cooperative agreement that expand the opportunity 
for public input into the program and allowing for additional 
transparency.
    In 2015, the program achieved significant milestones. For example, 
the DADSS demonstration vehicle incorporating new alcohol detection 
technology was displayed publicly for the first time in a press event 
at the DOT Headquarters on June 4, 2015. Public and media response to 
this unveiling, which featured members of Congress and several hundred 
members of Mothers Against Drunk Driving, was very positive. Late in 
2015, partially in response to calls to accelerate deployment, NHTSA 
instructed the DADSS program manager to develop activities focused on 
deployment. These activities include additional test vehicles, consumer 
acceptance testing, human factors, and many others that would ready the 
technology for deployment at the end of the current cooperative 
agreement in 2022.

    Question 15a. How will the new DADSS cooperative agreement and 
Board be structured? Will the role of the existing Automotive Coalition 
for Traffic Safety members change under the agreement? What do you 
expect the role of states to be going forward?
    Answer. NHTSA is working with our current cooperative agreement 
partner, the Automotive Coalition for Traffic Safety (ACTS), on a 
modification to the existing cooperative agreement. The modification is 
necessary to implement an existing provision in the agreement that 
creates a Stakeholders Team to allow for more representation. The 
modification would expand membership of the Stakeholders Team to 
include representation from states and public interest organizations, 
while keeping in place the existing NHTSA and ACTS roles.

    Question 15b. When does NHTSA expect that the breath-based system 
and the touch-based system will be ready for commercial deployment? 
What method, if any, is the DADSS Program using to objectively quantify 
that the technologies are ready for deployment?
    Answer. Under the current program of work, assuming no additional 
funding to accelerate activities, the technology is expected to be 
ready for vehicle integration (commercially feasible) by 2022. The 
DADSS program uses Technology Readiness Level (TRL) and Manufacturing 
Readiness Level (MRL) to objectively quantify readiness for deployment. 
The TRL and MRL measures, originally developed by NASA and the 
Department of Defense and adapted for automotive use, are used to 
assess maturity of new technologies. Technology is ready for deployment 
at TRL=8 MRL=7. Currently the breath-based system is at a TRL=4 and 
MRL=4 and the touch-based system is at a TRL=3 and MRL=3.

    Question 16. On August 18, 2015, NHTSA issued an Advance Notice of 
Proposed Rulemaking on vehicle-to-vehicle (V2V) communications 
technology. What is the status of that rulemaking? What feedback from 
stakeholders have you received thus far?
    Answer. The Department developed and submitted a notice of proposed 
rulemaking (NPRM), a Regulatory Impact Assessment, and a Privacy Impact 
Assessment to the Office of Management and Budget (OMB).

    Question 17. The committee is concerned that the proposed 
Greenhouse Gas Phase 2 regulations may have an unintended effect on 
safety. The addition of extra weight on a truck trailer will inevitably 
displace cargo in some instances to maintain compliance with gross 
vehicle weight limitations. Thus, in order to continue to transport 
even the current level of freight, more trucks and trailers will very 
likely be needed. At the current truck-related accident rate, however, 
more trucks on the road may translate into an increase in accidents, 
including more fatal accidents, and ironically an overall increase in 
greenhouse gases. Pursuing a policy that is likely to lead to more 
accidents and road fatalities is at odds with NHTSA's mandate to reduce 
deaths, injuries and economic losses resulting from motor vehicle 
crashes. What are NHTSA's calculations in this matter, and how does 
NHTSA believe we are going to avoid the possibility of more accidents 
and deaths?
    Answer. The finalized Greenhouse Gas Emissions and Fuel Efficiency 
Standards for Medium-and Heavy-Duty Engines and Vehicles--Phase 2 
regulations predict that vehicles affected by the regulations will 
employ some amount of mass reduction to achieve fuel savings, 
especially in the high volume Heavy-Duty Pickup and Van segments. See 
http://www.nhtsa.gov/fuel-economy for copy of Final Rule. As discussed 
in the Final Rule preamble.

        ``Both the NPRM and the current analysis consider the potential 
        effects on crash safety of the technologies manufacturers may 
        apply to their vehicles to meet each of the regulatory 
        alternatives. NHTSA research has shown that vehicle mass 
        reduction affects overall societal fatalities associated with 
        crashes and, most relevant to this rule, mass reduction in 
        heavier light-and medium-duty vehicles has an overall 
        beneficial effect on societal fatalities. Reducing the mass of 
        a heavier vehicle involved in a crash with another vehicle(s) 
        makes it less likely there will be fatalities among the 
        occupants of the other vehicles.''

    Overall, the potential positive safety implications of weight 
reduction efforts could partially or fully offset safety concerns from 
added weight of aerodynamic devices. In fact, for this reason, we 
believe that the Phase 2 trailer program could produce a net safety 
benefit in the long run due to the potentially greater amount of cargo 
that could be carried on each truck as a result of trailer weight 
reduction.
    In addition, the agency anticipates our continued efforts to 
improve the crash worthiness of the vehicle fleet will work in parallel 
with these standards, providing increased occupant safety in 
conjunction with improve fuel efficiency. The analysis supporting the 
final rule takes into account the total societal benefits of the 
program and projects a net benefit overall.
Motor Carriers and Highway Safety
    Question 18. The FAST Act includes language that allows the State 
of South Dakota to revisit and update the routes on which longer 
combination vehicles can travel within the state. The state plans to 
shift the routes from rural roads to interstates constructed 
specifically to handle these heavier trucks in a safer manner, with 
better infrastructure, including divided highways. I have been working 
for years with the State of South Dakota to ensure that these trucks 
are on the roads most aligned with our freight networks, providing 
direct routes on appropriate roads. Can you provide a progress update 
on the designation of the new routes and the Department's work with the 
state?
    Answer. FHWA is working proactively with the South Dakota DOT (SD 
DOT) to implement this provision, which provides an opportunity for the 
state to update and revise Interstate and National Network routes that 
are subject to the longer combination vehicle (LCV) freeze. Staff from 
FHWA Headquarters, the FHWA South Dakota Division and the SD DOT met on 
May 20, 2016, to ensure mutual understanding of the FAST Act provision 
and to discuss the process for implementation. The SD DOT is reviewing 
the State's LCV routes and developing a proposal for updating and 
revising routes. The SD DOT anticipates completing its review later 
this summer, at which time it will submit its proposal to FHWA. The SD 
DOT is aware of the statutory requirements that any such updates and 
revisions must shift routes to divided highways or not increase 
centerline miles by more than 5 percent and must be expected to 
increase safety performance.

    Question 19. You mentioned in your remarks that you do not expect 
the Compliance, Safety, Accountability (CSA) program scores will be 
reformed and made public for two years. In this timeframe, the Safety 
Fitness Determination (SFD) Rulemaking process will proceed.
    I understand you do not expect the SFD rulemaking to be complete 
prior to the reform of the CSA program. Can you provide a timeline of 
how these two linked programs will be implemented?
    Answer. The National Academies of Sciences (NAS) kicked off its 
review of the CSA program and Safety Measurement System (SMS) on June 
29, 2016. Based on FMCSA's contract with NAS, we expect its final 
report, with any recommendations for changes, in June 2017. The scope 
of the NAS study, as prescribed in the FAST Act, did not include the 
SFD Notice of Proposed Rulemaking.
    The SFD Notice of Proposed Rulemaking was published on January 21, 
2016, and the comment period closed on June 23, 2016. The Agency 
received approximately 170 comments. FMCSA is currently reviewing the 
comments to identify any appropriate revisions to the Agency's 
proposal. This is a significant rulemaking requiring review by the 
Office of Management and Budget. FMCSA does not expect this final rule 
to be published before December 2017.
    As a result, if there are recommendations from the NAS Correlation 
Study that impact the SFD rulemaking, the timing of these two 
initiatives will allow any needed changes to be incorporated into the 
SFD final rule.

    Question 19a. Do you expect the Department to revise the SFD rule 
to take into account the recommendations of the National Academies of 
Science report on CSA?
    Answer. If the National Academies provides recommendations relevant 
to the SFD final rule, FMCSA will consider them when developing the 
final rule.

    Question 20. There are many active and passive driver assist and 
automated vehicle technologies available in the marketplace today that 
provide significant safety benefits for cars and trucks on our Nation's 
highways. The deployment of some of these technologies currently 
requires the Federal Motor Carrier Safety Administration (FMCSA) to 
provide an exemption from outdated regulatory standards and barriers, 
which inhibit the wider deployment of proven safety technologies. 
Short-term exemptions, such as those that allow for the windshield 
display of important safety technology for example, while appropriate, 
drive up costs for both the agency and industry. Accordingly, section 
5301 of the FAST Act directs the Department to provide a permanent 
exemption for the windshield placement of a variety of proven 
technologies.
    This provision required the Department to move forward within 180 
days of enactment, a date that has already passed.
    Where is the Department in implementing this directive and why is 
there a delay on moving forward on such an important, commonsense 
initiative?
    Answer. No current exemptions related to this issue are due to 
expire until late 2017. A final rule implementing section 5301 of the 
FAST Act is expected to be transmitted to the Office of the Federal 
Register for publication soon.

    Question 21. Section 5203 of the Fast Act directs FMCSA to review 
guidance documents to eliminate conflicts and ensure enforcement 
consistency. The legislation further requires FMCSA to incorporate 
guidance into regulations within five years of issuance, where 
practicable.
    Please provide an update on the status of the guidance review, 
including the number of guidance documents eliminated or significantly 
revised.
    Answer. FMCSA is acting on the section 5203 requirement to ``clean 
up'' its regulatory guidance. The Agency has inventoried a total of 633 
regulatory guidance documents while simultaneously, the Motor Carrier 
Safety Advisory Committee (MCSAC) has been tasked to review the 
guidance and make recommendations. The MCSAC met on June 14-15, 2016, 
to review FMCSA guidance and will continue its work through the summer. 
Thus far, of the 633 documents, 215 documents have been reviewed to 
determine whether the guidance is obsolete, needs refinement, or is 
accurate as written. The Agency and MCSAC have completed review of 
guidance related to hours-of-service (49 CFR Part 395) and commercial 
drivers' license (49 CFR Part 383) regulations. FMCSA has drafted 
Federal Register notices to update that guidance. Approximately 60 
documents have been identified as obsolete and will be removed. FMCSA 
expects to continue to integrate its own analysis with the MCSAC 
recommendations. The Agency will issue a series of Federal Register 
notices to rescind, update, or reissue the guidance, as appropriate. 
These notices will provide both transparency and an opportunity for 
public comment on the issues.
    FMCSA expects to complete the initial review of all guidance 
documents before the statutory deadline of December 4, 2016.

    Question 22. Funding for the FASTLANE grant program and the freight 
formula program was authorized by Congress in order to make critical 
improvements to our Nation's freight network. Applications for both the 
FASTLANE grant program and the unauthorized TIGER grant program are 
being reviewed at the same time, and some projects have been submitted 
as both TIGER and FASTLANE applications. Can you please describe how 
the Department is reviewing the applications concurrently, and how 
funding decisions will be made for each individual program?
    Answer. Applications for TIGER and FASTLANE funding are being 
evaluated independently according to the selection criteria unique to 
each program. Funding decisions for the FASTLANE program are being made 
in accordance with the Notice of Funding Opportunity published on March 
2, 2016. Funding decisions for the TIGER program are being made in 
accordance with the Notice of Funding Opportunity published on February 
26, 2016. Because many of the same staff were involved in both the 
review of TIGER and FASTLANE applications, staff members were able to 
coordinate between the two application processes and brief senior 
officials on the applications that were submitted for both 
discretionary programs so that Secretarial investment decisions were 
fully informed. In accordance with the FAST Act, the Department 
provided Congress with a 60 day notification of the proposed FASTLANE 
projects, award amounts and justification on July 5, 2016, and publicly 
announced awards on September 7, 2016. Congressional notification of 
the 2016 TIGER awards was provided on July 26, 2016, and publicly 
announced on July 29, 2016.
    Additionally, the FAST Act directed the Secretary to establish a 
National Surface Transportation and Innovative Finance Bureau, also 
known as the Build America Bureau, to administer the FASTLANE grant 
application process. The newly established Build America Bureau will 
administer the application process for Fiscal Year 2017 and future 
rounds of the FASTLANE discretionary grant program.

    Question 22a. Please describe how projects are being rated and 
ranked for each program, how the decision making process will be 
documented, and how the Department plans to provide feedback to project 
sponsors who do not receive an award.
    Answer. Applications for TIGER funding are being evaluated in 
accordance with the selection criteria and review process described in 
the Notice of Funding Opportunity (NOFO) published on February 26, 
2016. The TIGER NOFO can be found at: https://www.transportation.gov/
tiger/tiger-nofo.
    Applications for FASTLANE funding are being evaluated in accordance 
with the selection criteria and review process described in the NOFO 
published on March 2, 2016. The FASTLANE NOFO can be found at: https://
www.transportation.gov/buildamerica/fastlanegrants/fastlane-nofo. The 
evaluation and selection processes are being documented according to 
each program's evaluation guidelines.
    As has been the practice in the past, the Department is available 
to assist past and prospective applicants to the TIGER and FASTLANE 
program to provide technical assistance with regard to understanding 
the criteria, evaluation, selection, and implementation process for 
future application submissions. For both programs, the Department 
provides debriefs, upon request, to all applicants not selected for 
award to include a summary of the evaluation and constructive technical 
assistance for subsequent rounds of competition.
Federal Railroad Administration
    Question 23. Grade Crossing Safety. The FAST Act contains several 
provisions to increase highway-rail grade crossing safety, including a 
requirement for the Federal Railroad Administration (FRA) to distribute 
model action plans and risk data to states. The FAST Act also increased 
funding for the Section 130 program to reduce risk at grade crossings.
    To what extent does the Department engage stakeholders, including 
railroads and state departments of transportation, to ensure Section 
130 funds are used most effectively?
    Answer. FHWA, in coordination with FRA, provides continuing 
outreach and guidance to ensure Section 130 funds are used effectively. 
This outreach includes presentations and dialogue with stakeholders 
such as railroads and State departments of transportation at 
conferences, workshops, and symposia. For example, in April 2016, the 
FRA Administrator wrote to the leadership of State departments of 
transportation identifying the congressional increase in Section 130 
funding for FY16 and guidance to more effectively apply Federal dollars 
to grade crossings.
    FHWA and FRA staff also present overviews of the Section 130 
program at Grade Crossing Safety Conferences, TRB Committees, and 
meetings with industry groups throughout the country. These 
presentations provide stakeholders with an overview as well as updates 
on the history of Federal grade-crossing legislation; funding amounts 
for Section 130 nationally and by state; project eligibility; the 
project selection and prioritization process; roles of FHWA and FRA 
staff in headquarters and in Division Offices nationwide; reporting 
requirements; upcoming products; and legislative updates that affect 
the program. Recently, FHWA and FRA conducted a joint presentation to 
the American Association of State Highway and Transportation Officials 
(AASHTO) and the Association of American Railroads (AAR), which focused 
on FAST Act implementation of the Section 130 program, discussed 
emerging rail safety issues, and promoted safety countermeasures.
    FHWA also gathers information on States' progress in implementing 
the Section 130 program through annual reports. These reports describe 
the projects states implement to improve safety at railway-highway 
grade crossings, the effectiveness of such improvements, an assessment 
of the costs of the various treatments employed, and subsequent crash 
experience at improved locations. FHWA communicates the effectiveness 
of the program to Congress in a biennial report as required under 
Section 130(g). The report to Congress provides a national summary on 
the progress states are making in implementing projects to improve 
safety at railway-highway crossings and makes recommendations for 
future implementation of the Section 130 program. This report provides 
Congress, FHWA, and FRA with valuable insight into the effectiveness of 
the program. The Department will continue to work with stakeholders and 
partners to improve the safety of our Nation's railway-highway grade 
crossings through the Section 130 Program.

    Question 23a. Is the Department aware of any inconsistencies across 
states in their interpretation of Section 130 program eligibilities, 
and, if so, what steps has the Department taken to address those 
inconsistencies?
    Answer. Over the life of the Section 130 program, many states have 
improved crossings with the highest risk and most significant crash 
history. However, there are still high-profile crashes that highlight 
the safety risks at many crossings. States are challenged to find 
innovative methods for prioritizing projects to maximize the safety 
benefits of the Section 130 Program and further reduce crashes and 
fatalities at crossings.
    While FHWA provides eligibility guidance to ensure statutory and 
regulatory compliance, there is no one-size-fits-all risk formula that 
states use for project identification. To promote best practices among 
states, FHWA and FRA developed the ``Highway-Rail Action Plan and 
Project Prioritization Noteworthy Practices Guide.'' This guide shows 
states and their partners how to develop their own State-specific grade 
crossing action plans, and how to identify best practices in how states 
tailor risk formulas to State needs, incorporate benefit-cost 
evaluations in project selection, supplement Federal Section 130 
funding with State dollars, invest planning dollars (2 percent 
allowance) in inventory improvements, and apply innovative improvements 
to project execution. FRA also has two key, web-based application and 
decision support tools, WBAPS and GradeDec, which provide users with an 
analytical tool that can assist in determining where highway-rail grade 
crossing risk mitigation resources can best be directed, including the 
identification and evaluation of strategies such as highway-rail grade 
crossing upgrades, separations and closures.
    FHWA and FRA are continuing their collaborative approach to rail 
grade crossing safety and are jointly working on updating the Rail 
Crossing Safety Handbook. The handbook provides a single reference 
document on prevalent and best practices as well as adopted standards 
relative to highway-rail grade crossings. The handbook provides general 
information on highway-rail crossings; characteristics of the crossing 
environment and users; and the physical and operational improvements 
that can be made at highway-rail grade crossings to enhance the safety 
and operation of both highway and rail traffic over grade crossings. 
The guidelines and alternative improvements presented in this handbook 
are primarily those that have proven effective and are accepted 
nationwide.

    Question 24. Railroad Rehabilitation & Improvement Financing 
(RRIF). The FAST Act reformed the RRIF program to increase efficiency, 
flexibility, and transparency, and institute certain taxpayer 
protections. When does the Department plan to publish its first 
dashboard, or monthly report on RRIF applications, required by the FAST 
Act?
    Answer. With the establishment of the Build America Bureau, which 
is the Department's name for the National Surface Transportation and 
Innovative Finance Bureau, we are working to harmonize the processes 
for RRIF, TIFIA, and PABs. This includes harmonization of the public 
dashboard approach for all credit programs within the Build America 
Bureau, including the existing procedures for TIFIA and the approach 
for RRIF, as outlined in the FAST Act. We are working towards 
implementing a harmonized dashboard approach for the credit programs in 
Fall 2016.

    Question 24a. Considering the directive in the Joint Explanatory 
Statement of FAST Act, the goal of minimizing the length of time the 
Government retains possession of credit risk premiums, and the shared 
objective to facilitate increased infrastructure investment, what steps 
is the Department taking to repay certain credit risk premiums of 
repaid loans?
    Answer. We appreciate the direction from the Joint Explanatory 
Statement. As everyone is aware, this issue is complicated with a long 
history. The Department is actively engaged in reviewing the process 
regarding the repayment provision.

    Question 25. Positive Train Control (PTC). The FAST Act allocates 
$199 million in dedicated funding for recipients of funds under chapter 
53 of title 49, including states and commuter railroads. If a state 
receives a PTC grant from this pool of funds, does the Department view 
it as allowable for the state to use this grant to financially assist a 
short line railroad with PTC installation?
    Answer. The Department believes that a state would not be allowed 
to use a PTC grant authorized by section 3028 of the FAST Act to 
financially assist any short line railroad that solely supports freight 
rail transportation. The $199 million in dedicated funding for 
recipients of funds under chapter 53 of title 49, United States Code 
(U.S.C.), including state and commuter railroads, is available for 
installation of PTC systems that are required under 49 U.S.C. 
Sec. 20157 and that support passenger rail transportation.

    Question 26. Train Crew Staffing. In addition to the rules required 
by the FAST Act, FRA allocates staff resources to issue discretionary 
rules, including the recent proposed rule entitled ``Train Crew 
Staffing.'' In this proposed rule, FRA stated it ``does not currently 
collect sufficient data related to the size of a train crew nor do 
accident reports and investigations generally address the size of a 
crew in order for FRA or any entity to definitively compare one-person 
operations to multiple person operations.''
    In investigating the derailment of Amtrak #188, the National 
Transportation Safety Board (NTSB) stated that ``relying on a single 
person to make correct decisions can result in a single point failure. 
This single-point failure will be substantially addressed by full PTC 
implementation since that system will provide an independent automated 
means of compliance with speed and signal restrictions in case of human 
error. In areas where PTC is not implemented, other ways of addressing 
this single point failure may be necessary. It is unclear if a two-
person crew would satisfactorily address this issue because there is 
insufficient data to demonstrate that accidents are avoided by having a 
second qualified person in the cab.'' As such, the NTSB recommended 
that FRA first collect data on additional crew size and accident 
circumstances and then use that data to evaluate the safety adequacy of 
current crew size regulations.
    What steps, if any, is the Department taking to increase the 
sufficiency of its data related to crew size in order to compare one-
person operations to multiple person operations? To what extent does 
the Department plan to gather and analyze data from international and 
domestic one-person operations?
    Answer. FRA is contemplating an update to the existing accident 
reporting forms to capture various pieces of information related to 
train operations that have become more important over the last several 
years. This may include crew staffing levels, PTC information, 
flammable liquid information, and various other changes to the 
reporting forms. However, this effort is likely to take some years to 
yield actionable data. FRA has not yet determined if it will gather and 
analyze additional data regarding international one-person operations.

    Question 26a. Consistent with the NTSB recommendation, does the 
Department plan not to publish a final rule on train crew staffing 
until, at a minimum, FRA revises its applicable data collections, 
obtains sufficient data on train crew size risk, and uses that data in 
an updated analysis that justifies such a rule?
    Answer. As was stressed in the notice of proposed rulemaking (NPRM) 
issued in March 2016, FRA does not believe that additional data from 
existing one-person operations would prove useful to the completion of 
the rulemaking. The NPRM proposes to permit the continued operation of 
virtually all existing one-person operations in the United States. FRA 
proposes a process to review all new operations, and the NPRM suggested 
FRA would likely favorably view those new operations similar to 
existing safe operations if a railroad did not otherwise have a poor 
safety history. However, any data related to those existing operations 
would not be relevant to new operations that are significantly 
different from any existing operation. The purpose of the proposal is 
to ensure that a railroad considers and addresses the potential safety 
implications of using fewer than two crewmembers on certain operations, 
especially those hauling certain types and quantities of hazardous 
materials. The NPRM proposed a requirement that a railroad seeking 
special approval of an operation with less than two train crewmembers 
submit ``appropriate data or analysis, or both, for FRA to consider in 
determining whether the train operation proposed will provide at least 
an appropriate level of safety to a train operation with two 
crewmembers.'' See, proposed 49 CFR Part 218.135(b)(11) at 81 Fed. Reg. 
13966. In the NPRM's section-by-section analysis, FRA explained that an 
FRA decision ``would need to contain the facts and rationale relied 
upon . . . [because] any final agency decision is an action that is 
potentially reviewable in Federal court and would need to contain 
sufficient information to survive legal scrutiny.'' 81 Fed. Reg. 13953. 
FRA conducted a public hearing on the proposal on July 15, 2016, and 
the comment period closed on August 15, 2016. FRA will consider all 
public comments when developing a final rule in the matter.

    Question 26b. Does the Department agree with the NTSB's assessment 
that PTC will substantially address the risk posed by single-point 
failures caused by a single person failing to make correct decisions?
    Answer. The Department agrees that PTC will provide a number of 
safety benefits and address a number of potential single-point failures 
that exist in many train operations. However, the full implementation 
of PTC systems is several years away, and even when fully deployed as 
required by Federal statute, PTC systems will be utilized only on less 
than half of the Nation's rail system. In addition, PTC will not 
address all of the potential safety hazards that may arise when using 
fewer than two crewmembers on a train, nor will PTC provide the safety 
benefits associated with a second crew member, including: handling en 
route equipment failures and setting out defective equipment, 
separating or backing up trains to alleviate blocked crossings, and 
providing assistance to other crew members and the public in 
emergencies.

    Question 26c. Given the Department's support for the development of 
autonomous vehicle technology to reduce or eliminate road accidents 
caused by human error, what is FRA doing to similarly encourage the 
advancement and deployment of technologies to enable autonomous 
operation of trains?
    Answer. Through its research and development program activities, 
FRA continually seeks to identify and explore technological innovations 
and solutions to enhance the safety, reliability, and efficiency of 
train operations. For example, FRA has supported the development and 
use of remote control operations in and around train yards.
Pipeline and Hazardous Materials Safety Administration (PHMSA)
    Question 27. Electronically-Controlled Pneumatic (ECP) Brakes. With 
respect to ECP brakes, the FAST Act required an independent evaluation 
by the Government Accountability Office (GAO) and a real-world testing 
framework through the National Academies. I understand the Department 
has been working with the National Academies to establish an 
independent panel to oversee the testing.
    To what extent will the National Academies' independent panel 
oversee and have the opportunity to shape the real-world testing 
framework, including both topline and detailed testing plans, before 
any testing is conducted?
    Answer. It is anticipated that the independent panel of the 
Transportation Research Board (TRB) of the National Academy of Sciences 
(NAS) will hold its first meeting in October of 2016. While the TRB 
panel is being selected, DOT will develop high-level specifications for 
testing and analysis to address the FAST Act requirements. Detailed 
test plans will be developed by DOT's contractors and made available to 
the independent TRB panel. The independent TRB panel will then have the 
opportunity to review DOT's testing and analysis framework as well as 
the detailed test plans and will make recommendations on any changes or 
additional tests the panel believes are necessary.

    Question 27a. What is the status of the Department's contract with 
the National Academies for its services?
    Answer. FRA entered into a contract with TRB on May 27, 2016. TRB 
is currently in the process of forming the independent technical panel, 
which requires checks to ensure independence and avoid any conflicts of 
interest. Once the independent TRB panel is selected, the panel member 
names will be posted for public comment. The first meeting of the 
independent panel is anticipated to take place in October of 2016.

    Question 27b. In addition to funding the real-world testing, what 
role do you expect the Department to have with respect to the design 
and execution of the testing?
    Answer. While the TRB panel is being selected, DOT will develop 
high-level specifications for testing and analysis to address the FAST 
Act requirements. Detailed test plans will be developed by DOT's 
contractors and made available to the independent TRB panel.

    Question 27c. Does the Department plan to consider or use the 
independent testing and evaluation results prior to taking any further 
action concerning ECP brakes?
    Answer. As required by the FAST Act, the updated Regulatory Impact 
Analysis (RIA) will incorporate the results of the independent 
evaluation conducted by the Government Accountability Office (GAO), the 
testing overseen by the independent TRB panel, and public comments. DOT 
will then use the updated RIA to inform the Secretary's decision on 
whether the ECP brake requirement is justified. In the event that 
independent, third parties present additional results, DOT also will 
take them into consideration before taking further action.

    Question 28. Real-Time Emergency Response Information. The FAST Act 
required the Department, in consultation with other agencies, to issue 
regulations to require Class I railroads to provide to fusion centers 
accurate, real-time, and electronic train consist information for 
certain trains. The FAST Act also codified requirements for each Class 
I railroad to provide certain train consist information to state 
emergency response commissions consistent with the requirements of 
Emergency Order Docket No. DOT-OST-2014-0067.
    Understanding the rulemaking for real-time information is under 
development, what security and confidentiality protections does the 
Department plan to establish to prevent the release of information, 
including proprietary or security-sensitive information, to 
unauthorized persons?
    Answer. The flow of information from railroads to State, local, or 
tribal governments (and thus the protection of information) is being 
addressed in two distinct rulemakings. In the first action, a Notice of 
Proposed Rulemaking (NPRM) titled ``Oil Spill Response Plans and 
Information Sharing for High-Hazard Flammable Trains'', PHMSA addressed 
provisions contained in Sections 7302(a)(3), (4), and (6) of the FAST 
Act. In this rulemaking, PHMSA proposes to codify the Emergency Order's 
State Emergency Response Commission (SERC) notification provisions for 
all high-hazard flammable trains (HHFTs).
    In the second action, PHMSA is developing an NPRM to address 
provisions contained in section 7302 of the FAST Act that require Class 
I railroads to provide fusion centers with accurate, real-time, and 
electronic train consist information for trains transporting hazardous 
materials. Specifically, the NPRM will address sections 7302(a)(1), 
(2), (5), (6), and (7) of the FAST Act. This NPRM is currently under 
development, and PHMSA is evaluating all reasonable options to 
implement these FAST Act provisions.
    The Oil Spill Response Plans and Information Sharing for High-
Hazard Flammable Trains NPRM proposes requiring that ``[i]f the 
disclosure includes information that railroads believe is security 
sensitive or proprietary and exempt from public disclosure, the 
railroads should indicate that in the notification.'' This requirement 
that business confidential information be marked appropriately will 
help prevent against inadvertent public disclosure. Specifically, 
states will know which information is considered by the railroads to be 
inappropriate for public release. Thus, states can incorporate this 
information into their processes for determining which information to 
release to the public.
    Both after the initial issuance of the Emergency Order and as part 
of the Oil Spill Response Plans and Information Sharing for High-Hazard 
Flammable Trains NPRM development, DOT analyzed the Emergency Order and 
determined that the information shared by railroads does not qualify 
for withholding under Federal standards on business confidential or 
sensitive security information (SSI).
    After issuing the Emergency Order, FRA found that State laws 
control and may therefore limit the disclosure and dissemination of 
this information in FRA's Information Disclosure Notice (79 Fed. Reg. 
59891 (Oct. 3, 2014)). The NPRM proposes to require railroads to 
report, on a weekly basis, aggregated information that includes the 
volumes of crude oil and other HHFTs that travel through a 
jurisdiction. This information does not include customer information, 
other identifiable business details, or specifics about the timing of 
HHFT trains.
    The NPRM solicits comments on this topic, as well as on the means 
by which PHMSA can fulfill the FAST Act's direction to establish 
security and confidentiality protections where this information is not 
subject to Federal standards. The NPRM is available at https://
federalregister.gov/a/2016-16938.

    Question 28a. To what extent has the Department established any 
security or confidentiality protections for the information provided 
under the requirements in Emergency Order Docket No. DOT-OST-2014-0067?
    Answer. In an October 2014 Information Disclosure Notice, the 
Department analyzed the Emergency Order, and determined that the 
information shared by railroads does not qualify for withholding under 
Federal standards for business confidential information or Sensitive 
Security Information. See 79 Fed. Reg. 59891 (October 3, 2014), 
available at: https://federalregister.gov/a/2014-23511. The Department 
noted that, for each State, public disclosure laws control the 
disclosure and dissemination of this information. The Department has 
not established additional disclosure limitations on the Emergency 
Order information.
    As discussed in the response to the previous question, the 
Department addressed security and confidentiality protections in the 
Oil Spill Response Plans and Information Sharing for High Hazard 
Flammable Trains NPRM.

    Question 28b. To what extent has the Department evaluated whether 
the information that has been provided to state emergency response 
commissions under the Emergency Order has resulted in increased 
preparedness or enhanced local decision-making?
    Answer. In January 2015, PHMSA participated in conference calls 
with representatives of the 48 states in the lower continental United 
States and the District of Columbia that addressed emergency response 
to crude-by-rail incidents. Hosted by the Environmental Protection 
Agency and attended by other Federal partners, these discussions 
clarified how states prepare and respond to incidents involving crude-
by-rail and identified their unique needs. Twenty-two of 49 states 
reported that rail carriers provided information pursuant to the Order 
that was helpful in understanding the threat to their state. Thirty of 
49 states provide oil train routing information to local communities, 
but variations exist in the amount of information provided, with some 
states sharing all routing information and others heavily redacting 
carrier-submitted data.
    To further evaluate the effectiveness of the information and how it 
should be shared within the State and local response communities, PHMSA 
recently released the NPRM titled ``Oil Spill Response Plans and 
Information Sharing for High-Hazard Flammable Trains'' (HM-251B). This 
NPRM proposes to codify the Emergency Order to meet the requirement set 
forth in the FAST Act. This NPRM will provide an additional avenue for 
PHMSA to capture feedback from the response community along with other 
interested stakeholders. PHMSA anticipates receiving comments from 
SERCs, Tribal Emergency Response Commissions (TERCs), and related local 
emergency planning decision-makers during the NPRM's open comment 
period.
    Further, PHMSA continues to engage with SERCs, TERCs, and others in 
order to improve hazardous materials emergency preparedness and 
response. Overall, states participating in the conference calls 
requested additional in-state training options for first-responders. To 
address this input, DOT developed the Transportation Rail Incident 
Preparedness and Response (TRIPR) information modules to offer a 
flexible approach to train first responders and emergency personnel on 
best practices for pre-incident planning and response to rail incidents 
involving flammable liquids such as petroleum crude oil and ethanol. 
Since October 6, 2015, more than 3,200 users have used the TRIPR 
website (http://dothazmat.vividlms.com/tools.asp). More are receiving 
direct training through focused activities by PHMSA and other Federal 
agencies.

    Question 29. Crude Oil Characteristics. The FAST Act requires a 
report following the completion of the comprehensive Crude Oil 
Characteristics Research, Sampling, Analysis, and Experiment Plan study 
at Sandia National Laboratories. The FAST Act requires the report to 
contain any recommendations for regulatory or legislative changes to 
improve the safe transport of crude oil.
    To what extent does the Department, or any of its interagency 
partners, plan any regulations or other administrative actions 
concerning crude oil characteristics, including a potential vapor 
pressure limitation or other similar type of standard, prior to the 
results of the study and submission of the report?
    Answer. In order to address the increase in the domestic production 
of crude oil, since September 2012, DOT has taken over 30 actions to 
prevent and mitigate the damage from crude-by-rail accidents. These 
actions come in the form of rulemakings, Emergency Orders, research, 
training and grant programs. More information about these actions is 
available online at: http://www.phmsa.dot.gov/hazmat/safe-
transportation-of-energy-products.
    One of these actions was a joint study with the Department of 
Energy (DOE), which will help develop an understanding of scientific 
questions associated with the production, treatment, and transportation 
of crude oil, including Bakken crude oil. The Department will use the 
results of this study to inform our decisions on future public 
policies. Upon completion of the study, as mandated by the FAST Act, 
PHMSA will submit a report to Congress that will include the results of 
the Crude Oil Characteristics Research Sampling, Analysis, and 
Experiment Plan. The Department is actively monitoring the progress of 
the study to avoid delays.
    The Department has consistently shown a willingness to take action 
and will consider all options as we learn more and move forward.

    Question 29a. What research has the Department conducted to 
investigate the effects of certain crude oil characteristics on the 
consequences of specific derailments?
    Answer. PHMSA has not investigated the effects of certain crude oil 
characteristics on the consequences of specific derailments. However, 
PHMSA investigators collect crude oil samples from derailments to gain 
a better understanding of crude oil characteristics, and determine 
compliance with hazardous materials regulations. PHMSA is in the 
process of sharing our data with DOE for the joint DOT-DOE study. This 
study is a multi-phase effort to develop a more comprehensive 
understanding of the properties of crude oil and to address its risks 
in transportation. The results of this study will help inform future 
actions by the Department to improve the safe transportation of crude 
oil and will comply with the requirements of the FAST Act.

    Question 29b. Within the analysis for the high-hazard flammable 
train final rule, to what extent did the Department incorporate any 
differences in the characteristics of crude oil and ethanol--including 
differences in vapor pressure, flashpoint, and boiling points--into its 
assessment of the relative risks of each commodity? How did the 
potential safety benefits of the rule differ by commodity, given these 
differences?
    Answer. Since crude and ethanol are the main commodities shipped as 
HHFTs, these commodities were the focus of the regulatory impact 
analysis (RIA) for the ``Enhanced Tank Car Standards and Operational 
Controls for High-Hazard Flammable Trains'' final rulemaking. The RIA 
focuses on economic factors (benefit-cost analysis findings) and did 
not directly consider chemical and technical characteristics, such as 
vapor pressure, flashpoint, and boiling points.
    PHMSA evaluated crude and ethanol benefits separately in the RIA 
for certain provisions. When considering the combined economic impacts 
of the final rule, PHMSA analyzed fleet size/composition, train 
lengths, travel distances, volumes transported, production projections, 
and other market characteristics that vary between crude oil and 
ethanol rail transport. In addition, the benefits for the provisions in 
the HHFT final rule were derived using a cost per gallon figure that 
was developed based on reported damages associated with crude oil and 
ethanol rail incidents. This cost per gallon estimate represents the 
average consequences per gallon for crude oil and ethanol rail 
incidents in the U.S. safety record and is presented as a single figure 
for calculation of the benefits. That is, the RIA considered the 
typical damages for ethanol and crude oil rail incidents separately, 
but used a weighted average to derive an overall cost per gallon 
estimate to calculate the expected benefits of the final rule. 
Therefore, while the RIA did not explicitly differentiate 
characteristics of crude oil and ethanol, it did consider appropriate 
economic factors that vary between these commodities.

    Question 30. Special Permits and Approvals. The FAST Act reformed 
the special permits and approvals process to improve accountability, 
increase transparency, and add predictability for the regulated public. 
Among other things, the FAST Act amended the processing deadline from 
180 to 120 days, yet the latest publically available data appear to 
show PHMSA has over 100 approvals and permits that exceed the deadline. 
Would you provide a list of each application that exceeds the deadline 
and provide more information on the circumstances or actions causing 
the backlog?
    Answer. As of June 27, 2016, the number of Approvals and Permits 
greater than 120 days is as follows:

Special Permits:                                                  52
Approvals:                                                        73
 

    PHMSA has been working diligently to reduce the number of 
applications for approvals and special permits whose processing times 
exceed 120 days. In the past, the reporting requirements only pertained 
to special permits and not to approvals. In addition, the timeline 
which required reporting was 180 days and not 120 days. During any year 
it is estimated that PHMSA processes approximately 2,500 applications 
for special permits and 25,000 applications for the various types of 
approvals. When the number of applications that exceed the 120 day 
timeline is compared to the overall volume of applications received, it 
can be seen that the number of applications that exceed the timeline 
are only a fraction of the applications received. It is unusual for an 
application to reach that mark.
    If an application exceeds the 120 day timeline it is generally due 
to one of the following extenuating circumstances:

  <bullet> The application is precedent setting and requires an 
        increased level of technical review;

  <bullet> The application is technically complex (such as a new 
        composite cylinder design) and requires technical review of 
        many documents such as design drawings, technical 
        specifications, and test reports;

  <bullet> The application requires an extended fitness review by PHMSA 
        or a modal administration and may require an onsite inspection 
        of the applicant;

  <bullet> During review of the application if it is determined that 
        additional information is needed, the time to gather and submit 
        the additional information can lead to an extended review time; 
        and

  <bullet> During some periods of time, other priorities such as 
        ensuring the safe transportation of crude oil by rail reduce 
        the number of available engineers, chemists, and scientists who 
        are responsible for the technical evaluation of approvals and 
        permits.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Hon. Anthony R. Foxx
    Question 1. Congress used the Fast Act to make significant changes 
to the TIFIA program to streamline the application process and make 
TIFIA more accessible for small towns to pursue local transportation 
projects such as trail systems for pedestrians and bicyclists. What is 
USDOT doing to revise TIFIA procedures to make it easier for local 
governments to apply for TIFIA loans?
    Answer. The FAST Act contained a number of new provisions to help 
rural and small projects access TIFIA credit assistance, including 
allowing the Department to cover its fees for small projects, allowing 
the Department to lend to rural projects at a dramatically reduced 
interest rate, allowing the Department to lend directly to State 
Infrastructure Banks (SIBs) to capitalize rural project funds, and 
allowing smaller projects to access the TIFIA program by lowering the 
overall minimum project cost to $10 million. Immediately upon passage 
of the FAST Act, the Department rolled out TIFIA's new lending 
authority in a Notice of Funding Availability (NOFA). This NOFA 
announced new eligibility criteria and programmatic changes that 
facilitate lending to small and rural projects. The Department has also 
worked to implement new provisions authorized by Congress, like the 
streamlined application process and the new loan program to capitalize 
SIBs, developing a framework for each of these new processes and 
products. To ensure that new project sponsors are aware of TIFIA's new 
lending authority, the Department has held a series of outreach 
sessions and webinars focusing on non-traditional sponsors that cover 
the streamlined process, new provisions for small and rural projects, 
and TIFIA's ability to capitalize SIBs. To make TIFIA more accessible 
to rural and small projects, the Department has developed a streamlined 
application process and a process for lending to State Infrastructure 
Banks as well as fully implemented new changes to TIFIA, like reducing 
the minimum eligible project cost. The Build America Bureau is the 
Department's name for the National Surface Transportation and 
Innovative Finance Bureau. Through the new Build America Bureau 
outreach and credit teams, the Department will continue to disseminate 
information about the TIFIA program and its new lending authority to 
ensure that all eligible projects interested in TIFIA can access the 
program.

    Question 2. As I mentioned during the hearing, this year two 
children already have died because of vehicular heatstroke in 
Mississippi, and the national total is fifteen children just in the 
last six months. The seasonal public awareness campaigns are simply not 
adequate to completely stop these fatalities. I am aware that there is 
in-vehicle technology available that could eliminate this tragic 
problem, such as radio-based technology or on-board diagnostics (OBD II 
Standard) that can sense when small occupants are in a vehicle. Would 
you please provide a status report on where NHTSA is with the study 
required in the FAST Act (Sec. 24114) and include your plans to 
initiate a rulemaking to start the process of getting lifesaving 
technology into new cars?
    Answer. NHTSA completed the research and issued the study on July 
31, 2015 (http://www.nhtsa.gov/About+NHTSA/Press+Releases/2015/nhtsa-
kids-in-hot-cars-07312015) under a preexisting provision under MAP-21. 
To date, technology has not been proven effective enough to support a 
rulemaking. The Agency does not expect to initiate rulemaking at this 
time. However, NHTSA's study provided a foundation of test procedures 
that innovators and companies could use to test and evaluate products. 
As products come to the market, NHTSA will continue to monitor 
technology development, test new technology as they are developed, and 
determine whether the test procedures need updating to account for new 
products.
    The Agency is mindful that a technology-based solution only 
addresses about half the unattended children problem. Hence NHTSA has 
conducted public outreach with other partners over the last several 
years, including the ``Where's Baby?'' campaign, to alert and improve 
the public's understanding of the issue.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                          Hon. Anthony R. Foxx
    Question 1. Secretary Foxx, during your time at the agency, NHTSA 
has taken steps toward implementing many of the requirements that 
Congress prescribed in MAP-21. One is a MAP-21 requirement requiring 
Original Equipment Manufacturers (OEM) to index all technical service 
bulletins (TSBs) for the benefit of consumers. Can you explain the 
authority the agency relied upon when it published the complete TSBs on 
the agency's website when many of these are copyrighted documents 
available by the OEMs through various channels?
    Answer. Section 31303 of MAP-21 affirmatively requires NHTSA to 
``make available on a publicly accessible Internet website'' copies of 
all communications to manufacturers' dealers, rental companies, owners, 
and purchasers about a defect or noncompliance that manufacturers 
submit to the Agency. (49 U.S.C. Sec. 30166(f))

    Question 1a. Are there alternatives the agency could instead use to 
strike a balance between copyright concerns while fully realizing the 
access goal that motivated the provision in MAP-21?
    Answer. Pursuant to the fair use limitation on copyright, NHTSA has 
historically posted on its website copies of service bulletins for 
recall repairs and service bulletins related to its defect 
investigations. NHTSA also has made a paper copy of other service 
bulletins available to the public pursuant to the library provision of 
copyright law. Prior to MAP-21, the Agency determined that copyright 
law prevented it from publicly posting copies of certain 
communications. However, the explicit and direct language of MAP-21 has 
made clear that the Agency must now post copies of TSBs and other 
manufacturer communications to its website.

    Question 2. Secretary Foxx, as you know, we worked to include 
language in the FAST Act, to create a working group that would 
investigate how to speed up permitting of over length trucks carrying 
utility infrastructure equipment following an emergency such as a 
tornado, hurricane or other disaster. That working group was to have 
been established, and a report is supposed to be presented to Congress 
by the end of the year. The report is to include details on how we can 
go beyond the antiquated process of having each state government issue 
permits for these trucks carrying critical materials which will speed 
up the process of restoring, for example, electric and communication 
services. To date, that working group has not been set up, despite 
outreach attempts by Congress and industry stakeholders. Can you 
provide me with an update on timing?
    Answer. Section 5502 of the FAST Act requires the Department to 
establish this working group not later than December 4, 2017. Given the 
importance of this provision, FHWA moved quickly to create the 
Emergency Route Working Group (ERWG), and I am pleased to inform you 
that I approved the charter to establish the group as a Federal 
advisory committee on July 25, 2016. Because the nature of the advice 
and recommendations has the potential to impact programs and policies 
of the Federal Government, a Federal advisory committee was warranted. 
Additionally, establishing the group through the Federal Advisory 
Committee Act will ensure Congress and the public remain informed of 
the purpose, membership, and activities of this outside group.
    In the coming weeks, I expect FHWA will announce the working group 
and solicit nominations for members. I can assure you that we will work 
to ensure the advisory committee includes representation from the 
groups named in the FAST Act, including State highway transportation 
departments and agencies; relevant modal agencies within DOT; emergency 
response or recovery experts; relevant safety groups; and entities 
affected by special permit restrictions during emergency response and 
recovery efforts (e.g., gas and electric utility organizations).

    Question 3. In 2011 the administration finalized what is now 
sometimes referred to as ``One National Program'' to regulate light 
duty vehicle fuel economy for the 2017-2025 model years. It consists of 
three separate sets of regulations, including EPA's program under the 
Clean Air Act and NHTSA's program under CAFE. The harmonization 
intended was to provide greater consistency and certainty for auto 
makers as they develop their products for sale in the various parts of 
the country. But the two Federal programs are different, and those 
differences are likely to result in automakers being subject to fines 
under the NHTSA program even though they comply with the more stringent 
EPA program. There is provision for manufacturers to earn and use 
credits for exceeding the requirements in some years to help with 
compliance in other years. Do both the EPA and NHTSA use the credit 
program?
    Answer. Yes. The NHTSA credit program is dictated by the Energy 
Policy and Conservation Act of 1975 (EPCA) and the Energy Independence 
and Security Act of 2007 (EISA). EPA established its credit program by 
regulation.

    Question 3a. How long do the EPA credits last for?
    Answer. EPA set its useable life of credits by regulation. (See 40 
CFR 1865-12(k)(6)) The usable life of credits under the EPA program 
varies based on the year in which the credit was earned. Specifically, 
the usable life of EPA credits was 5 years for model year 2009, phased 
down from 11 years to 6 years over the course of model years 2010 
through 2015, and is 5 years for model years 2016 and beyond.

    Question 3b. How long do the NHTSA credits last for?
    Answer. The usable life of credits under the NHTSA program is five 
consecutive model years, as dictated by EPCA and EISA.

    Question 3c. Would it make sense to allow credits earned under the 
NHTSA program to have comparable usable lives to more closely harmonize 
this aspect of the two programs?
    Answer. NHTSA's and EPA's usable life of credits are presently in 
alignment. Beginning with model year 2016 vehicles and continuing into 
the future, both agencies allow for 5 years of usable credit life. Any 
changes to the usable life of present or future credits earned under 
NHTSA's program would create a misalignment with EPA's program. Any 
retroactive changes to the usable life of previously earned credits 
under NHTSA's program would give some manufacturers a windfall, whereas 
manufacturers who did not earn credits as part of their long-term 
compliance plan would suffer a competitive loss.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Hon. Anthony R. Foxx
    Question 1. The FAST Act requires that the Federal Rail 
Administration (FRA) to convene the Gulf Coast Rail Service Working 
Group to evaluate the restoration of an intercity passenger rail 
service in the Gulf Region, between New Orleans and Orlando, Florida.
    Based on previous and similar Working Group efforts on passenger or 
freight rail service, does the FRA have any initial estimates of state 
and local cost-share to restore this passenger line, including 
estimates on the state and local cost-share in capital investments?
    Answer. Amtrak has conducted two recent studies on restoring 
passenger rail service along the Gulf Coast that have provided the FRA 
with some initial estimates on what the service will cost. Amtrak's 
study titled ``Report for the Southern Rail Commission on Potential 
Gulf Coast Service Restoration Options,'' which was published in 
December 2015, provided projections on the annual operating costs. 
According to this report, two daily corridor trains operated between 
New Orleans, LA and Mobile, AL would require $6.97 million in state/
local funds to cover the operating costs (the Passenger Rail Investment 
and Improvement Act [PRIIA] requires State/local funds to cover 
operating losses on Amtrak routes that are less than 750 miles). If 
daily Amtrak long-distance service was extended east of New Orleans to 
Orlando, FL, Amtrak's annual operating costs would increase by $5.8 
million (since long-distance trains are not required to be subsidized 
by state/local sources). Both a corridor train between New Orleans and 
Mobile and extending a long-distance train from New Orleans to Orlando 
would require $3.78 million in state/local funds and an additional 
$5.71 million in Amtrak operating funds. This report did not include 
any capital cost estimates for restoring passenger rail service along 
the Gulf Coast.
    Amtrak's 2009 study titled ``PRIIA Section 226 Gulf Coast Service 
Plan Report'' did provide an estimate of $10.7 million (in 2009 
dollars) for the work that is needed to bring the stations between New 
Orleans and Orlando back to service and into compliance with Americans 
with Disabilities Act requirements. An updated estimate of the station 
costs, as well as an estimate of the additional infrastructure 
improvements that are needed, will be included in the report required 
by the FAST Act. The State/local match for the capital costs will 
depend on the requirements of any grants that are awarded to the region 
for restoring passenger rail service.

    Question 2. All Aboard Florida, now known as Brightline, the 
privately-owned, proposed high-speed passenger rail project in Florida, 
was slated to begin operating at the beginning of 2016. The $3.5 
billion project was set to leverage both Federal and private funds. 
However, due to lacking private investment, most recently, DOT has 
offered the private train builders another extension, for another year, 
to issue over a billion dollars of private activity bonds to partially 
finance the project. Would you please explain the Department's 
justifications for these extensions?
    Answer. Section 11143 of Title XI of SAFETEA-LU, passed in 2006, 
amended section 142 of the Internal Revenue Code to add certain surface 
transportation projects to the types of privately developed and 
operated projects for which private activity bonds (PABs) may be 
issued. The statute set the nationwide limit on allocated authority at 
$15 billion. As of July 7, 2016, approximately $6.5 billion in PABS 
have been issued by 17 projects, and $4.7 billion is currently 
allocated to five additional projects, including $1.75 billion to the 
All Aboard Florida project. Approximately $3.8 billion is unallocated 
and available immediately for allocation to future projects.
    In a December 3, 2015 letter to the Department, All Aboard Florida 
indicated that they had decided to delay the issuance of their bonds 
due to market conditions, and they were therefore requesting an 
extension of one year. The Department reviewed their extension request 
consistent with prior practice, and extended their allocation until 
January 1, 2017.

    Question 3. In your testimony you refer to the FASTLANE grants 
authorized in the FAST Act. Consistent with the legislation, these 
grants should only be awarded to ``nationally significant freight and 
highway projects,'' including highway, freight, bridge, and port 
projects. Can you speak to how DOT determines, on the basis of 
criteria, which projects, and ``key challenges'' addressed by the 
project, will be given priority for grant funding?
    Answer. As described in the Notice of Funding Opportunity published 
on March 2, 2016, in evaluating FY 2016 FASTLANE applications, DOT 
considered the extent to which the project addressed the statutory 
selection criteria and met program requirements. The selection criteria 
included: Economic, Mobility, Safety, and Community and Environmental 
Outcomes, Partnership and Innovation, and Cost Share.

    Question 3a. The law indicates that each fiscal year, 10 percent of 
the FASTLANE grants (at least $5 million) are used for ``small 
projects.'' Can you speak to what constitutes a ``small project,'' and 
how DOT will determine this project selection?
    Answer. According to 23 U.S.C Sec. 117(e), small projects are 
projects which do not satisfy the minimum cost threshold described 
under 23 U.S.C. Sec. 117(d)(1)(b). This threshold, as applied to total 
project cost, is the lesser of $100 million; 30 percent of a State's FY 
2015 Federal-aid apportionment if the project is located in one state; 
or 50 percent of the larger participating State's FY 2015 apportionment 
for projects located in more than one State. Additional information on 
this threshold can be found in the Notice of Funding Opportunity 
published on March 2, 2016. The Department reviews all small project 
applications received in accordance with the statutory requirements of 
the FAST Act and the selection criteria listed in the Notice of Funding 
Opportunity.

    Question 4. Last week, the Department of Transportation approved 
six U.S. domestic airlines to begin scheduled flights to nine Cuban 
airports. On February 16, 2016, the Department of Transportation signed 
a non-legally-binding arrangement to re-establish scheduled air service 
between the two countries. Why did the Administration choose a non-
legally binding arrangement?
    Answer. During the December 2015, talks, the U.S. and Cuban 
delegations affirmed their desire to begin, at the appropriate moment, 
the process of negotiating a new binding bilateral air transport 
agreement. In the interim, the nonbinding arrangement provides an 
appropriate legal framework under which scheduled services between our 
countries can resume and charter services can continue.

    Question 4a. What was the criteria for choosing the Cuban airports 
to which U.S. flights would be authorized?
    Answer. Cuba lists ten airports as eligible to receive 
international service. The governments determined to make each of the 
international airports in Cuba and in the United States available to 
international service by duly authorized carriers.

    Question 5. Among those Cuban airports chosen are Varadero 
(Matanzas), Cayo Coco, and Cayo Largo. These three airports are feeders 
to the Cuban military's isolated beach resorts. How do those flights 
fit into the U.S. legal criteria for people-to-people travel?
    Answer. It is the Department's understanding that travelers will 
need to comply with the applicable requirements and regulations of 
other U.S. agencies and with all applicable laws of the United States, 
regardless of their point of entry to Cuba. The Department of Treasury 
Office of Foreign Asset Control could provide more detailed information 
regarding requirements and regulations regarding authorized travel to 
Cuba.

    Question 5a. Do these flights seek to circumvent legal restrictions 
on tourism-related transactions towards Cuba?
    Answer. Any award of economic authority by the Department of 
Transportation to an airline will not relieve U.S. carriers or 
travelers from complying with the applicable requirements and 
regulations of other U.S. agencies, and with all applicable laws of the 
United States. It is the Department's understanding that the Department 
of the Treasury's Office of Foreign Asset Control has issued general 
licenses within the 12 categories of authorized travel for many travel-
related transactions to, from, or within Cuba that previously required 
a specific license, but that travel for ``tourist activities'' remains 
prohibited by statute.

    Question 6. A recent hearing in the House Homeland Security 
Committee revealed that Transportation Security Administration (TSA) 
officials have privately raised serious security concerns with 
lawmakers regarding the suitability of some of these Cuban airports. 
Why did the Administration choose a non-legally binding arrangement?
    Have all nine Cuban airports been independently evaluated by U.S. 
personnel to ensure they meet security and infrastructure criteria?
    Answer. The Department of Homeland Security has authority over 
issues of airport security.

    Question 6a Will TSA officials be stationed at all nine Cuban 
airports with direct flights to the United States?
    Answer. The Department of Homeland Security has authority over 
issues related to the deployment of Transportation Security 
Administration (TSA) personnel.

    Question 6b. Will the U.S. airlines awarded these flights have 
independent personnel--not hired through the Cuban government--
stationed at these nine airports? Or is the Administration fully 
outsourcing our security requirements to the Cuban government?
    Answer. The Department of Homeland Security has authority over 
issues of airport security.

    Question 7. What level of confidence does the U.S. Government have 
in the integrity and security of the Cuban government's policies 
regarding issuance of visas to third country nationals? Will U.S. 
authorities have independent security verification?
    Answer. The Department of Homeland Security has authority over 
immigration and entry issues.

    Question 8. Among the nine selected Cuban airports, can you confirm 
whether any of these airports are confiscated properties from the Cuban 
government?
    Answer. The Department has no information on whether these airports 
are properties confiscated by the Cuban government

    Question 9. The 5.9 GHz band is important to the automotive 
industry's hopes for ITS crash-avoidance systems and to address the 
pressing need for additional spectrum for consumer wireless services. 
Congress instructed the FCC and DOT to work out a sharing approach, and 
I've worked to push the process forward. We must find an approach that 
opens the band to Wi-Fi while ensuring no harmful interference to 
crash-avoidance systems. I'm pleased to hear that the FCC will soon 
conduct tests to make this a reality, with DOT's participation. But FCC 
Commissioner O'Rielly has suggested that some companies may try to use 
ITS licenses not just for crash avoidance, but also for non-safety 
applications like metering, e-commerce, or even entertainment systems--
far afield from the safety-of-life systems contemplated in DOT's 
pending rulemaking. I'm all for protecting crash avoidance. Do you 
believe that companies engaged in non-safety activities deserve the 
special status we give safety? Please answer yes or no.
    Answer. DOT recognizes the critical national interest in making 
more broadband spectrum available. Our overarching goal is to assure 
safe, reliable, and on demand access to the 5.850-5.925 GHz spectrum 
for licensed vehicle to vehicle communication technology. We are 
working collaboratively with FCC and NTIA on testing to ensure that the 
capabilities of the safety critical crash avoidance applications and 
technologies are maintained.

    Question 9a. Are you considering mandating that all automakers use 
a government-mandated technology and frequency band? If so, why?
    Answer. NHTSA is considering this issue in the Vehicle to Vehicle 
Communication NPRM that is currently under deliberations. We cannot 
comment on the issue until the rule has been released for public 
comment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                          Hon. Anthony R. Foxx
    Question 1. Coordination between FHWA & FRA on rail crossings
    The state of Nebraska has more than 3,000 at-grade rail crossings 
eligible for public funding. As you know, the FAST Act includes 
provisions that would compel the Federal Railroad Administration (FRA) 
to establish and distribute ``model'' state grade crossing action plans 
to help mitigate future accidents. State DOT's will then need to 
develop an action plan based on the FRA's model.
    At the same time, the Federal Highway Administration (FHWA) 
administers the section 130 grade crossing program, which provides 
grants to states on a formula basis. One of the challenges is that the 
FRA and FHWA may have conflicting implementations of these critical 
safety and infrastructure funding programs that could lead to some of 
the most dangerous rail at-grade crossings not receiving attention for 
corrective action.
    How is DOT working to ensure that the FRA and FHWA are coordinating 
to ensure the section 130 program and model grade crossing action plans 
are consistent and complementary? As a follow up, what will DOT do to 
ensure states are establish action plans and take corrective actions by 
utilizing section 130 program resources?
    Answer. FHWA manages the Section 130 program, and FRA provides 
technical and programmatic support to FHWA and the State DOTs regarding 
the program. FRA Regional Offices have been working with the Safety 
Specialists in the FHWA Division Offices on the States' upcoming 
projects, including information on the States' project prioritization 
and selection process.
    FRA leads the ONE DOT Intermodal Grade Crossing Safety Team with 
staff from FRA, FHWA, FTA, FMCSA, NHTSA, and VOLPE. The team meets 
quarterly, and team members from each modal administration coordinate 
their current projects and initiatives. They also discuss upcoming 
projects and work to coordinate a unified message across the DOT.
    FHWA and FRA will continue to collaborate on identifying ways to 
improve how each agency supports rail grade crossing safety, including 
implementing FAST Act requirements. FAST Act-related activities will 
include developing and distributing model State-specific highway-rail 
grade crossing action plans to each state, along with a customized 
crossing accident/incident data set and contact information for DOT 
officials; issuing regulations requiring states to develop and update 
highway-rail grade crossing action plans, or provide updates to their 
existing action plans; evaluating State highway-rail grade crossing 
action plans; and reporting to Congress on State progress in 
implementing their highway-rail grade crossing action plans.
    FRA will also issue regulations requiring each State to submit and 
implement a grade crossing action plan or update an existing grade 
crossing action plan (for the 10 states that were required by the Rail 
Safety Improvement Act of 2008 to develop grade crossing action plans). 
Upon submission, FRA will review each plan for approval.

    Question 2. Advanced vehicle technology neutrality
    The Conference Report to the FAST Act included language noting that 
the FAST Act's programs, ``are deployed in a technology neutral manner. 
The Act promotes technology neutral policies that accelerate vehicle 
and transportation safety research, development and deployment by 
promoting innovation and competitive market-based outcomes, while using 
Federal funds efficiently and leveraging private sector investment 
across the automotive, transportation and technology sectors.''
    Stakeholders have indicated that that the DOT is mandating that 
Smart Cities Competition participants must include Dedicated Short 
Range Communications (DSRC) in their projects in order to be 
considered. Can you please explain whether this is true and whether 
other types of vehicle-to-vehicle safety technologies such as advanced 
cellular will also be permitted?
    Answer. No, neither Notice of Funding Opportunity required 
applicants to use DSRC. Applicants were permitted to integrate a 
variety of commercially available communication technologies including 
cellular, satellite, Wi-Fi and others to deploy connected vehicle and 
infrastructure services. Applicants were encouraged to use DSRC 
technology operating in the 5.9GHz band to expand demonstrations of 
safety-critical V2V and V2I applications based on DSRC communications 
to ensure the interoperability of these safety applications among 
multiple automotive manufacturers. But DOT encourages all new advanced 
technologies to be used in a safe and standardized manner and does not 
preclude any advanced technologies in the V2I space.

    Question 3. Tolling
    While some states have built HOT lanes around cities to help 
alleviate congestion, the idea of tolling existing Interstates has not 
made progress. According to the American Trucking Associations, the 
FHWA pilot program that allows 3 states to toll their Interstates 
hasn't had a single successful applicant in its 18-year history. Given 
the history of the pilot program, do you believe it should continue to 
move forward?
    Answer. The Interstate Reconstruction and Rehabilitation Pilot 
Program (ISRRPP), established in 1998 by TEA-21, is limited to three 
slots. As you note, none of the states holding these slots--Virginia, 
North Carolina, and Missouri--have come to FHWA with a tolling project. 
In response to this lack of progress, the FAST Act sets a one-year 
``use or lose'' deadline for the states currently authorized to pursue 
ISRRPP projects. Based on these states' replies, the FHWA intends to 
evaluate new ISRRPP opportunities via an open solicitation to all 
states, whose expressions of interest will best inform whether to 
continue to move forward. You also note that many states have developed 
HOT lanes to address urban congestion. Most of these facilities--e.g., 
in California, Washington State, Minnesota, Florida, Virginia, and 
Texas--are on Interstate highways, demonstrating the efficacy of adding 
tolls to the system as well as the flexibility of related Federal 
tolling programs to accomplish a state objective.

    Question 4. Drug and alcohol testing for commercial drivers
    Mr. Secretary, the FAST Act requires speedy implementation of a 
national clearinghouse of drug and alcohol test results in the trucking 
industry. As you may know, this is something the industry has been 
advocating for many years. When will DOT issue rule regarding this 
provision? Further, will the rule make obsolete current requirements 
that prospective employers contact an applicant's past employers to 
learn of previous violations?
    Answer. The Office of Management and Budget is currently 
coordinating interagency review of a draft of the final rule. FMCSA 
expects to publish the final rule later this year. While we cannot 
discuss the contents of rules under Executive Order 12866 review, the 
proposed rule would require prospective employers to query the 
clearinghouse rather than the previous employer about the employee's 
previous drug and alcohol tests.

    Question 5. MARAD Sea Year
    Secretary Foxx, on Wednesday, June 15, 2016, the Maritime 
Administration (MARAD) announced that it would suspend the U.S. 
Merchant Marine Academy's (USMMA) Sea Year program. MARAD has stated 
this decision was not the result of one specific incident but as a 
result of its discussions and findings when evaluating sexual assault 
at the USMMA. Would you please explain the specific events, focus group 
results, survey findings, or other considerations that directly led to 
the decision to suspend the program?
    Answer. My decision to temporarily stand down the sea year program 
was based on an accumulation of evidence from many sources, including 
the 2012 and 2014 Defense Manpower Data Center (DMDC) Sexual Assault 
and Gender Relations (SAGR) surveys of Midshipmen that indicated that, 
while Midshipmen spend only one quarter of their time at the Academy on 
Sea Year, between 40 and 50 percent of the incidents of unwanted sexual 
contact experienced by women and men occurred at sea. Sixty-three 
percent of women and 11 percent of men experienced sexual harassment in 
the 2013-14 academic year. In 2015, DMDC conducted focus groups which 
confirmed the presence of a ``pervasive sexist culture'' on campus. 
Faculty, staff and Midshipmen spoke of challenges created by the Sea 
Year, including evidence that Midshipmen developed inappropriate 
attitudes towards women while at sea, further contributing to a sexist 
campus climate. It also noted that Midshipmen are reluctant to report 
incidents at sea due to fear of retaliation and damage to their future 
careers in the maritime industry. In addition, further evidence of the 
prevalence of inappropriate behaviors encountered by male and female 
Midshipmen while at sea came to light in meetings with senior MARAD and 
Academy leadership, the Advisory Board, and the Middle States 
Commission on Higher Education's evaluation team. Examples of 
inappropriate behavior included bullying, hazing, sexual harassment, 
and pressure to consort with prostitutes and to consume alcohol. The 
evidence that too many Midshipmen face a hostile environment at sea, 
and their reluctance to report these incidents, led us to the 
conclusion that the Academy could no longer send Midshipmen to sea 
until concrete actions were taken to change the status quo. Action to 
stand down Sea Year needed to be taken before the next class of 
Midshipmen was scheduled to depart on Sea Year the week of June 13.
    On August 22, I directed that the stand down continue as we look at 
additional steps we can take to ensure the safety of our students at 
sea and on campus, and to promote a culture of transparency and respect 
for everyone. Over the next few months, we will have independent 
outside experts experienced in assessing institutional and 
organizational culture examine all such aspects within the USMMA, both 
on campus and at sea, in an attempt to identify root causes and their 
impacts to the Academy culture and offer possible short-term and long-
term corrective actions to address the issues. This assessment will 
delay the resumption of Sea Year on commercial vessels for a number of 
months. In the interim, we will continue to assign Midshipmen to 
Federal vessels to get their required sea days and have been utilizing 
MARAD's Ready Reserve Force (RRF) vessels for this purpose since August 
22nd.

    Question 6. USMMA Requirements
    In order to graduate USMMA midshipmen must complete their sea 
service requirements for time aboard an ocean-going vessel.
    Would you please provide further details as to the expectations of 
DOT as it relates to the ``Call-to-Action'' for maritime stakeholders?
    Answer. MARAD and USMMA hosted more than 90 representatives of the 
maritime industry at a Call-to-Action meeting on June 24, 2016, to 
address concerns about the shipboard working and living environment 
that led to the stand down of USMMA's Sea Year training program. Held 
in Washington, D.C. at the U.S. Department of Transportation, the 
meeting was convened to review actions taken by the U.S. Armed Forces 
as well as an opportunity for the maritime industry to present a 
proposal to improve the quality of life onboard vessels and provide a 
working and training environment that is both safe and respectful for 
the Midshipmen. The discussions focused on industry culture, sexual 
assault, and sexual harassment awareness and prevention efforts, 
industry-wide best practices and reporting protocols, and implementable 
actions included how to proactively address the issues, training 
programs involving the companies and mariner unions, assignment of 
onboard mentors, debriefing of all Midshipmen upon completion of their 
Sea Year training, vessel visits by company operations representatives, 
and a 24/7 hotline or ability for Midshipmen to make reports while at 
sea. The Maritime Administrator began discussions on this issue with 
several ship companies and operators as early as January 2016 and the 
Call-to-Action was scheduled before the decision to stand down. The 
industry proposal presented at the Call-to-Action meeting provided the 
foundation for developing requirements that commercial operators will 
need to meet to be eligible to have Midshipmen work and train on their 
vessels. We are engaged with industry and continue to discuss our 
requirements and their implementation. The industry's willing 
cooperation and support for the USMMA Sea Year program has been 
helpful.

    Question 6a. What specific metrics or criteria does DOT have in 
place for evaluating when to restart the program?
    Answer. With my approval, MARAD restarted the Sea Year program on 
ships, specifically aboard Military Sealift Command and MARAD Ready 
Reserve Force vessels, owned by the Federal Government. The operators 
of these vessels have robust programs in place that are aimed at 
preventing and reporting incidents. In addition, Midshipmen have 
conducted at sea instruction on the USMMA's training ships, the Kings 
Pointer and the Liberator, and sailed aboard the SUNY Maritime 
College's training ship, Empire State, and California Maritime 
Academy's training ship, Golden Bear in July and August.
    As noted in the previous question, the results of the comprehensive 
study of the culture and climate of the campus will be used to inform 
any necessary changes to the Sea Year program. The results of the study 
will also be used to assist in developing criteria for commercial 
companies to meet in order to become ``Sea Year Eligible.''

    Question 6b. Based on your initial planning, what are your target 
dates for MARAD and stakeholders to meet the metrics or criteria in 
order to resume the program?
    Answer. As stated previously, MARAD resumed the Sea Year program on 
Federal ships. In addition, Midshipmen have conducted at sea 
instruction on the USMMA's training ships, the Kings Pointer and the 
Liberator, and sailed on SUNY Maritime College's training ship, Empire 
State, and California Maritime Academy's training ship, Golden Bear in 
July and August. Commercial companies will be evaluated on a case-by-
case basis. MARAD is working closely with commercial companies, and 
four companies have submitted information and are being evaluated. 
There are no target dates. An individual company's restart date will 
depend on how long it takes for the company to make changes to its 
training, policies or reporting that assures Midshipmen complete Sea 
Year in a safe and respectful environment. The commercial Sea Year 
program is a core part of the USMMA experience; we are committed to 
resuming commercial Sea Year assignments once companies meet the 
requirements.

    Question 6c. Do you expect all midshipmen will have the opportunity 
to graduate on time? What contingency plans do you have in place to 
ensure all midshipmen have the opportunity to graduate on-time?
    Answer. We do expect all Midshipmen to be able to graduate on time. 
When the current sailing period ends at the end of October 2016, the 
Academy will have 19 months to make up lost sea days for the Class of 
2018. For the Class of 2019, the Academy will have 31 months, including 
their entire second sailing period. Although, we cannot guarantee that 
a combination of circumstances might delay graduation for one or more 
Midshipmen, we are and will be doing everything to ensure that no 
Midshipman's graduation is delayed solely due to the stand down.
    At present, all engineering track Midshipmen in the Class of 2018 
will have sufficient days to take the U.S. Coast Guard Merchant Mariner 
Credential examination and upon passing would be eligible to graduate 
pending completion of their Bachelor's Degree requirements. For the 
deck track Midshipmen in the Class of 2018, we anticipate that 20-30 
Midshipmen will be 10 or more days short of the required number of 
days. The exact number of Midshipmen in this category will be 
determined at the end of the current sailing period which ends at the 
end of October. The Academy routinely has Midshipmen who are short the 
number of required sailing days and has experience making those days up 
during the last year of academic study.
    Midshipmen have been able to log sea days on the Kings Pointer and 
the Liberator, the Academy's two training vessels. Midshipmen were also 
embarked on the State University of New York Maritime College and 
California Maritime Academy training ships during their scheduled 
summer cruises. Sea days aboard these vessels are credited by the U.S. 
Coast Guard at 1.5 days for each day onboard because instructors are on 
board and in charge of delivering the training. A two week internship 
is a required component of the Sea Year, and many Midshipmen have 
completed their internships during the stand down. Further, beginning 
July 8, Midshipmen began returning to Military Sealift Command (MSC) 
vessels. On 22 August, USMMA began assigning Midshipmen to MARAD-owned 
Ready Reserve Force (RRF) vessels. As of September 6, all of the 216 
Midshipmen affected by the stand down were either at sea, in an 
internship, or scheduled to join a MSC ship in the coming weeks. The 
Academy will continue to take all steps possible, including maximizing 
use of the Academy's training vessels, to help Midshipmen in the 
Classes of 2018 and 2019 affected by the stand down to accumulate the 
required sea days to graduate on schedule.

    Question 6d. As you may know, S. 2829, the Maritime Administration 
Enhancement Act of 2017, includes a ``Sea Year'' working group to bring 
stakeholders together to address challenges related to sexual assault 
and harassment of midshipmen during their year at sea. Congress has 
worked closely with MARAD and USMMA on the development of this bill. 
How long has the MARAD been considering suspending the program?
    Answer. I made my formal decision on June 10, 2016. The Maritime 
Administrator began discussion with industry leaders in January 2016 
and personally met with ship owners regarding the challenges with Sea 
Year in April 2016. This led to the planning for the Call-to-Action 
meeting that was held on June 24, 2016. In addition, the USMMA 
Superintendent began engaging in conversations with select senior 
Academy staff in mid-May over his concerns about the accumulation of 
evidence that the environment at sea was detrimental to the well-being 
and safety of Midshipmen. He first addressed the question of a stand 
down with the Maritime Administrator in late May. Conversations 
continued with the Advisory Board and senior Academy and MARAD 
leadership in June.

    Question 6e. As a follow up, why did the agency not coordinate in 
advance with Congress or the USMMA Board of Visitors on reaching this 
critical decision?
    Answer. As noted above, my decision to stand down Sea Year was made 
on Friday, June 10. Congress was notified of the stand down on June 15 
concurrently with industry and other stakeholders shortly before the 
formal announcement at USMMA.
    The timing of the decision was based on the fact that by June 18, 
the first group of Midshipmen from the Class of 2018 was scheduled to 
depart on their Sea Year. It was decided that action had to be taken 
immediately to stand down Sea Year before any Midshipmen left campus to 
join their assigned vessels.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                          Hon. Anthony R. Foxx
    Question 1. Secretary Foxx, my first question to you during the 
hearing was regarding state compliance with the FAST Act. Included in 
Section 5523 of the FAST Act is an amendment I offered mirroring the 
text of S. 1692, to allow for the delivery of tandem trailers by 
manufacturers.
    However, I have heard reports from the National Association of 
Trailer Manufacturers, headquartered in Topeka, Kansas, that some 
states are continuing to take enforcement action against operators 
utilizing Sec. 5523, notwithstanding the fact that the FAST Act permits 
and preempts state law on such operations.
    My question to you was, more broadly: How is U.S. DOT ensuring that 
states comply with the new law as soon as possible? Your response 
indicated you would follow up with more specific details, and I would 
greatly appreciate hearing what actions the agency is taking to ensure 
state compliance.
    Answer. On February 24, 2016, FHWA issued guidance on the truck 
size and weight provisions of the FAST Act. With regard to section 5523 
(``Commercial Delivery of Light and Medium Duty Trailers''), the 
guidance emphasizes the preemptive nature of the provision by 
reiterating that ``a state may not prescribe or enforce a regulation of 
commerce that has the effect of imposing an overall length limitation 
of less than 82 feet on a towaway trailer transporter combination. [49 
U.S.C. 31111(b)(1)(H)].''
    Following the issuance of the above guidance, in April 2016, FHWA 
asked its Division Offices, located each state, to provide assurance 
that each State's truck size and weight enforcement and regulatory 
agency received FHWA's guidance. FHWA also asked the Division Offices 
to ensure that the states were aware that the FAST Act became effective 
on October 1, 2015, unless otherwise provided in the FAST Act, and that 
State laws may require updating to ensure that they align with the FAST 
Act-amended Federal maximum vehicle size and weight limits applicable 
to the Interstate System and National Network.
    The Department believes that most states fully recognize that 
section 5523 is preemptive; however, States' ability to revise their 
laws to align with the FAST Act is impacted by each State's legislative 
session dates. We acknowledge, however, that a State's inability to 
revise its laws to align with Federal requirements directly impacts 
roadside enforcement activities, which are typically based on State 
laws.
    I assure you that FHWA and its Divisions Offices are proactively 
working with the states to achieve full alignment between State and 
Federal laws in this area. For example, this summer, each Division 
Office will discuss the implementation of FAST Act provisions with the 
states during an annual evaluation of the truck size and weight 
program. Additionally, this will be a special emphasis area in January 
2017 when FHWA reviews the states' annual certifications, checking 
whether states are enforcing all State laws with respect to maximum 
vehicle size and weight permitted on the Interstate System and National 
Network.

    Question 2. Secretary Foxx, the FAST Act did not address the 2011 
Hours of Service rule that made two major changes to the restart 
provision for truck drivers. Congress has made clear through FY 2015 
and FY 2016 appropriations that it has serious concerns about 
implementing these rules without a comprehensive field study to 
evaluate whether or not these changes will provide any meaningful 
safety benefits.
    Mr. Secretary, while you have indicated support for this rulemaking 
in the past, do you agree it is important to study the safety impacts 
of the rule before it is implemented and has a significant impact on 
the livelihood of not just truck drivers and highway travelers, but 
interstate commerce in general?
    Answer. The Department is committed to improving commercial motor 
vehicle (CMV) safety. Eliminating the restart restrictions imposed by 
the 2011 rule would allow drivers to drive after accumulating more than 
70 hours of on-duty time within an 8-day period. The Department remains 
concerned about the safety risks associated with cumulative fatigue 
when drivers are allowed (and may sometimes be required) to work such 
intensive schedules, week after week. Section 133 of the Consolidated 
and Further Continuing Appropriations Act, 2015, required a study 
comparing the safety impacts of the restart provision before and after 
the 2011 restrictions became operational. That study has been completed 
and is under Departmental review.

    Question 3. Secretary Foxx, a recent American Automobile 
Association survey found that nearly 70 percent of motorists are 
concerned about the condition of our Nation's roads, citing traffic 
congestion and unsafe roads and bridges their top concerns. The wear 
and tear on vehicles, lost productivity in traffic and costs imposed on 
society because of accidents confronts us on a daily basis.
    The FAST Act provides funding for these kinds of improvements and 
contains a number of requirements to study or review traffic 
congestion. Can you provide a report on how these initiatives are 
progressing and what actions hold out the most promise for improving 
this situation?
    Answer. FHWA has on-going research, studies, and implementation 
efforts underway on various congestion reduction strategies and 
technologies. This includes connected vehicle technology deployment, 
advanced traffic signal control systems, work zone management, traffic 
incident management, road weather management, managed lanes, and 
advanced transportation and demand management strategies. A full list 
and status of these efforts can be found at ops.fhwa.dot.gov.
    FHWA also is pursuing solicitation and award of the Advanced 
Transportation and Congestion Mitigation Technology Deployment (FAST 
Act Section 6004) grants. Many of the eligible strategies and 
technologies contained in this grant program have direct congestion 
reduction objectives. We are aiming to award the 2016 grants by the end 
of the fiscal year.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                          Hon. Anthony R. Foxx
    Question 1. Mr. Secretary, Section 1426 of the FAST Act 
reestablishes a Motorcyclist Advisory Council to coordinate with the 
U.S. DOT on infrastructure issues that could affect motorcyclists. As 
you implement the FAST Act, do you plan to include participants from 
the full spectrum of available experts and stakeholders of different 
organizations?
    It is critical that the reestablished Council ensure that 
motorcyclists with professional expertise in national motorcyclist 
safety are represented from a variety of different organizations, as 
SAFETEA-LU required representation by various national and state 
motorcyclist associations, as well as representatives of the 
construction and safety industries that have experience on motorcycles.
    Answer. We are currently working through the Federal Advisory 
Committee Act (FACA) requirements to establish the Motorcyclist 
Advisory Council (MAC). I agree that diversity of expertise is very 
important for the success of this type of committee, and the Department 
certainly will aim to convene the MAC with a variety of professional 
backgrounds that will help provide meaningful insight into the safety 
topics identified in the FAST Act, including barrier design; road 
design, construction, and maintenance practices; and the architecture 
and implementation of intelligent transportation system technologies.

    Question 2. Mr. Secretary, the FAST Act created two new freight 
programs and authorized almost $11 billion, primarily for highway 
projects, to improve freight movement. What is your vision for these 
programs, and how will you and your team ensure these programs will 
truly focus on addressing the most critical barriers to efficient truck 
freight mobility on our highway system?
    Answer. The Department's vision is to use these two new freight 
programs, one that is discretionary (FASTLANE) and one that is formula-
based (the National Highway Freight Program), to help fund critical 
freight and highway projects across the country that will address the 
most pressing freight mobility barriers. It is clear from the recent 
round of FASTLANE that there are a large number of critical freight and 
highway projects, more than the Department has funding for. The 
Department has thoroughly evaluated each application received to ensure 
that the projects selected for funding meet the statutory requirements 
set by Congress and address critical barriers to efficient freight 
movement. In accordance with the FAST Act, the Department provided 
Congress with a 60 day notification of the proposed FASTLANE projects, 
award amounts and justification on July 5, 2016, and publicly announced 
awards on September 7, 2016. In addition, the Department has worked 
quickly to provide guidance to State DOTs to help them access the 
formula funding available under the National Highway Freight Program. 
The Federal Highway Administration (FHWA) has been working closely with 
the State DOTs to ensure that they meet all the requirements for 
obligating those formula funds such as the creation of individual State 
Freight Plans. As part of the process, FHWA is assisting states with 
designating critical rural and critical urban freight corridors, which 
plays a major role in the identification of key projects that will 
address the most critical barriers to efficient freight mobility. 
Additionally, FHWA and State DOTs are using performance measures 
specific to freight to assess the performance of our freight system as 
freight investments are made through these programs. Freight 
performance measures are vital to ensuring the success of freight 
program implementation.

    Question 3. Mr. Secretary, many motor carriers have complained that 
the Federal Motor Carrier Safety Administration (FMCSA) still uses non-
fault crashes in the Agency's Compliance, Safety, Accountability (CSA) 
program scores to evaluate carriers. So if your truck is stopped at a 
stoplight, or parked legally on the side of the road, and is hit from 
behind by a drunk driver, the crash still goes on the motor carrier's 
record and is used against the company in its Safety Measurement System 
scores. Those same scores are used by shippers and brokers, insurance 
companies, and the courts to evaluate a carrier's safety record, but 
this type of crash gives false information about a carrier's safety 
performance. When is the agency going to fix this problem, and how will 
you address this issue?
    Answer. FMCSA is aware of the industry concerns about this issue 
and, over the past 3 years, has conducted significant research to 
determine how crash preventability decisions could be made accurately 
in a timely and cost-efficient manner. While studies by FMCSA and 
others have confirmed that crash involvement, regardless of role in the 
crash, is an effective indicator of future crash risk, the Agency 
continues to explore this issue.
    In 2015, the Agency released the results of a study that indicated 
that police accident reports alone are not sufficient to make crash 
preventability determinations, and FMCSA asked for public input. After 
analyzing that input, FMCSA issued a Federal Register notice on July 7, 
2016, that proposed a demonstration project to conduct preventability 
determinations on certain crash scenarios and to determine the impacts 
of removing these crashes from the data, including the impacts to 
identifying motor carriers with a high future crash risk. The Agency is 
currently receiving comments on the demonstration project proposal and 
is preparing to implement it in Spring 2017. The demonstration project 
is scheduled to operate for 2 years. The FMCSA will document the 
results of the crash reviews, including the costs and impact of 
conducting this sample set of crash reviews. This exercise will inform 
what is needed to potentially expand the program, if removing these 
types of non-preventable crashes proves to be a better predictor of 
future crashes.

    Question 4. Mr. Secretary, the FAST Act contains direction to 
increase access to the commercial trucking industry for our Nation's 
veterans by allowing physicians from the VA to perform medical 
examinations and provide medical certificates to veterans seeking to 
operate commercial motor vehicles. Has there been any recent 
developments in the implementation of this language that veterans and 
the trucking industry may find encouraging?
    Answer. FMCSA held a series of internal deliberations to discuss 
regulatory and policy options, and associated information technology 
issues for addressing the FAST Act requirement. FMCSA is currently 
drafting a Notice of Proposed Rulemaking to implement this provision.

    Follow-up 1. Specifically, have representatives from Federal Motor 
Carrier Safety Administration (FMCSA) met with their counterparts from 
VA to develop an implementation strategy? If so, can you provide 
details involving their discussions?
    Answer. FMCSA has been in contact with representatives from the VA 
to discuss the strategy. We believe the strategy agreed upon to 
implement the FAST Act requirement will ensure the integrity of the 
National Registry Program to the greatest extent practical. The 
strategy includes:

  <bullet> Development of a training module to present information to 
        VA physicians on FMCSA's physical qualifications rules, to be 
        delivered online through the VA's internal training program. 
        The training would include a test at the end to ensure that the 
        physician completed the material and understood what was 
        presented, which would be analogous to the process used by 
        other examiners on the National Registry;

  <bullet> Entering into a formal agreement (MOU/MOA) with the VA to 
        make the training available through the VA's training system 
        for its employees so that any VA physician that would like to 
        issue medical examiner's certificates to physician-approved 
        veteran operators of commercial vehicles would be required to 
        take the free training and provide the training certificate/
        test results to FMCSA to be added to the National Registry; and

  <bullet> Establishing protocols for the VA and its participating 
        physicians to submit the medical examiner's certificate 
        information to FMCSA to ensure the veterans obtain the full 
        benefits of the VA examination.

    Follow-up 2. What is the progress (of the team established by 
FMCSA) to begin the rulemaking process? Does DOT or FMCSA have a sense 
of urgency to complete the process?
    Answer. FMCSA has begun drafting rulemaking documents and is 
committed to completing the regulatory process as quickly as practical.

    Follow-up 3. Is there any more clarity about the timing of the 
rulemaking process?
    Answer. FMCSA has begun drafting rulemaking documents to establish 
the VA physician program with a target compliance date expected in late 
2017. The delayed compliance date provides time to implement the VA 
training module and test, and complete the IT upgrades to accept the 
medical examiner's certificate information from the VA physicians.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                          Hon. Anthony R. Foxx
    Question 1. Secretary Foxx, I regularly hear concerns about new 
rulemakings placing burdensome requirements on rural states with small 
state transportation agencies covering large spaces. What efforts are 
you taking to ensure new rulemakings promote construction of projects 
and are not creating laborious compliance requirements for staff?
    Answer. The issue you raise is an important one, and I assure you 
that the Department considers impacts to rural and small states when 
issuing new rulemakings. In establishing the national performance 
management measures required under section 150 of title 23, United 
States Code, for example, FHWA has been cognizant of and has considered 
the impacts on all transportation agencies, large and small. In some 
performance areas, the statute requires the performance requirements to 
apply to all states across the country regardless of their size and 
capability. For example, safety and infrastructure condition impact 
both urban and rural areas. In these cases, we have proposed 
performance management practices that are widely used today to minimize 
the burden on agencies to comply with new requirements. In other areas, 
such as congestion, where we were provided more flexibility within the 
statutory language, we limited the applicability of the requirements to 
large metropolitan areas across the country. The potential burdens on 
State and local agencies are considered and quantified in a regulatory 
impact analysis posted for public review and comment for each of our 
proposals.
    FHWA is committed to supporting transportation agencies as they 
work to meet these new performance management requirements. We are 
deploying a new capacity building program to provide assistance in the 
form of training, on-site workshops, technical guidance, and 
informational sessions to agencies across the country to support their 
efforts in implementing and meeting these new requirements. Through 
this program, we believe that all agencies, including rural agencies, 
will be better equipped to move their transportation programs forward 
with minimal burden.

    Question 2. I was pleased to hear you mention the 24/7 Sobriety 
Program in your testimony. This program has proven to reduce recidivism 
of intoxicated driving. I have heard concerns from state transportation 
agencies that the Federal implementation may be too narrow. How is 
USDOT taking into account existing programs and ensuring the final rule 
does not prohibit states from accessing these life-saving dollars?
    Answer. NHTSA encourages states to develop creative approaches to 
improve safety. Our general approach is to allow states the maximum 
flexibility consistent with statutory language. Under Section 405, 
states must meet two requirements to receive funding under the new 24/7 
Sobriety Program grant. The first statutory requirement mandates that a 
state enact and enforce a law that requires all individuals convicted 
of driving under the influence of alcohol or of driving while 
intoxicated to receive a restriction on driving privileges. 23 U.S.C. 
Sec. 405(d)(6)(B)(i). In implementing the requirement, NHTSA 
established a short time-frame (at least 30 days) during which the 
restriction must apply and added flexibility by allowing any type of 
State-imposed sanction. The second statutory requirement mandates that 
a state provide a 24/7 Sobriety Program. Id. Sec. (ii). NHTSA will use 
the statutory definition of a 24-7 sobriety program, without change, as 
a basis to determine compliance. Id. Sec. (7)(A). In addition, the 
Agency made clear that for those states that do not meet the 
requirements for the separate 24/7 Sobriety Program grant, the 
flexibility exists to use funds provided for general impaired driving 
countermeasures grants to fund 24-7 sobriety grant programs.

    Question 3. Across the nation, 54 percent of automobile fatalities 
occur on rural roads, despite the fact that only 19 percent of 
Americans live in rural areas. Beyond the FAST Act, what efforts are 
you undertaking to improve rural road safety?
    Answer. Local road agencies often do not have the resources needed 
to adequately address safety problems on the roads they own and 
operate. FHWA's Local and Rural Safety Program provides national 
leadership in identifying, developing, and delivering safety programs 
and products to agencies, elected officials, governments and other 
stakeholders to improve safety on local and rural roads. FHWA provides 
many resources to support local road agencies in understanding and 
addressing their safety issues, including videos and brochures, 
toolkits, checklists, and manuals. These resources and others are 
available on FHWA's website at http://safety.fhwa.dot.gov/local_rural/.
    FHWA also offers a peer-to-peer support program specific for local 
and rural roads and funds the National Center for Rural Road Safety 
(http://ruralsafetycenter.org/). FHWA's Office of Safety has taken an 
integrative approach to addressing rural road safety by establishing a 
Cross Office Working Group (COWG) to coordinate rural road safety 
throughout all technical areas. This group works to reduce fatalities 
and serious injuries on local and rural roads by providing 
practitioners and decisionmakers with important information, tools, and 
resources that will improve the safety performance of these roadways. 
This group not only provides greater integration of rural safety within 
the Office of Safety, but it also has promoted strong coordination 
throughout FHWA to leverage resources to improve safety on these roads.

    Question 4. Passenger rail is an important component of 
connectivity for Montana. Amtrak's Empire Builder connects 12 Montana 
communities and there is an opportunity to connect a 13th community--
Culbertson. A previously completed Amtrak feasibility study has 
indicated reinstating this stop would have a net positive financial 
impact. What can USDOT do with my office and the City of Culbertson to 
help them prepare for competing for future Consolidated Rail 
Infrastructure and Safety (CRISI) or Transportation Investment 
Generating Economic Recovery (TIGER) grant funds?
    Answer. With regard to the TIGER program, in addition to the 
guidance available on our website, www.dot.gov/tiger, the Department 
can provide direct technical assistance to potential applicants who 
request it. Please have the City of Culbertson contact 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3165787674637643505f454271555e451f565e471f">[email&#160;protected]</a>
    Similarly, FRA will provide guidance to prospective applicants of 
the newly authorized CRISI program upon receiving initial 
appropriations for the program. In the meantime, FRA is available to 
provide technical assistance to the City of Culbertson regarding the 
development of proposed projects. The City may contact Valarie Kniss, 
Regional Manager for the Pacific Northwest, at 202-493-0616 or at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7402151815061d115a1f1a1d070734101b005a131b025a">[email&#160;protected]</a>
    FRA staff has also been in communication with Senator Daines' staff 
to provide the appropriate Amtrak contacts to facilitate the addition 
of a station stop in the City of Culbertson. As directed by Senate 
Report 114-75 of the FY16 Transportation and Housing and Urban 
Development, and Related Agencies Appropriations Bill, FRA and Amtrak 
are working together to reevaluate a previous Amtrak study on the 
feasibility of establishing a station stop in the City along Amtrak's 
Empire Builder route.

    Question 5. Secretary Foxx, I was also pleased to hear you mention 
the University Transportation Center (UTC) program in your testimony. I 
am proud of the UTC at my alma mater, Montana State University (MSU), 
and their focus on rural transportation. In working with the UTC at 
MSU, three questions have been raised.
    In rural areas, tourism is a leading economic driver, and many of 
the major attractions are on public lands, such as National Parks and 
state recreation areas. Efficient transportation systems are critical 
to move visitors to, from, and around public lands. Advanced 
technologies such as autonomous vehicles and Intelligent Transportation 
Systems (ITS) present opportunities to enhance both safety and 
experiences for visitors, such as avoiding wildlife on roadways and 
freeing passengers to enjoy their surroundings. Is the USDOT 
considering rural applications for the technology grant programs in the 
FAST Act, as well as the traditional urban congestion applications?
    Answer. Yes, the Department will consider rural applications for 
technology grant programs under the FAST Act to the maximum extent 
possible. For example, under the Advanced Transportation and Congestion 
Management Technologies Deployment Initiative, DOT is required to 
ensure, to the extent practicable, that grant recipients are 
geographically diverse (including urban and rural areas) and represent 
diverse technology solutions. DOT will consider this over the life of 
the program and anticipates announcing awards in September.
    FHWA and the Intelligent Transportation Systems Joint Program 
Office (ITS JPO) also are investigating the Shared Mobility and 
Innovated Technology implementations for rural, suburban, and urban 
areas to better understanding how technologies may impact 
transportation needs and opportunities.
    Further, FHWA and the ITS JPO are investing up to $42 Million over 
a three year period on 3 pilot sites to accelerate the deployment of 
ITS technology in more regions throughout the Nation. One of the 3 
awardees is the ICF/Wyoming Connected Vehicle (CV) Pilot. The primary 
objective for the ICF/Wyoming CV Pilot deployment is to use connected 
vehicle technology to reduce the number of weather related incidents 
(including secondary incidents) in Interstate 80 (I-80) corridor in 
order to improve safety and reduce incident-related delays. I-80 is a 
freight-intensive corridor with a daily volume of 11,000 to 16,000 
vehicles, many of which are heavy-duty trucks (30 percent to 55 
percent). Using Vehicle to Vehicle (V2V) and Vehicle to Infrastructure 
(V2I) technology, and existing technologies deployed and operated by 
Wyoming DOT (WYDOT) and freight carriers, information such as road 
weather advisories, roadside alerts, and truck parking information will 
be transmitted and shared with a combination of vehicles. The set of 
vehicles includes WYDOT snow plows, maintenance fleet vehicles, 
emergency vehicles, and private trucks/commercial vehicles. Researchers 
believe that CV technologies will address up to 80 percent of crashes 
where impairment was not a factor.
    FHWA and ITS JPO have and continue to support activities associated 
with the Annual National Rural ITS (NRITS) Conference.

    Question 5a. In his testimony, you provided an update on the 
establishment of the National Surface Transportation and Innovative 
Finance Bureau, which will help states and other agencies access 
Federal expertise and resources. Given the specialized needs of rural 
areas and small towns, has there been any consideration of including a 
rural specialist or liaison at the new Bureau?
    Answer. One of the missions of the National Surface Transportation 
and Innovative Finance Bureau, which we're calling the ``Build America 
Bureau,'' is to provide customer-focused support to project sponsors of 
all types who may be seeking to use DOT credit programs. The Bureau 
will draw upon the full resources of the Department to best utilize the 
expertise of our staff, including expertise in dealing with rural 
projects and project sponsors.

    Question 5b. At a recent event for the Smart Cities Challenge, you 
said that ``a lot of times, technology gets deployed to those who are 
best able to afford it first.'' Rural areas are certainly challenged to 
invest in and deploy new technologies. Would USDOT consider developing 
a similar challenge grant program for rural areas or small towns?
    Answer. While resource constraints have dictated the size and 
regularity of initiatives like the Smart City Challenge being launched, 
there are a number of programs and initiatives benefiting rural 
communities that consider innovation as a criterion. Specifically the 
TIGER discretionary grant program requires a minimum of 25 percent of 
awards be made to rural projects. As a result, TIGER has awarded over 
$1 billion to rural applicants over eight rounds. TIGER has been a 
source of funding for projects like the Regional Truck Parking 
Information and Management System project sponsored by eight Midwest 
cities to aid truckers in rural areas through technology. Similar to 
the Department's practice in TIGER of using innovation as a secondary 
selection criteria, the Department also gave additional consideration 
to applicants for proposing the use of innovative technologies in the 
new FASTLANE discretionary grant program. Additionally, the 
Department's Connected Vehicle pilot program recently awarded three 
recipients, including Wyoming DOT for deploying connected vehicle 
technology to improve and monitor performance on Interstate 80, which 
is a freight-intensive corridor with a daily volume of 11,000 to 16,000 
vehicles. Also, two new innovative programs--FTA's Mobility on Demand 
Sandbox and FHWA's Advanced Transportation Congestion Management 
Technology Deployment--are built to encourage technology in a way 
similar to the Smart City Challenge but are less focused on urban 
areas. We hope to announce the winners of those grants in the coming 
months. When we have flexibility in programs to further assist rural 
regions, the Department has worked to establish important initiatives, 
such as FTA's Rides-to-Wellness initiative--a transit initiative 
designed to increase access to care, improve health outcomes, and 
reduce health care costs in rural places. Supporting innovation in 
rural areas continues to be a priority, and we're happy to work with 
Congress to find resources that can be more targeted towards rural 
challenges.

    Question 6. Secretary Foxx, I regularly hear concerns about new 
rulemakings placing burdensome requirements on rural states with small 
state transportation agencies covering large spaces. What efforts are 
you taking to ensure new rulemakings promote construction of projects 
and are not creating laborious compliance requirements for staff?
    Answer. Please see the response to Question 1.

    Question 6a. Secretary Foxx, in working with motorcoach operators 
in Montana two concerns have been raised.
    My understanding is there is outstanding communications with 
motorcoach industry associations, specifically regarding Federal Motor 
Carrier Safety Administration's (FMCSA) Final Rule on Lease Interchange 
for Passenger Carriers. What is the status of USDOT's response to their 
October 2015 petition for reconsideration?
    Answer. On May 27, 2015, FMCSA published a final rule concerning 
the lease and interchange of passenger-carrying commercial motor 
vehicles (CMVs). Its primary purpose is to identify the motor carrier 
operating a passenger-carrying CMV that is responsible for compliance 
with the Federal Motor Carrier Safety Regulations. The Agency received 
numerous petitions for reconsideration and concluded that some have 
merit. FMCSA, therefore, extended the compliance date of the final rule 
from January 1, 2017, to January 1, 2018, to allow the Agency time to 
complete its analysis and amend the rule where necessary.
    On August 31, 2016, the Agency published a ``Notice of Intent'' to 
initiate rulemaking. The notice identified the issues to be addressed. 
In addition, the Agency will host a roundtable with stakeholders on 
October 31, to discuss the scope of the forthcoming rulemaking and 
ensure that it will adequately address petitioners' major concerns.

    Question 6b. You mentioned in your testimony that the National 
Academies study of the Compliance, Safety, Accountability (CSA) program 
is underway now. This study will affect the Safety Fitness 
Determination (SFD) Notice of Proposed Rulemaking (NPRM) issued in 
January. The FAST Act requires more than the study, such as the 
corrective action plan and a certification by the Inspector General. 
What is the status of the study? How will the final results be 
incorporated into the SFD rulemaking process?
    Answer. The National Academies of Sciences (NAS) kicked off its 
review of the CSA program and Safety Measurement System (SMS) on June 
29, 2016. Based on FMCSA's contract with NAS, we expect its final 
report, with any recommendations for changes, in June 2017. The scope 
of the NAS study, as prescribed in the FAST Act, did not include an 
assessment of the SFD Notice of Proposed Rulemaking.
    The SFD Notice of Proposed Rulemaking was published on January 21, 
2016, and the response comment period closed on May 23, 2016. The 
Agency received approximately 170 comments. FMCSA is currently 
reviewing the comments to identify any appropriate revisions to the 
Agency's proposal. This is a significant rulemaking requiring review by 
the Office of Management and Budget. FMCSA does not expect this final 
rule to be published before December 2017.
    If the National Academies provides recommendations relevant to the 
SFD final rule, FMCSA will consider them as appropriate when developing 
the final rule.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                          Hon. Anthony R. Foxx
    Question. One of the lessons we learned in the aftermath of GM's 
ignition-switch crisis was just how woefully inadequate NHTSA's Office 
of Defects Investigation (ODI) had been. It was clear that there needed 
to be sweeping reforms, fresh leadership, drastic employee training, 
and more resources and authority. In the FAST Act, we were able to 
provide NHTSA's vehicle safety mission with GROW AMERICA authorization 
levels as soon as you certify that ODI has successfully completed all 
17 recommendations made by the Inspector General in June 2015. It's my 
understanding that nearly a dozen recommendations are nearly completed. 
Secretary Foxx, can you comment on how you and Administrator Rosekind 
have ensured that ODI--and NHTSA in general--not only make the IG's 
recommendations but also see to it that ODI never returns to what had 
been an awful state?
    Answer. NHTSA's own internal review and the review performed by the 
O.I.G. last year form the agency's roadmap for building a more 
effective and comprehensive defects program. In the agency's June 16, 
2015 comments to the O.I.G. Draft Audit Report (ST-2015-063), NHTSA 
established an aggressive implementation schedule. NHTSA has taken 
extensive action to address the O.I.G.'s recommendations, and NHTSA has 
met all of its self-imposed completion dates for those recommendations. 
NHTSA has also implemented additional processes and technology to 
complement and enhance the improvements identified by the O.I.G. and by 
the agency's internal review, including the installation of new 
leadership, improved processes and procedures, a robust training plan, 
and enhanced quality control measures to ensure the continued 
accountability of ODI.
    My office will continue to work with both NHTSA and the O.I.G. to 
ensure the continued implementation and execution of NHTSA's improved 
policies and procedures.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Anthony R. Foxx
    Question 1. Secretary Foxx, do you agree all NHTSA recalls are 
safety recalls, address an unreasonable risk to safety, and should be 
promptly repaired?
    Answer. Manufacturers must recall vehicles with a safety defect or 
vehicles that do not comply with a Federal Motor Vehicle Safety 
Standard (FMVSS). In either case, the defect or non-compliance presents 
an unreasonable risk to safety that must be addressed promptly.

    Question 2. One pressing safety issue for children involved in 
crashes is that even when properly secured in a child restraint, 
failure of a front seatback in a crash may put back seat passengers--
especially infants and children--at serious risk of injury or even 
death. According to a child rear impact study commissioned by the 
Center for Auto Safety, approximately 50 children placed behind 
occupied seats die annually in rear impact incidents.
    Secretary Foxx, what are the Department's plans to upgrade the 
safety standard for seatback performance? What steps has DOT taken to 
look into this?
    Answer. NHTSA is working to strengthen its standards for integrated 
rear impact protection (whiplash mitigation and mitigation of harmful 
interaction between front and rear seat occupants). The agency is 
currently:

  <bullet> Developing a more sophisticated, anatomically correct test 
        dummy to determine how seat backs can be strengthened to 
        increase protection to front seat occupants without creating 
        more injuries to rear occupants (i.e., from being too rigid);

  <bullet> Developing revised neck injury criteria for manufacturers to 
        provide better whiplash protection in low speed impacts, as 
        well as to use with the new rear impact test dummy to 
        comprehensively assess potential safety improvements in high 
        speed rear impacts;

  <bullet> Researching an upgrade to frontal crash protection 
        requirements to improve the lower rear-facing part of the seat 
        back, which has been a source of injury to belted and unbelted 
        rear seat occupants. The findings will inform NHTSA's next 
        steps toward enhancing seat back performance.

    NHTSA also continues to work towards mitigating the occurrence of 
rear impact crashes. The agency's encouragement of Automatic Emergency 
Braking (AEB) in the New Car Assessment Program will move us closer to 
that goal. We estimate that this technology will save 100 fatalities 
and 4,000 serious injuries annually.

    Question 3. The Department's current occupant crash protection 
standards require vehicles to include warning labels informing 
consumers stating: ``The BACK SEAT is the SAFEST place for children.'' 
However, I understand that the seat back failure risk can be mitigated 
by placing children behind unoccupied front seats, such as the empty 
middle seat, for which there is no front seat, or behind the lighter 
front seat occupant. Consumers are not advised that the middle seat may 
be the safest. It strikes me that in the meantime, ensuring consumers 
have this critical information could be a good and commonsense first 
step.
    Secretary Foxx, what are the Department's plans to ensure consumers 
have the most accurate and up-to-date information regarding the safest 
seat and position for children?
    Answer. Data consistently show that the rear seat is the safest 
place for children under 13 years of age. NHTSA data show that rear 
seats are 25-75 percent more effective in reducing fatalities (compared 
to front seats) for children less than 13 years of age.
    NHTSA does not specifically advise consumers to use the rear middle 
seats over the outboard rear seats. Real world data suggests that if a 
child is properly restrained in rear seating positions (middle or 
outboard), the probability of injury in crashes is very low regardless 
of outboard or middle seat. NHTSA recommends that consumers read the 
car seat's instruction manual and the portion of the vehicle's owner 
manual on car seat installation. Because car seats and vehicles are 
different, it is important to follow all instructions carefully.
    NHTSA continues to monitor data regarding the safest seating 
positions for children. The agency uses this data to develop and 
disseminate the best child passenger safety information to consumers by 
a variety of methods, including via our website, printed and video 
information, through partner organizations and through the network of 
more than 25,000 certified Child Passenger Safety (CPS) technicians 
around the country.

    Question 4. Secretary Foxx, as you know, several of the major 
airlines have taken actions to prohibit third-party travel websites 
from accessing published fare, schedule, and seat availability data. 
Senator Markey and I have previously written to you on this matter, 
urging you take action against such unfair methods of competition. You 
have the statutory authority to remedy this problem. When, exactly, can 
we expect the Department to act?
    Answer. I share your view that this is a very important matter--one 
with far-reaching implications for consumers, airlines, ticket agents, 
and the various participants in the distribution chain. This is why the 
Department posed questions related to airline restrictions on the 
display of flight, schedule, fare, and seat availability information in 
the May 23, 2014, notice of proposed rulemaking titled ``Transparency 
of Airline Ancillary Fees and Other Consumer Protection Issues.'' (See 
79 Fed. Reg. 29974.) Separately, as you know, we have met with 
representatives of online travel agencies, metasearch sites, and 
airlines to better understand their roles and relationships and how 
restrictions on airline flight information may affect consumers' 
ability to make efficient and accurate comparisons between fares and 
other flight information. We continue to examine this matter to 
determine whether any current practices are unfair or deceptive or 
constitute an unfair method of competition.

    Question 5. In May 2015, DOT released a rule requiring railroads to 
implement redundant signal protection by 2018. In other words, 
railroads must take better precautions to ensure trains don't go over 
tracks occupied by workers.
    That rule came about because of a provision in the FAST Act I 
fought hard to achieve--and I appreciate the cooperation of Chairman 
Thune and Ranking Member Nelson in helping advance that effort. The 
provision in the FAST Act, in turn, was spurred by a horrific tragedy 
in West Haven in which a track worker was killed. And one outside 
Boston in which two were killed. The NTSB for many years called on DOT 
to take action. I am glad it finally has.
    There are other outstanding safety recommendations from NTSB--and 
that I fought to get into the FAST Act. For instance, one provision--
section 11409--requires DOT to re-evaluate regulations governing 
inspection practices for commuter railroads. After a horrific crash 
three years ago in Bridgeport that injured many, the NTSB urged DOT to 
ensure railroads weren't skating by and inspecting railroad tracks two 
at a time--which makes it easy to miss rail defects that can lead to 
catastrophes
    Secretary Foxx, what actions is DOT taking to improve commuter 
inspection practices so crashes like the Bridgeport one don't happen 
again?
    Answer. In accordance with section 11409 of the FAST Act, FRA is 
currently in the process of re-evaluating several of its requirements 
contained in the Track Safety Standards regulation at 49 CFR Part 213. 
As part of these efforts, FRA's Railroad Safety Advisory Committee 
(RSAC) has accepted the task of reviewing and updating, as necessary, 
the track inspection requirements. These activities will include an 
evaluation of track inspection practices on high-density commuter 
operations, such as along the Northeast Corridor. The RSAC Track 
Working Groups are also considering other potential changes to the 
existing regulations related to continuous testing and rail head wear. 
Over the next several months, FRA will also be reviewing the speed 
limit action plans of all commuter and intercity passenger operations 
consistent with the requirements of section 11406 of the FAST Act.

    Question 6. In May 2015, a fire in a garden center in New York City 
broke out right below a viaduct of elevated track that carries trains 
serving Metro-North's Harlem, Hudson and New Haven Lines. Many reports 
stated the fire was sparked when workers at the garden center spilled 
fuel on a hot generator as they were refilling it. Reports also 
indicated this happened in an area of the store loaded with highly-
flammable materials, like fertilizer and firewood. According to city 
officials, these materials were stored without necessary permits.
    The conflagration was so severe that it damaged already-aging beams 
and structures supporting elevated track that carries hundreds of 
thousands of commuters per day. Repairing that damage took days, and 
during that time many of my constituents endured dreadful commutes. 
And, still, I understand some service will remain slowed indefinitely 
as longer-term repairs are carried out.
    Metro-North has hundreds of miles of track--much of it elevated--
throughout Connecticut and the New York City region.
    Immediately, I urged Federal officials to take a look at this 
incident. This could be a sign of a major issue. While many local 
jurisdictions play an important role promoting fire safety and ensuring 
proper fire oversight in the areas that Metro-North serves, I believe 
Federal officials could play an important role here, too. A more 
aggressive, formal, Federal effort could help to ensure these kinds of 
practices are kept at bay.
    Secretary Foxx, what can DOT do to prevent further incidents like 
this?
    Answer. FRA's regional inspection forces as well as FRA's Bridge 
and Structures Division monitored the incident in New York and engaged 
in several conversations with Metro-North Commuter Railroad (MNCR) and 
Metropolitan Transportation Authority (MTA) representatives. Bridge and 
structure safety oversight is a key element to the efforts of the Rail 
and Infrastructure Integrity Division. Through its field enforcement 
staff, it participates in bridge accident investigations, performs 
bridge assessments and bridge management program reviews, and provides 
direction and technical advice in bridge inspection, maintenance, and 
management. Both MTA and MNCR conducted site inspections of all tenant 
spaces posing potential hazards to the right-of-way (ROW) and 
implemented mitigations. MNCR has an on-going ROW task force to 
identify safety and security risks along its ROW and address issues and 
ensure compliance with applicable State and local codes. MNCR has also 
contacted Connecticut DOT (CDOT) to initiate fire inspections of CDOT 
and MNCR facilities. MNCR also conducted meetings with the New York 
Fire Department to discuss various response and communication issues. 
FRA is not aware of any similar incidents occurring under elevated 
structures at other locations across the country, but the Agency will 
continue to perform its bridge and structure safety oversight 
functions, including providing guidance on Railroad Bridge Worker 
Safety pursuant to the Bridge & Structures Section's mission.

    Question 7. There are many ``modal'' agencies within DOT focused on 
the major transportation functions--aviation at FAA, rail at FRA, and 
so forth. But there's one function that's actually housed within the 
Secretary's office--the Office of Aviation Enforcement and Proceedings, 
which focuses on consumer issue.
    Under current law, consumers and states lack a private right of 
action regarding unfair, deceptive, and anti-competitive practices 
against airlines. Consumers' only recourse is to file a complaint with 
DOT, hope DOT pursues the matter through administrative remedies and 
civil fines. These remedies--like cease and desist orders--can be weak, 
and fines (which are negotiated) can be weak as well. For example, in 
2015 DOT levied just $2.7 million in fines against an industry with 
nearly $169 billion in annual revenue.
    The situation is perhaps worse for persons with disabilities trying 
to assert their rights to be accommodated when flying. Again, only DOT 
can assert their claims and receive damages. In 2014, passengers filed 
772 disability-related complaints with DOT about airlines. But the U.S. 
Department of Transportation appears to do little with these individual 
complaints, taking real action only when there are ``a number of 
complaints'' against one airline, as DOT wrote one disabled passenger. 
Even then, enforcement is rare. For example, in 2015, there were no 
enforcement orders against any airlines. In 2014, there was just one.
    Secretary Foxx, wouldn't allowing a private right of action--in 
addition to continuing to allow DOT enforcement efforts--make real, 
positive, structural changes to how airlines operate and interact with 
the public?
    Answer. The Department would be pleased to work with you on any 
proposal that might better protect air travel consumers, particularly 
passengers with disabilities.
    The Department maintains a robust air travel consumer protection 
program, which includes vigorously and fairly enforcing existing rules. 
Staff members in the Department's Office of Aviation Enforcement and 
Proceedings and its Aviation Consumer Protection Division (ACPD) 
routinely monitor air travel complaint records to determine the extent 
to which airlines are in compliance with Federal statutes and 
regulations, and to track trends or spot areas of concern which may 
warrant further action. So far this calendar year, the Department has 
issued 14 consent orders assessing almost $4,000,000 in civil penalties 
against carriers and ticket agents for violations of Federal laws 
protecting the economic and civil rights of air travelers. Four of 
these orders assessing more than $2,500,000 in penalties have been for 
violations of the rule protecting the rights of passengers with a 
disability. In addition, staff members often provide direct assistance 
to consumers. A recent Washington Post article recognized the 
significant assistance that ACPD provides air travelers who are 
dissatisfied by helping them one-on-one. It noted that airlines respond 
quickly to consumer problems when DOT contacts them because ``If they 
don't they could soon find themselves paying an even bigger fine.''
    In connection with consumer claims, the Airline Deregulation Act of 
1978 (ADA), by which Congress deregulated the airline industry, does 
not provide for a private right of action for general consumer claims 
against airlines. In addition, under the ADA, states are prohibited 
from enforcing any law ``relating to rates, routes, or services'' of 
any airline. The preemption provision of the ADA limits the ability of 
individuals to bring a private right of action; however, there is 
precedent permitting certain claims under State or Federal law. For 
example, the Supreme Court has held that that breach of contract claims 
may be brought against airlines for violations of their own contracts 
entered into voluntarily. There is also precedent indicating that tort 
claims under state law may be brought against airlines.
    Regarding the rights of air travelers with disabilities, the Air 
Carrier Access Act (ACAA)--codified at 49 U.S.C. Sec. 41705--was 
construed by the courts to contain an implied private right of action 
until 2002. In 2002, the 11th Circuit held that no private right of 
action exists under the ACAA and that the ACAA can only be enforced 
administratively by the Department. A similar decision was also issued 
by the 10th Circuit. Prior to those court decisions, individuals were 
able to sue for damages separate from any administrative action by the 
Department.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Hon. Anthony R. Foxx
    Question 1. Secretary Foxx, on April 22, 2016, the U.S. Department 
of Transportation issued a Notice of Proposed Rulemaking (NPRM) on, 
``National Performance Management Measures; Assessing Performance of 
the National Highway System, Freight Movement on the Interstate System, 
and Congestion Mitigation and Air Quality Improvement Program.'' I have 
received input from several advocacy groups concerned that the NPRM 
could lead the Department to define ``successful performance'' as those 
measures which allow for cars and trucks to move consistently at high 
speeds. Certainly getting people from point A to point B quickly is 
good but congestion relief is also achieved when someone takes transit, 
walks or skips a trip altogether.
    Mr. Secretary, given your successful and positive work with the 
Mayor's Challenge for Safer People, Safer Streets, and LadderSTEP, how 
will the final rule complement your vision and demonstrated success at 
promoting complete streets and multimodal connectivity and avoid policy 
that would incentivize highway widening?
    Answer. USDOT carefully considered a wide range of input from 
stakeholders in the development of the measures proposed in this notice 
of proposed rulemaking (NPRM). In the proposal, USDOT discusses the 
stakeholder input received which includes comments urging the 
Department to consider a measure that would directly reflect the 
mobility of travelers using all surface modes of transportation--a 
``multi-modal'' performance measure. Although USDOT supports the desire 
to move to a multi-modal measure, we do not believe sufficient data is 
available at this time to support and require an effective measure in 
this area and have asked for additional public input on this topic.
    The NPRM expresses USDOT's desire for a multi-modal measure and 
seeks specific comments on feasible approaches that can be taken to 
move toward the development of such a measure. The Department has 
received nearly 5,000 comments on this proposal to date, including 
commenters sharing your view. I can assure you that we take these and 
all comments received very seriously and will fully consider all 
comments in the rulemaking process. As you noted, we also have a number 
of efforts underway to promote and advance smarter transportation 
systems that connect people to places; this work will help us move 
toward new performance measures in the future that more directly 
address a complete transportation system.

    Question 2. Secretary Foxx, the FAST Act expanded TIFIA to make 
Transit Oriented Development (TOD) projects eligible for financing. In 
determining whether or not to consider providing credit assistance to a 
project sponsor seeking TIFIA financing for a TOD project, is it 
statutorily required that the project sponsor must obtain an investment 
grade rating? If not, does the Secretary have the authority to consider 
other factors such as collateral to determine the creditworthiness of a 
project?
    Answer. Yes, it is statutorily required that the sponsor of a TOD 
project must obtain an investment grade rating on the project's senior 
debt. All TIFIA projects, including TOD projects, must obtain an 
investment grade rating on the debt senior to TIFIA. If the TIFIA loan 
is the project's senior debt, the TIFIA loan must also receive an 
investment grade rating. In addition to the requirement that the 
project's senior debt receive an investment grade rating, the TIFIA 
statute requires that a project satisfy other applicable 
creditworthiness standards, including demonstration of adequate 
coverage levels. An evaluation of a project's coverage levels enables 
the Department to consider the sufficiency of the revenues pledged to 
repay the TIFIA loan.

    Question 3. Secretary Foxx, are there any new authorities within 
the Office of the Secretary or changes to existing statute that you 
believe would make the TIFIA program more accessible to project 
sponsors of small TOD projects? Small being defined as projects costing 
$10 million.
    Answer. The FAST Act incorporated several changes to the TIFIA 
program that we anticipate will make the program more accessible to 
sponsors of small projects. USDOT is focused on implementing these FAST 
Act provisions and would prefer to evaluate their impact prior to 
proposing any additional changes to the statute.

  <bullet> As one example of the FAST Act's changes that benefit 
        sponsors of small projects, the minimum project cost threshold 
        for TIFIA assistance is generally $50 million (or, prior to the 
        FAST Act, $25 million for a qualifying rural infrastructure 
        project). The FAST Act lowered the minimum cost threshold for 
        rural infrastructure projects to $10 million, and set the 
        minimum cost threshold for TOD projects and local 
        infrastructure projects at $10 million. Each of these changes 
        should make the program more accessible to project sponsors of 
        small TOD projects.

  <bullet> As another example, the FAST Act expanded the definition of 
        eligible TIFIA projects to include the capitalization of a 
        rural projects fund (of up to $100 million) within a State 
        Infrastructure Bank (SIB). TIFIA credit assistance to 
        capitalize such a fund could then be used to make loans to 
        small, rural infrastructure projects, potentially including TOD 
        projects.

  <bullet> Finally, the FAST Act requires DOT to reserve at least $2 
        million of each year's TIFIA funding to use in lieu of fee 
        payment by sponsors of smaller projects, specifically those 
        costing less than $75 million. Small TOD projects would be 
        eligible to receive assistance from this pool of reserved 
        funding.

    Question 4. Secretary Foxx, as you know, since 2013 the Federal 
Railroad Administration has been working on an update to its train 
crashworthiness safety standards, known as Passenger Equipment 
Alternative Compliance. This update aims to modernize passenger train 
car regulations to improve safety, lower fossil fuel consumption, 
increase potential train speed and reduce procurement and maintenance 
costs. Mr. Secretary, what is the status of this rule, and do you 
foresee a comprehensive, reform-oriented regulation being published and 
ultimately finalized in the near future?
    Answer. A notice of proposed rulemaking (NPRM) addressing design 
requirements related to passenger equipment (including equipment 
capable of operating up to 220 mph) is currently undergoing final 
Executive Branch review. Because performance standards for passenger 
equipment contained in the proposal were approved by the Railroad 
Safety Advisory Committee (RSAC), the stakeholders within the industry 
are expected to be supportive of the proposed rule. We expect to 
publish the NPRM in the near future.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Edward Markey to 
                          Hon. Anthony R. Foxx
    Question. As automobile safety technologies continue to evolve, it 
is paramount that we take common sense steps to ensure that these 
safety features function properly.
    Regrettably, the National Highway Traffic Safety Administration's 
(NHTSA) current rules allow tire pressure monitoring systems, which 
electronically gauge if a vehicle's tires have the appropriate air 
pressure, to be recalibrated to dangerous pressure levels without 
alerting the driver. As a result, drivers could unintentionally and 
unwittingly increase the risk of a tire failure or blow out.
    To address this safety hazard, Senator Gardner and I included a 
provision (Section 24115) in the Fixing America's Surface 
Transportation (FAST) Act, the five year surface transportation 
reauthorization bill that passed late last year, that requires NHTSA to 
update its rules to ensure that tire pressure monitors cannot be 
recalibrated to unsafe levels.
    Secretary Foxx, our provision requires the Department of 
Transportation (DOT) to publish proposed rule by December 4, 2016. 
Could you provide me with an update on the status of the rulemaking? 
What specific steps must the DOT take to promulgate the proposed rules 
and what is the agencies' timeline for completing each step?
    Answer. The Federal Motor Vehicle Safety Standard No. 138, ``Tire 
pressure monitoring system'' (TPMS), established performance-based 
testing requirements for TPMS and does not require specific technology. 
The agency is reviewing the FAST Act provision to understand how it 
would impact the current TPMS standard. NHTSA is also conducting a Tire 
Pressure Monitoring Systems-Outage Rates and Repair Costs study that 
may inform the rulemaking. The agency is working to meet the regulatory 
timing outlined in the Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Hon. Anthony R. Foxx
    Question 1. The Gateway Hudson Tunnel project to build new rail 
tunnels under the Hudson River is critical to New Jersey and to the 
Northeast region. The existing tunnels are over 100 years old and 
require substantial maintenance. Even a minor delay in the tunnels can 
cause major congestion throughout the New Jersey-New York region. If 
these tunnels were closed for an extended period of time, the ripple 
effects would be devastating to the economy of the Northeast Corridor. 
Can I have your commitment that you will work with us to utilize any 
opportunity--be it Federal grants such as TIGER and New Starts or 
Federal loan programs--to advance the Gateway Hudson Tunnel project?
    Answer. The Department is supporting the Hudson Tunnel Project and 
the Gateway Program to improve rail service between New Jersey and New 
York City.
    A Federal investment of $235 million--a transfer that the Federal 
Railroad Administration (FRA) received from the Federal Transit 
Administration (FTA) through Hurricane Sandy Relief funds to support 
Amtrak's Hudson Yards Right of Way Preservation Project--is an 
important investment supporting this critical development.
    The FRA has since initiated the environmental impact statement 
process for the Hudson Tunnel Project on May 2, 2016. The Department is 
also assisting New Jersey Transit, Amtrak, and the Port Authority of 
New York and New Jersey (PA) in establishing an entity that can manage 
the implementation of the Gateway Program. The Department is taking 
into account the critical nature of the old tunnels under the Hudson 
River in considering any funding requests for the Gateway Program.
    In addition, on July 14, the Gateway Program projects took another 
significant step toward receiving major DOT funding when the Department 
moved the Hudson Tunnel Project and Portal North Bridge--both critical 
elements of the Gateway Program--into the Project Development process 
for New Starts, a type of Capital Investment Grant through the FTA.

    Question 2. There are concerns that Federal permitting requirements 
could delay the project. What steps can you take to speed the project's 
approval, while also allowing for proper environmental reviews?
    Answer. For the Hudson Tunnel Project, the Federal Railroad 
Administration (FRA) has worked with New Jersey Transit and Amtrak to 
commit to an aggressive 24-month schedule for completing the entire 
National Environmental Policy Act (NEPA) review, including the 
preliminary engineering required to support the NEPA review. In order 
to meet this schedule, the project team will utilize, as appropriate, 
work conducted for previously completed studies (e.g., the extensive 
engineering and environmental documentation prepared for the Access to 
the Region's Core project and Amtrak's Gateway Program Feasibility 
Study). Additionally, the FRA is: (1) working with the project partners 
to integrate permitting requirements into the NEPA analysis and process 
as much as is practicable based on the early stage of design; (2) 
maintaining transparency by publishing the Project schedule on the 
Permitting Dashboard for Federal Infrastructure Projects; and (3) 
establishing and leading a task force comprising Federal agencies with 
a role in the environmental compliance and/or permitting processes--in 
order that issues can be identified and addressed/resolved in a timely 
and efficient manner.

    Question 3. The cost of a fatal multi-vehicle commercial motor 
vehicle accident can exceed $20 million to compensate families, care 
for the injured, and repair damage to our Nation's highway 
infrastructure. Yet the requirement for commercial motor vehicle 
carriers to carry at least $750,000 in minimum insurance has not been 
increased in 30 years, even to account for inflation. In result, 
taxpayers have borne much of the cost of major truck accidents. In your 
professional judgment, how important is it that we address these 
insufficient levels of insurance?
    Answer. FMCSA shares your interest in determining whether current 
minimum insurance level requirements mandated by the Agency are 
sufficient to ensure adequate coverage for losses resulting from 
commercial motor vehicle crashes. On November 28, 2014, the Agency 
published an advance notice of proposed rulemaking (ANPRM) seeking 
public comment and requesting related data from the insurance industry 
and key stakeholders to make an informed decision whether to move 
forward with a notice of proposed rulemaking related to minimum levels 
of financial responsibility. However, the Agency did not receive a 
sufficient quantity of data to adequately inform a rulemaking to 
increase insurance levels. Generally, insurance claim and settlement 
data is proprietary and not available to the public or the Agency.
    The Agency continues to work with stakeholders, including insurance 
providers, to gather any available data to complete the motor carrier 
financial responsibility study mandated in section 5517 of the FAST 
Act. The Agency is also seeking additional data to inform any future 
minimum financial responsibility rulemaking, and will undertake the 
analysis required by section 5509 of the FAST Act prior to issuing a 
final rule.

    Question 4. For the last few years, the commercial motor vehicle 
industry has attempted to roll back Federal rules meant to prevent 
fatigue among commercial drivers. This year, they are also seeking to 
preempt state laws on hours of service such as California's meal and 
rest break requirements. In the meantime, we continue to see reports in 
which fatigue led to a tragic collision.
    The Department of Transportation has been warning about the dangers 
of fatigue for many years. How concerned are you that efforts to 
undermine the Department's hours of service requirements could result 
in more fatigued drivers behind the wheel?
    Answer. FMCSA commits its resources to improve commercial motor 
vehicle (CMV) safety. The Agency remains concerned about the safety 
risks associated with cumulative fatigue when drivers are required or 
allowed to work intensive schedules, week after week. While most 
drivers do not work such grueling schedules, the Agency believes there 
should be safeguards in place to prevent truck operators from driving 
after accumulating excessive on-duty hours during a work week. FMCSA 
continues to collaborate with the industry and government officials 
from the U.S. and Canada to develop the North American Fatigue 
Management Program (NAFMP). The NAFMP reinforces the Agency's safety 
mission by providing training and fatigue management procedures that 
companies can implement and is available online at www.nafmp.com.
    The Department does not recommend that the Federal Government 
preempt the State of California's meal and rest break requirements, 
which are primarily matters of State labor law.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Hon. Anthony R. Foxx
    Question 1. I'm very enthusiastic about advancing connected and 
automated vehicle (CAV) technology safely across the country, and will 
continue to work with DOT to develop a common understanding of the 
performance characteristics necessary for fully autonomous vehicles and 
the testing and analysis needed to assess them.
    Sec. Foxx, you announced at the Detroit Auto Show that DOT was 
committed to working with industry and other stakeholders to develop 
guidance on the safe deployment and operation of autonomous vehicles. 
You also stated that NHTSA will work with state partners to develop a 
model state policy on automated vehicles that offers a path to 
consistent national policy. As you know, 34 states have considered or 
are considering bills related to automated driving. We must work 
closely with state and local authorities to assist in the development 
of consistent regulations to fully realize the national advantages of 
these technologies.
    Please provide an update on the development of NHTSA's pending 
autonomous vehicle guidelines and model policy for state regulation, 
including the anticipated date of release for both. Will NHTSA 
recommend specific next steps regarding autonomous vehicles, and if so, 
what themes would such next steps address?
    Answer. NHTSA anticipates issuing the highly automated vehicles 
report, which includes guidance and the model State policy in the near 
future. The agency plans to address next steps and will likely include 
activities aimed at improving and expanding the guidance as well as 
providing oversight.

    Question 2. How do existing or potential state laws related to 
self-driving technologies inform your Department's development of 
national guidance? Do you believe legislation is necessary to achieve 
consistent national policy, and if so, what new authorities and/or 
resources would be helpful to that end?
    Answer. NHTSA considers a wide variety of information sources when 
forming national guidance, including existing State laws and pending 
legislation. NHTSA has been coordinating with individual states as well 
as representative bodies such as the American Association of Motor 
Vehicle Administrators (AAMVA) as part of the agency's recent actions 
to develop a model State policy and operational guidance for automated 
safety technologies. A primary goal of these actions is to move our 
system toward achieving a uniform national policy.
    As part of the highly automated vehicles report, NHTSA will also 
address the issue of what new tools and authorities the agency may need 
to operate in a fast-changing technology environment. We note that, in 
drafting the original Vehicle Safety Act in 1966, Congress sought to 
ensure that the standards issued under the Act would be uniform and 
national so that the public as well as industry would be guided by a 
single set of criteria instead of a multiplicity of diverse standards. 
We will evaluate whether legislation is needed to achieve consistent 
national policy regarding automated safety technologies.

    Question 3. An April 2016 GAO report on vehicle cybersecurity 
recommended that DOT should ``define its role in responding to a real-
world attack.'' How are you incorporating cybersecurity principles into 
your autonomous vehicle guidance?
    Answer. The highly automated vehicles report will include 
Performance Guidance with sections dedicated to cybersecurity and 
privacy. These sections will provide guidance to system developers to 
adopt a risk-based systems engineering approach. As part of this 
approach, the agency recommends that system developers assess, identify 
and mitigate cybersecurity vulnerabilities, risks and threats that 
could present unreasonable safety risks to the public or compromise 
privacy-sensitive data. NHTSA recommends that system developers not 
only design layers of protection appropriate to the assessed risks, but 
also consider the full life-cycle management of vehicle cybersecurity 
and plan for rapid remediation capabilities. The agency recommends 
adoption of existing proven standards, such as the NIST framework, and 
industry's recommended best practice, Cybersecurity Guidebook for 
Cyber-Physical Vehicle Systems (J3061). Further, NHTSA suggests that 
system developers fully document their cybersecurity process as well as 
all actions, changes, design choices, analyses, associated testing and 
data. The agency also encourages data and intelligence sharing with 
respect to individual experiences with the broader community.

    Question 4. How will DOT define and address safety recalls made 
necessary due to cyber vulnerabilities of critical systems?
    Answer. Traditional motor vehicle safety defects are generally 
evaluated based on severity and frequency of the defect conditions, but 
cyber vulnerabilities should be approached differently. For cyber 
vulnerabilities, the safety risks should be evaluated by assessing, 
among other factors, the probability of an attack and the severity, 
should the attack occur. The probability of an attack is based, in 
part, on the difficulty of exploiting the vulnerability. The severity 
for cyber vulnerabilities is based, in part, on whether safety-related 
vehicle functions are impacted and whether, among other things, this 
can occur while the vehicle is in motion. Following the evaluation of 
the safety risks, NHTSA may consider a cyber vulnerability to be a 
safety-related defect compelling a recall.

    Question 5. The FAST Act contains a requirement that GAO submit a 
report to Congress within 2 years that: ``(1) assesses the status of 
autonomous transportation technology policy developed by public 
entities in the United States; (2) assesses the organizational 
readiness of the Department to address autonomous vehicle technology 
challenges, including consumer privacy protections; and (3) recommends 
implementation paths for autonomous transportation technology, 
applications, and policies that are based on the assessment described 
in paragraph (2).''
    Please provide an update on your Department's engagement with GAO 
in the development of this report, including the anticipated date of 
its release.
    Answer. GAO has not initiated its engagement with the Department. 
It is our understanding that GAO plans to start this engagement in late 
summer or fall. NHTSA will fully cooperate with GAO once it starts this 
engagement.

    Question 6. The NHTSA CAFE and EPA fuel economy programs play 
important roles in driving forward innovative vehicle technologies, 
which helps to build advanced cars and trucks, create manufacturing 
jobs, save energy, improve air quality, and address a changing climate. 
It is my understanding that the two programs are set up so that one 
auto manufacturers can build a single fleet of U.S. vehicles that 
satisfy requirements of both Federal programs as well as California's 
program. I'd like to gain a better grasp of some of the differences in 
the availability and usability of credits under each program.
    Is it possible that an automaker could be fully in compliance with 
one of the two Federal programs and yet find itself out of compliance 
with the other program--and thus possibly subject to fines?
    Answer. Yes. However, the agencies have sought to craft harmonized 
standards such that manufacturers may build a single fleet of vehicles 
to meet both agencies' requirements. Manufacturers should plan their 
compliance strategies to meet both the NHTSA standards and the EPA 
standards, but they can still build a single fleet of vehicles to 
accomplish that goal.

    Question 7. By statute, I understand that NHTSA credits can only be 
used for up to 5 years, but EPA credits, in some instances, can be used 
for up to 11 years. Will you please explain the differences in the life 
of credits between the two programs, and would allowing credits earned 
under the NHTSA program to have comparable usable lives serve to more 
closely harmonize this aspect of the two programs?
    Answer. NHTSA's usable life of credits, five consecutive model 
years, is dictated by statute. EPA set its usable life of credits by 
regulation, and established a program under which usable life varies 
based on the year in which the credit was earned. Specifically, the 
usable life of EPA credits phased down from eleven years to five years 
over the course of model years 2010 through 2016.
    As a result, NHTSA and EPA's usable life of credits is presently in 
alignment. Beginning with Model Year 2016 vehicles and continuing into 
the future, both agencies allow for five years of usable credit life. 
Any changes to the usable life of present or future credits earned 
under NHTSA's program would create a misalignment with EPA's program. 
Further, any retroactive changes to the usable life of previously 
earned credits under NHTSA's program would give some manufacturers a 
windfall, whereas manufacturers who did not earn credits as part of 
their long-term compliance plan would suffer a comparable competitive 
loss.

    Question 8. Also by statute, the ability of manufacturers to 
transfer credits from one fleet to another is limited to no more than 2 
mpg, whereas the transferability of credits in the EPA program is 
unlimited. Would expanding the credit transfer cap in the CAFE program 
to a higher level more closely align this aspect of the two Federal 
programs?
    Answer. The differences between the EPA and NHTSA programs are a 
result of different statutory authorities for the regulation of fuel 
economy and greenhouse gases. However, the programs were structured to 
account for these differences. NHTSA and EPA have worked closely to 
ensure that their respective programs, taking all relevant statutory 
considerations into account, will work in a coordinated fashion, and 
will provide regulatory compatibility that allows auto manufacturers to 
build a single national light-duty fleet that would comply with both 
the GHG and the CAFE standards.
    As part of the Energy Independence and Security Act of 2007 (EISA) 
amendments to EPCA, NHTSA was required to establish a CAFE credit 
transferring program to allow a manufacturer to transfer credits 
between its car and light truck fleets to achieve compliance with the 
standards. However, EISA imposed a cap on the amount by which a 
manufacturer could raise its CAFE standards through transferred 
credits. The caps ensure that fuel economy improvements are attained in 
both the passenger car and light truck fleets. Manufacturers 
transferring or trading credits to another compliance category are also 
subject to an adjustment factor to ensure total fuel savings are 
preserved.
    Under section 202(a) of the Clean Air Act (CAA), there is no 
statutory limitation on car/light truck credit transfers, and EPA's GHG 
program allows unlimited credit transfers across a manufacturer's car/
light truck fleet to meet the GHG standard. EPA also requires 
manufacturers to use an adjustment factor in transferring credits 
across cars/trucks, in a similar way as the CAFE program, to preserve 
total GHG emissions reductions.

    Question 9. Does the Administration have the authority to address 
these specific concerns under the current CAFE statute?
    Answer. NHTSA is currently in the process of conducting a Mid-term 
Evaluation of the Model Year 2022-2025 CAFE standards. Following the 
Mid-term Evaluation, NHTSA will conduct a rulemaking on the Model Year 
2022-2025 CAFE standards. This opportunity will allow the agency to 
review stringency levels and existing flexibilities, pursuant to 
existing statutory authority. NHTSA is available to provide technical 
assistance on any amendments to the CAFE program statutes that Congress 
wishes to consider.

    Question 10. If these credits were expanded, would you expect an 
overall reduction in fuel economy improvements compared to current 
trends?
    Answer. If the 2 mpg credit transfer cap were enlarged or 
eliminated, NHTSA expects there would be an overall reduction in fuel 
economy improvements compared to current trends. Enlarging or 
eliminating the transfer cap would allow manufacturers to offset more 
potential credit deficiencies for light trucks, thereby slowing the 
improvement of fuel economy for light truck fleets.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
